<html>
<title> - ENHANCING THE RELEVANCE OF SPACE TO ADDRESS NATIONAL NEEDS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                       ENHANCING THE RELEVANCE OF 
                    SPACE TO ADDRESS NATIONAL NEEDS 

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 16, 2009

                               __________

                           Serial No. 111-44

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                               ----------

                        U.S. GOVERNMENT PRINTING OFFICE 

50-745 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




















                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Space and Aeronautics

                HON. GABRIELLE GIFFORDS, Arizona, Chair
DAVID WU, Oregon                     PETE OLSON, Texas
DONNA F. EDWARDS, Maryland           F. JAMES SENSENBRENNER JR., 
MARCIA L. FUDGE, Ohio                    Wisconsin
PARKER GRIFFITH, Alabama             DANA ROHRABACHER, California
STEVEN R. ROTHMAN, New Jersey        FRANK D. LUCAS, Oklahoma
BARON P. HILL, Indiana               MICHAEL T. MCCAUL, Texas
CHARLES A. WILSON, Ohio                  
ALAN GRAYSON, Florida                    
SUZANNE M. KOSMAS, Florida               
BART GORDON, Tennessee               RALPH M. HALL, Texas
              RICHARD OBERMANN Subcommittee Staff Director
            PAM WHITNEY Democratic Professional Staff Member
             ALLEN LI Democratic Professional Staff Member
            KEN MONROE Republican Professional Staff Member
            ED FEDDEMAN Republican Professional Staff Member
                    DEVIN BRYANT Research Assistant
















                            C O N T E N T S

                             July 16, 2009

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Gabrielle Giffords, Chairwoman, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................    20
    Written Statement............................................    21

Statement by Representative Pete Olson, Ranking Minority Member, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................    21
    Written Statement............................................    23

                               Witnesses:

General Lester L. Lyles [U.S. Air Force, Ret.], Chair of the 
  Committee on the Rationale and Goals of the U.S. Civil Space 
  Program, Aeronautics and Space Engineering Board, National 
  Research Council
    Oral Statement...............................................    24
    Written Statement............................................    27
    Biography....................................................    31

Ms. Patti Grace Smith, Member of the Board of Directors, The 
  Space Foundation
    Oral Statement...............................................    31
    Written Statement............................................    34
    Biography....................................................    38

Ms. Deborah Adler Myers, General Manager, Science Channel, 
  Discovery Communications
    Oral Statement...............................................    38
    Written Statement............................................    40
    Biography....................................................    43

Mr. Miles O'Brien, Journalist
    Oral Statement...............................................    43
    Written Statement............................................    46

Discussion
  Improving NASA's Communication With the Public.................    47
  How Should NASA Communicate Its Contributions to Society?......    49
  Communicating the Value of the ISS to the Public...............    52
  Modernizing Public Relations on the ISS........................    54
  Reducing Mission Risk..........................................    55
  Improving Communication to the Public..........................    56
  Examining NASA Promotion Techniques............................    57
  Will the Private Sector Play a Greater Role in the Future?.....    58
  What Should NASA Do Regarding Space Debris?....................    59
  Viable Space-based Business Models.............................    60
  Streamlining Viable Aerospace Business Models..................    61
  Improving Outreach to Children.................................    61
  Marketing Role Models to the Public............................    62
  Creating a Role Model: Example.................................    63
  Telling the Story of Astronaut Diversity.......................    64
  A New National Space Council: Advisor or Mission Coordinator?..    64
  Inspiring America's Youth......................................    65
  Rewarding Scientists and Engineers With Competitive Pay........    66
  Matching NASA's Budget With Goals..............................    68

              Appendix: Answers to Post-Hearing Questions

General Lester L. Lyles [U.S. Air Force, Ret.], Chair of the 
  Committee on the Rationale and Goals of the U.S. Civil Space 
  Program, Aeronautics and Space Engineering Board, National 
  Research Council...............................................    72

Ms. Patti Grace Smith, Member of the Board of Directors, The 
  Space Foundation...............................................    76

Ms. Deborah Adler Myers, General Manager, Science Channel, 
  Discovery Communications.......................................    78

Mr. Miles O'Brien, Journalist....................................    81


       ENHANCING THE RELEVANCE OF SPACE TO ADDRESS NATIONAL NEEDS

                              ----------                              


                        THURSDAY, JULY 16, 2009

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Gabrielle 
Giffords [Chairwoman of the Subcommittee] presiding.
                            hearing charter

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                       Enhancing the Relevance of

                    Space to Address National Needs

                        thursday, july 16, 2009
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

I. Purpose

    On Thursday, July 16, 2009 the Subcommittee on Space and 
Aeronautics will hold a hearing on enhancing the relevance of space 
activities to address national needs. The hearing will (1) examine how 
recent reports by the National Research Council and The Space 
Foundation characterize the relevance of space-related activities, 
particularly their role in improving the health, economic well-being, 
and the quality of life of all Americans; (2) review what should be 
done to maintain and enhance that relevance; and (3) analyze whether 
enhanced awareness of the contributions from space-related activities 
would result in inspiring future generations of Americans. The hearing 
will focus on the following questions and issues:

        <bullet>  How relevant is space to addressing important 
        national needs, and what noteworthy benefits have been achieved 
        as a result of past space-related investments?

        <bullet>  What should be done to maximize the benefits to be 
        realized from the Nation's space activities and the relevance 
        of those space activities? How important is it for those 
        activities to be aligned to national goals and objectives?

        <bullet>  How important is the inspirational component of the 
        Nation's space activities, and what would be the most effective 
        ways to use space activities to motivate emerging generations 
        of Americans to pursue studies and careers in science and 
        engineering?

        <bullet>  How well does the public understand the relevance of 
        the Nation's space activities to meeting national needs and 
        realizing societal benefits? Is there a need to ``get the 
        message out'' on the relevance of those space activities and 
        the benefits to be derived from our space-related investments? 
        If so, how can that message be most effectively communicated?

        <bullet>  The Nation's space program generated considerable 
        public excitement during the Apollo era. What will it take to 
        get today's public interested and enthused about the Nation's 
        space program?

        <bullet>  What challenges do communications media face in 
        attempting to reach the broadest and largest possible audience 
        while engaging and enlightening them about space? What tools 
        and strategies are used to address those challenges?

II. Witnesses:

General Lester L. Lyles [U.S. Air Force, retired], Chair of the 
Committee on the Rationale and Goals of the U.S. Civil Space Program, 
Aeronautics & Space Engineering Board, National Research Council

Ms. Patti Grace Smith, Board of Directors, The Space Foundation

Ms. Debbie Adler Myers, General Manager, Science Channel, Discovery 
Communications

Mr. Miles O'Brien, Journalist

III. Overview

    Forty years after accomplishing the feat of landing humans on the 
Moon's surface, the U.S. civil space program, including its largest 
component, the programs of the National Aeronautics and Space 
Administration (NASA), finds itself at a critical juncture. Key factors 
that will influence the future of the U.S. civil space program include:

<bullet>  Upcoming results from an independent review of U.S. human 
space flight. The Obama Administration has initiated an independent 
review of ``ongoing U.S. human space flight plans and programs, as well 
as alternatives, to ensure that the Nation is pursuing the best 
trajectory for the future of human space flight--one that is safe, 
innovative, affordable, and sustainable.'' Led by Norman Augustine, the 
blue-ribbon committee held a public meeting in Washington last month 
and has several others planned in the weeks ahead. Results and 
supporting analysis are scheduled to be provided in August 2009, in 
time to support a decision on the way forward. Until then, NASA is 
continuing on a path to complete the International Space Station (ISS) 
and retire the Space Shuttle fleet in 2010, develop its next generation 
of human space transportation systems, and encourage the development of 
commercial space transportation systems capable of bringing cargo to 
the ISS.

<bullet>  Direction from a new NASA Administrator. Charles Bolden, 
nominated to head NASA, said at his Senate confirmation hearing last 
week that he wanted to rekindle the pioneering spirit of the space 
agency's early manned space program. His strategy for achieving that 
objective will have an impact on the future direction of the Agency.

<bullet>  Future NASA funding levels. Many in Congress have argued that 
NASA's budgets have not kept pace with the tasks it has been asked to 
carry out. How this mismatch is resolved will have a major impact on 
NASA's future.

<bullet>  Competition and cooperation in space. Other nations' 
ambitions in space have resulted in significant progress and 
accomplishments. China has joined the United States and the former 
Soviet Union as the only countries to have launched humans into space. 
Europe is considering the feasibility of developing its own human space 
flight transportation system, as is India. The once dominant U.S. civil 
space program finds itself no longer the only game in town. Moreover, 
it is now commonplace for U.S. commercial space interests to find 
themselves in vigorous competition with other nations' space companies 
in vying for business in a global environment. However, cooperation in 
space has long been a significant element of the U.S. civil space 
program. In establishing the National Aeronautics and Space 
Administration through the National Aeronautics and Space Act of 1958 
(P.L. 85-568, as amended), Congress made clear its intent that the 
space program provide benefits to people, that research be utilized, 
and that the United States cooperate with other nations in ``the 
peaceful application'' of its space activities. Many of today's 
societal challenges including climate change, food security, and 
availability and access to natural resources and energy supplies are 
global in nature. Space assets and cooperation among nations in space 
activities are expected to be important in addressing these global 
societal issues. The future scope of international cooperation on space 
activities will likely shape the direction of the civil space program 
here in the U.S.

<bullet>  Relevance of space to the public. While NASA remains 
generally popular with the public according to various polls, concern 
has been raised about public understanding of what the Agency is doing 
and how space research and developments help improve our lives. At 
present, Americans and society at large use multiple services and 
technologies that were developed, initially, within the context of the 
U.S. space program. For example, communications satellites, space-based 
weather monitoring and prediction, and precision navigation and timing 
emerged from the Nation's investments in space; today these assets are 
critical to our basic infrastructure. Space technologies have also 
enabled improved medical imaging, telemedicine, and disease tracking, 
among multiple other applications. NASA has documented many of the 
technologies, products and services derived from investments in the 
space program in its annual NASA Spinoffs publications (http://
www.nasa.gov/offices/ipp/home/index.html). In addition, the Agency has 
developed a tool called NASA City that allows users to trace the impact 
of space on their daily lives (www.nasa.gov/city). Yet, although the 
applications of space research and development are infused in the 
everyday life of Americans, there is a perception that the public lacks 
awareness of how space affects their lives, which can contribute to a 
lack of enthusiasm for space program investments.

<bullet>  Replenishing a skilled workforce for continued leadership in 
space activities. The perceived lack of excitement may influence the 
maintenance of a skilled future civil space workforce. A February 2003 
article by the Wall Street Journal stated:

         ``Many young people today with a technical bent are more 
        entranced with the Internet or biotechnology than space 
        exploration. Space travel, after all, was a fascination of 
        their parents' generation.''

    The National Research Council recently examined the relationship 
between the U.S. space program and societal and national needs and 
priorities and how U.S. leadership can be maintained. Key elements of 
that report are described in the following section. In addition, space 
advocacy groups have identified the benefits of space to society and 
have documented, for example, the contributions of space to the 
national and global economy. The Space Report 2009, published by the 
Space Foundation, which is summarized in this hearing charter, is one 
example. These and many other organizations have also emphasized the 
importance of space in inspiring the next generation to excel in 
science, technology, engineering and mathematics and in ushering in a 
steady pipeline of professionals to replenish an aging aerospace 
workforce. Communications and media organizations confront the 
challenge of how best to engage individuals by using science content 
related to space. Perspectives from such organizations and individuals 
can provide insight into some of the approaches that have been taken to 
effectively communicate the excitement of space to the public.

IV. Background

National Research Council's Report on America's Future In Space: 
        Aligning the Civil Space Program with National Needs
    The National Academies' National Research Council (NRC) recently 
released a report that recommended a series of measures to better align 
the civil space program with national needs. The report's overall 
conclusion is ``that a preeminent U.S. civil space program with 
strengths and capabilities aligned for tackling widely acknowledged 
national challenges--environmental, economic, and strategic--will 
continue to make major contributions to the Nation's welfare.'' The 
impetus for the NRC's chartering a review was its recognition of a 
changing national and international context for space activities. The 
U.S. space program, initially driven by competition with the former 
Soviet Union, now finds that many nations have established, or are 
aspiring to develop, independent space capabilities. Developments over 
the past 50 years have led to an explosion of scientific and 
engineering knowledge and practical applications of space technology. 
Space activities now play critical roles in commerce, government, and 
science. Furthermore, the private sector has become a significant 
factor in the expansion of space-related products and services.
    In light of this changing context, the NRC established the 
Committee on the Rationale and Goals of the U.S. Civil Space Program 
and charged it to prepare a report to advise the Nation on key goals 
and critical issues in 21st century U.S. civil space policy. The 
committee's report, prepared under the oversight of both the NRC's 
Space Studies Board and Aeronautics and Space Engineering Board, is 
entitled ``America's Future In Space: Aligning The Civil Space Program 
With National Needs.''
    In its initial discussions, the committee concluded that debates 
about the direction of the civil space program often focused on 
addressing near-term problems and issues ``without first putting those 
issues in the context of how a disciplined space program can serve 
larger national imperatives. In the committee's view, characterizing 
the top-level goals of the civil space program and the connection 
between those goals and broad national priorities is necessary as a 
foundation on which the Nation (both now and in the future) can devise 
sustainable solutions to nearer-term issues.''
    Consequently, the committee chose to focus on the long-term, 
strategic value of the U.S. civil space program. In responding to its 
charge, the committee ``sought to provide a long-term, strategic 
perspective that frames a vision for civil space activities that can 
endure for many years.'' According to the report, the committee's 
thinking was informed by the following national priorities:

        <bullet>  ``Ensuring national security,

        <bullet>  Providing clean and affordable energy,

        <bullet>  Protecting the environment now and for future 
        generations,

        <bullet>  Educating an engaged citizenry and a capable 
        workforce for the 21st century,

        <bullet>  Sustaining global economic competitiveness, and

        <bullet>  Working internationally to build a safer, more 
        sustainable world.''

    The report added that ``A common element across all these urgent 
priorities is the significant part that research and development can 
play in solving problems and advancing the national enterprise in each 
area.'' The importance of space-related activities to generating 
interest in science was not lost on the committee. The report noted:

         ``The high visibility of space activities attracts students' 
        attention to science, technology, and mathematics, and space 
        activities are an exciting focus for teaching those subjects. 
        Commercial space-related ventures now figure significantly in 
        global economic competitiveness, and, while government 
        investments to stimulate the Nation's fragile economy will have 
        short-term impacts, R&D investments can be counted on to make 
        longer-term sustainable contributions to the Nation's economic 
        strength. As has countless times proved the case, research in 
        and from space will continue to lead to important future, and 
        not always currently predictable, benefits that hold the 
        promise of progress toward realizing U.S. as well as shared 
        international goals.''

    The committee believed that to be a strategic leader in a 
globalized world, the United States needed ``a civil space program 
whose breadth, competence, and level of accomplishment ensures that 
U.S. leadership is demonstrated, accepted, and welcomed.'' 
Consequently, the committee identified six strategic goals that it 
regarded as basic for guiding program choices and resources planning 
for U.S. civil space activities. The goals identified in the 
committee's report are:

        <bullet>  ``To re-establish leadership for the protection of 
        Earth and its inhabitants through the use of space research and 
        technology. The key global perspective enabled by space 
        observations is critical to monitoring climate change and 
        testing climate models, managing Earth resources, and 
        mitigating risks associated with natural phenomena such as 
        severe weather and asteroids.

        <bullet>  To sustain U.S. leadership in science by seeking 
        knowledge of the universe and searching for life beyond Earth. 
        Space offers a multitude of critical opportunities, unavailable 
        in Earth-based laboratories, to extend our knowledge of the 
        local and distant universe and to search for life beyond Earth.

        <bullet>  To expand the frontiers of human activities in space. 
        Human space flight continues to challenge technology, utilize 
        unique human capabilities, bring global prestige, and excite 
        the public's imagination. Space provides almost limitless 
        opportunities for extending the human experience to new 
        frontiers.

        <bullet>  To provide technological, economic, and societal 
        benefits that contribute solutions to the Nation's most 
        pressing problems. Space activities provide economic 
        opportunities, stimulate innovation, and support services that 
        improve the quality of life. U.S. economic competitiveness is 
        directly affected by our ability to perform in this sector and 
        the many sectors enabled and supported by space activities.

        <bullet>  To inspire current and future generations. U.S. civil 
        space activities, built on a legacy of spectacular 
        achievements, should continue to inspire the public and also 
        serve to attract future generations of scientists and 
        engineers.

        <bullet>  To enhance U.S. global strategic leadership through 
        leadership in civil space activities. Because of the growing 
        strategic importance of space, all nations that aspire to 
        global political and economic leadership in the 21st century 
        are increasing their space-faring capabilities. Continued U.S. 
        global leadership is tied to continued U.S. leadership in 
        space.''

    To contribute to realizing these national objectives, the committee 
identified four foundational elements it viewed as ``critical to a 
purposeful, effective, strategic U.S. space program, without which U.S. 
space efforts will lack robustness, realism, sustainability, and 
affordability.'' These are:

1.  ``Coordinated national strategies--implementing national space 
policy coherently across all civilian agencies in support of national 
needs and priorities and aligning attention to shared interests of 
civil and national security space activities.

2.  A competent technical workforce--sufficient in size, talent, and 
experience to address difficult and pressing challenges.

3.  An effectively sized and structured infrastructure--realizing 
synergy from the public and private sectors and from international 
partnerships.

4.  A priority investment in technology and innovation--strengthening 
and sustaining the U.S. capacity to meet national needs through 
transformational advances.''

    ``The committee found that, in spite of their promise and utility, 
components of the civil space program are not always aligned to fully 
capitalize on opportunities to serve the larger national interest. 
Decisions about civil space priorities, strategies, and programs, and 
the resources to achieve them are not always made with a conscious view 
toward their linkages to broader national interests.'' The committee 
made seven recommendations:

1.  ``Addressing national imperatives. Emphasis should be placed on 
aligning space program capabilities with current high-priority national 
imperatives, including those where space is not traditionally 
considered. The U.S. civil space program has long demonstrated a 
capacity to effectively serve U.S. national interests.''

2.  ``Climate and environmental monitoring. NASA and NOAA should lead 
the formation of an international satellite-observing architecture 
capable of monitoring global climate change and its consequences and 
support the research needed to interpret and understand the data in 
time for meaningful policy decisions.''

3.  ``Scientific inquiry. NASA, in cooperation with other agencies and 
international partners, should continue to lead a program of scientific 
exploration and discovery.''

4.  ``Advanced space technology. NASA should revitalize its advanced 
technology development program by establishing a DARPA-like 
organization within NASA as a priority mission area to support 
preeminent civil, national security (if dual-use), and commercial space 
programs.''

5.  ``International cooperation. The government, under White House 
leadership, should pursue international cooperation in space 
proactively as a means to advance U.S. strategic leadership and meet 
national and mutual international goals.''

6.  ``Human space flight. NASA should be on the leading edge of 
actively pursuing human space flight, to extend the human experience 
into new frontiers, challenge technology, bring global prestige, and 
excite the public's imagination.''

7.  ``Organizing to meet national challenges. The President of the 
United States should task senior executive-branch officials to align 
agency and department strategies; identify gaps or shortfalls in policy 
coverage, policy implementation, and in resource allocation; and 
identify new opportunities for space-based endeavors that will help to 
address critical issues now confronting the United States and, to a 
considerable extent, the world as well.''

    In the course of this report, several points were made that are 
relevant to the work of the Subcommittee:

<bullet>  There is no single rationale for a U.S. civil space program: 
``The committee's view is that there is no single rationale for the 
U.S. civil space program, but rather that, as a significant component 
of the Nation's R&D enterprise, the U.S. civil space program should be 
structured and supported to fulfill multiple responsibilities to assist 
the Nation in achieving its goals of exerting strategic leadership and 
improving the well-being of people. The U.S. civil space program should 
be preeminent in the sense that it can influence, by example, how 
nations take advantage of the opportunities afforded by space. For the 
United States to be a strategic leader, its civil space program must 
demonstrate breadth, competence, and a record of accomplishment so that 
U.S. leadership is accepted and welcomed.''

<bullet>  There is unavoidable risk in human activity in space: 
``Humans have proven effective in carrying out a variety of important 
roles as engineers and scientists in space. It is reasonable to expect 
that, in this century, humans will again surpass previous limits and 
will visit asteroids, travel to the moons of Mars, and establish a 
martian base similar in scale to those in Antarctica. In the 
committee's view, the leadership and inspiration achieved by expanding 
the frontiers of human space flight are worth the dangers faced in such 
exploration; lesser objectives may not be worth the same risk.''

<bullet>  By pursuing the goal of inspiring, the space program will 
create other benefits. Through pursuit of such a goal, the report said 
that the space program will:

        <bullet>  ``Instill a sense of interest, excitement, and 
        optimism about opportunities for scientific and technological 
        advancements to enhance the well-being of the Nation,

        <bullet>  Attract and encourage members of the next generation 
        of the Nation's technical workforce, and

        <bullet>  Create a new generation who can draw on the 
        advantages offered by space to help solve problems on Earth, 
        and ensure U.S. leadership, building on the solid achievements 
        of the past 50 years of U.S. investments in space.''

<bullet>  Civil space activities provide an important stimulus for the 
next generation to pursue careers in science, technology, engineering, 
and mathematics. ``The NASA Authorization Act of 2008 states that 
``NASA, through its pursuit of challenging and relevant activities, can 
provide an important stimulus to the next generation to pursue careers 
in science, technology, engineering, and mathematics.'' While specific 
to NASA, this statement applies to all aspects of the U.S. civil space 
program. Furthermore, a reputation for competence in executing space 
missions that advance the frontier is likely to help attract talented 
foreign nationals to study and work in the United States as well as to 
inspire our own students to enter technical fields.''

<bullet>  A vigorous space program generates optimism. ``Civil space 
activities also can exert an influence in building citizens' confidence 
in a brighter future. We live in a world with many immediate concerns--
notably including a weakened world economy, regional conflicts and 
global terrorism, and threats of the consequences of climate change and 
limitations in energy sources. It is a time when people can be fearful 
that our tomorrows will be less promising than our past; that our 
children will have fewer opportunities than we enjoyed.

   Surely, a vigorous civil space program will be a strong signal that 
our future as a nation is promising, that life can be better, that our 
prospects are boundless. Civil space assets, with their global 
perspective on the changing Earth, can provide knowledge to enable wise 
stewardship of our planet's bounty. We can become a true space-faring 
society with new opportunities for our economy. Civil space activities 
will add to knowledge of our place in the cosmos and thereby expand the 
cultural richness of our nation.

   The United States, leading by example and in cooperation with others 
in the exploration and utilization of space, can be a strategic leader 
in the world, not to be feared or despised, but rather to be valued for 
its concerted attention to basic challenges facing people worldwide.''

<bullet>  Matching responsibilities to resources does not currently 
exist today. ``A coordinated, sustainable set of strategies should 
ensure that responsibilities are realistically matched to available 
resources. Such a match does not exist today. For example, NASA has a 
central role in civil space, yet by any reasonable measure it is 
inadequately funded to pursue its many responsibilities. NASA now 
follows the U.S. space exploration policy established in 2004 by then 
President George W. Bush but must implement that policy within the 
budget constraints imposed by the Administration and Congress. The 
committee concurs with the primary conclusion of a 2006 NRC report, 
which summarized the situation by saying, ``NASA is being asked to 
accomplish too much with too little. The agency does not have the 
necessary resources to carry out the tasks of completing the 
International Space Station, returning humans to the Moon, maintaining 
vigorous space and Earth science and microgravity life and physical 
sciences programs, and sustaining capabilities in aeronautical 
research.'' Rather than requiring that a broad and ambitious program be 
fit into an arbitrarily constrained budget as has been the case in 
recent years, a sustainable strategy would first define the program 
that the Nation is committed to undertake and then realistically define 
the resources that are required to accomplish that program.''

<bullet>  Budget levels need to recognize space programs' connection to 
the Nation's most prominent problems. ``The budgetary situations faced 
by NASA and NOAA [National Oceanic and Atmospheric Administration] are 
a consequence of a trend in recent administrations to view the space 
program as an isolated stovepipe, with little or no connection to the 
Nation's most prominent problems. Civil space programs have largely 
been assigned budget levels that are incrementally based on previous 
years' budgets, with only tenuous connections to the evolution of the 
programs or their capabilities. An effective process would connect 
space policy to broader national needs, and then consider the necessary 
resources and implementation, improve efficiency by considering 
interdependencies and broad system effects, enhance productivity by 
providing focus and a longer-term view, and encourage a culture of 
collaboration among government agencies, the private sector (including 
both industry and academia), and international partners. This process 
would then provide a necessary foundation for continuing U.S. space 
leadership.''

    General Lester Lyles, Chair of the Committee on the Rationale and 
Goals of the U.S. Civil Space Program, will be a witness at the hearing 
and can provide further details on the committee's work. The Executive 
Summary of the committee's report is included in Attachment I.

The Space Foundation's ``The Space Report 2009''
    In chronicling the previous year in space along with an outlook on 
what lies ahead, the Space Foundation's The Space Report 2009, released 
in April 2009, establishes the relevance of space by detailing the 
overall space economy; space products and services; space 
infrastructure; and economic impacts, workforce, and education. The 
report states that, ``in a troubled financial environment, the space 
industry managed to maintain and increase its revenues in 2008, with 
estimated budgets and revenues from public and private sources of $257 
billion. Total revenue for space products and services in 2008 reached 
an estimated $91 billion, 10.4 percent more than the $82.4 billion 
total in 2007.''

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Of particular interest to this hearing is how The Space Report 2009 
treats space products and services. The report notes that:

         ``The space industry has passed the point where all the ways 
        in which space products and services are used can be described 
        within the covers of a single publication. The examples in this 
        report represent a small sampling to illustrate the breadth and 
        ingenuity of the space industry in creating new ways to serve 
        governments and the private sector. From private space travel 
        to mobile Internet services to high-tech swimsuits, the space 
        industry is fully engaged in finding new applications for 
        existing technology and in developing new technologies to solve 
        persistent problems. Common themes around some of these 
        products and services involve making life easier and more 
        interesting. In 2008, ICO Global Communications began testing a 
        mobile TV service using a satellite over the United States 
        designed to deliver up to 15 television channels for 
        entertainment starting in 2010. Fishermen around the world are 
        using satellite maps that report sea surface data to help guide 
        them to profitable fishing grounds. The world watched U.S. 
        Olympian Michael Phelps swim into the record books at the 
        Beijing games. Less well known is the fact that Phelps and 
        other Olympic swimmers were breaking records with the help of 
        swim wear developed as a result of a technology spinoff from 
        atmospheric drag research conducted for the Space Shuttle 
        program.''

    In comments regarding how pervasive and integral space products, 
services, and spinoffs have become, the report states:

         ``Space products and services and their related space 
        technology spinoffs have become part of the fabric of daily 
        life in ways that people increasingly take for granted, and 
        often in ways that do not even bring space to mind.'' The 
        report provides a table listing examples of such technology 
        spinoffs:

        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        

    The report also provides examples of how space products and 
services have contributed to improving health care. In describing one 
such example, the report stated:

         ``A collaborative effort between NASA and the University of 
        Alabama at Birmingham (UAB) involves using satellite imagery to 
        study and combat disease. Although this type of collaboration 
        has occurred before, the new effort aims to formalize a 
        training program. In 2008 a laboratory was set up to train 
        public health students to use remote sensing for medical and 
        public health applications. The students take courses both from 
        NASA remote sensing scientists and UAB professors. Studies in 
        the lab have been conducted on fighting malaria and the West 
        Nile virus. Using infrared imagery from satellites, scientists 
        can locate warm standing water, a breeding ground for disease-
        carrying mosquitoes. Satellites also collect data on pollution 
        levels and other environmental factors in areas with high 
        populations of asthma sufferers to determine the factors that 
        might be causing asthma attacks.''

    In examining workforce issues, the report notes that:

         ``The highly visible rockets, satellites, telescopes, and 
        other hardware that embody space exploration obscure the fact 
        that these endeavors ultimately depend on skilled people. 
        Scientists, engineers, astronomers, technicians, and 
        administrators represent the true backbone of the space 
        industry and are its most precious resource. The Space Report 
        2009 explores the talent pool needed to keep the space industry 
        thriving. It describes the positive economic impact of space 
        industry activity in states and metropolitan areas, and 
        identifies a critical area of concern in the need to educate 
        and train the next generation of U.S. space professionals. 
        According to the U.S. Bureau of Labor Statistics, the U.S. 
        space industry employs more than 262,000 men and women in 41 
        states including the District of Columbia. Between 2003 and 
        2007, the U.S. space industry sector added approximately 12,000 
        jobs at pay scales far above national averages. In just the 
        commercial space transportation sector, the direct valuation 
        according to the U.S. Federal Aviation Administration is $23 
        billion, and $139 billion when secondary and tertiary 
        industries are included. This value exceeds one percent of the 
        country's gross domestic product.''

    But keeping a flow of trained workers in the future will be a 
challenge. The report states:

         ``It is axiomatic that securing a skilled and technically 
        trained workforce is critical to sustaining and growing the 
        U.S. space industrial base. There is deepening concern that the 
        young people who will make up the workforce required for the 
        U.S. space industry to prosper into the future are not 
        receiving the basic education they need in science, technology, 
        engineering, and mathematics (STEM) fields. A long educational 
        pipeline is required to develop these skills, beginning in 
        elementary school and continuing through secondary and higher 
        education. Science and technology levels in the United States, 
        from kindergarten through the 12th grade (K-12) and at the 
        post-secondary level, place the Nation at a disadvantage 
        relative to other countries. The most recent data shows that 
        American students are slipping behind their international 
        counterparts in math and science education. This situation is 
        exacerbated as other nations such as China have become more 
        aggressive in developing their indigenous technical talent 
        base. These worrisome indicators point to a need for the U.S. 
        space industry to intensify its advocacy for the highly 
        educated and technically trained workforce that enables it to 
        thrive.

         The success of space-related activity depends upon workers 
        with great technical expertise, from astronauts and aerospace 
        engineers to space scientists. The U.S. Bureau of Labor 
        Statistics (BLS) occupational outlook projections show that 
        demand will be high during the next ten years for workers in 
        key space occupations as the needs and demands of the space 
        industry grow. For instance, the BLS projections confirm that 
        total employment levels for aerospace engineers will be 10 
        percent greater in 2016 than the 2006 employment level. The 
        number of advanced degrees awarded in the United States for 
        space-related fields of study has been on the rise for years. 
        However, virtually all of this growth can be attributed to an 
        increasing percentage of foreign graduate students in these 
        subjects.''

    In examining the state of science, technology, engineering, and 
mathematics education in the United States, the report provides some 
sobering and worrisome statistics about the Nation's ability to address 
future workforce challenges:

         ``The results of this examination confirm prevailing concerns 
        about shortages in the ranks of aerospace engineers as the 
        scientists and technicians who began their careers during the 
        era of the Mercury, Gemini, and Apollo programs reach 
        retirement. According to U.S. Government estimates, the 
        employment levels for aerospace engineers needed to sustain 
        anticipated activity will be 10 percent greater in 2016 than a 
        decade earlier.

         Meanwhile, results of proficiency testing in science and 
        mathematics show reason for serious concern about low 
        achievement levels in U.S. elementary and secondary schools, as 
        the report details. Only 29 percent of the Nation's 4th graders 
        rated proficient in science; 39 percent in math. In a 
        comparison of 36 nations, U.S. 4th graders ranked 11th in math 
        achievement and 8th in science achievement. The nations 
        outperforming the United States in these subjects include 
        several that are pursuing ambitious space programs. Among 12th 
        graders, only 18 percent achieved proficiency in science; 23 
        percent in math. In the physical sciences, more than 93 percent 
        of middle school students are taught by teachers who are not 
        certified or did not major in those fields.

         The worrisome trends in U.S. science and math education extend 
        to the college level. Between 1986 and 2006, Bachelor's degrees 
        awarded in Earth and atmospheric sciences, engineering, math, 
        and computer science fell eight percent. Graduate level degrees 
        have increased significantly at both the Master's and doctoral 
        levels, but that is due in part to the large number of foreign 
        students studying in the United States. Immigration policies 
        are making it harder for such students to come to the United 
        States and study, and to stay once they graduate.

         Engineering Bachelor's degrees have declined by 11 percent in 
        the United States over the past two decades. The percentage of 
        undergraduate degrees in science and engineering has also 
        dropped considerably in the past 20 years. Engineering degrees 
        comprised only five percent of all Bachelor's degrees awarded 
        in 2006, down from eight percent two decades earlier.

         In addition to improving the quality of math and science 
        education in secondary schools, the space profession has 
        recognized the need to recruit more women into the field. While 
        women represent a majority of the students who received 
        Bachelor's degrees in 2006, only one in five of the degrees in 
        engineering were awarded to women that year. Female 
        representation in the aeronautical and astronautical 
        engineering fields has increased, but has a long way to go to 
        reach parity.

         Unless the current declining trend of space-critical degrees 
        is reversed, many of these new jobs may go unfilled, opening 
        the door to increasing competition from other countries for a 
        field the United States has dominated for two generations.''

    In projecting its outlook for the future, The Space Report 2009 
states:

         ``The picture of space activity that emerges in The Space 
        Report 2009 is one of continued innovation and risk-taking in 
        the private sector, and ambitious exploration and international 
        cooperation in the public sector. So far, the clearest visible 
        impact of the global economic downturn on the space industry is 
        in the equity markets, where space industries collectively 
        sustained deeper valuation losses than broader market indexes. 
        The raw numbers concerning space activity in 2008--employment, 
        payroll, output, manufacturing, and launches--generally showed 
        continued steady growth. There may be a lag time before a 
        downturn in some of these measures of the space industry 
        becomes apparent. If historic trends are indicative, the full 
        impact of the economic slowdown on the commercial space 
        industry may not be visible until 2009 or 2010 due to the 
        numerous corporate growth program commitments and the 
        consistently strong cash flows produced by the industry.''

         ``Space activity has integrated itself so thoroughly into 
        broader business activity, with an array of services vital to 
        communication, travel, broadcast, and other industries, that 
        the space industry is now part of the mainstream economy. It 
        continues to demonstrate the potential for growth, expanding 
        its breadth and volume of activity, and growing new business 
        arenas in which the space industry is, or has become, a key 
        player.''

    Ms. Patti Grace Smith, a Member of the Board of Directors of The 
Space Foundation, will be a witness at the hearing and can provide 
further details on the Foundation's report.

Surveys and Polls of Public Views on Space
    The National Academies and Space Foundation reports documented the 
importance of space to our national needs and the myriad ways in which 
space benefits our lives and society at large. However, the extent to 
which the public is aware of those benefits appears to be limited. In 
recent years, NASA and other non-governmental entities have sponsored 
national surveys and public opinion polls to acquire feedback on how 
the public views NASA and the Nation's space program. One of those 
surveys, which was conducted for a NASA Strategic Communications 
Implementation Framework, showed that public perception about the 
relevance of space changed after individuals were informed of examples 
of how space affects their lives.

<bullet>  Gallup Polls

    Since 1990, Gallup has conducted polls to ascertain public 
attitudes about the job NASA is doing and public spending on space. 
According to Gallup, ``the public has generally rated NASA 
positively.'' The two most recent Gallup polls were conducted in 2006 
and 2007. The 2007 poll results were based on telephone interviews with 
1010 adults (18 years of age or older).
    An October 31, 2007 article on Gallup's web site, ``Americans 
Continue to Rate NASA Positively,'' on the results of the Gallup poll 
states: ``According to the Sept. 14-16 poll [2007], 56 percent of 
Americans rate the job NASA is doing in positive terms, with 16 percent 
saying it is doing an `excellent' job and 40 percent a `good' job. 
Meanwhile, just eight percent say it is doing a poor job, with most of 
the rest describing NASA's performance as `only fair'.''
    Gallup has asked the same question--``How would you rate the job 
being done by NASA--the U.S. space agency? Would you say it is doing an 
excellent, good, only fair, or poor job?'' since 1990. According to the 
2007 article, ``NASA has had less-than-majority positive evaluations 
just twice since 1990, when Gallup first asked this question. The 
initial 46 percent rating in July 1990 came shortly after a flaw in the 
Hubble telescope was discovered. Gallup measured the historical low 
rating of 43 percent in September 1993 after a series of mishaps, which 
included the loss of contact with the Mars Orbiter and a couple of 
last-second decisions to scrub planned Space Shuttle missions.'' In 
addition, the 2007 article notes that ``The high point in NASA's 
ratings came in November 1998, shortly after Sen. John Glenn--one of 
the earliest U.S. astronauts--made a much-heralded return trip to 
space.''

<bullet>  Public Views of Space Exploration: An Independent National 
Survey

    In February 2009, The Everett Group, conducted an independent 
national survey to:

          ``Gauge Americans' impressions of the space program relative 
        to other national institutions

          Determine what the public perceives to be the greatest 
        benefits of the space program

          Gauge the level of public support for an increase in funding 
        for the space program

          Identify future missions that the public would support.''

    The survey included a random sample of 360 U.S. adults.
    In response to the question, ``How would you describe your overall 
interest in the U.S. space program?'', the participants answered: very 
interested (15 percent), somewhat interested (44 percent), not too 
interested (22 percent), and not at all interested (19 percent).''
    In response to the question, ``Can you think of any ways that your 
life has been improved directly by the U.S. space program?'', ``Half of 
the public says `Yes' and can name one or more ways the space program 
improved their life.'' ``The other half says `No' and believes that the 
program has not improved their life in any way.'' Of those that 
answered that space improved their lives and provided an example, 
``satellites, knowledge about the universe, and new technology'' were 
the three most common examples cited. Other responses included 
``computers, Velcro, foods, cell phones, plastics, knowledge about 
weather/environment, microwaves, medical advances, communications, 
clothes/fabrics, educating young scientists, and entertainment/
pictures.''
    The write-up of the survey lists ``Key Take-Aways'' as:

          ``Most Americans are interested in the space program (60 
        percent) but an alarming number have no interest at all (19 
        percent). Interest is particularly soft among women.

          On the positive side, large majorities feel that the space 
        program is important to national security (71 percent), 
        contributes to national pride (79 percent), and inspires young 
        people to study math and science (82 percent).

          Half of the public feel that the space program has not 
        directly improved their lives in any way. Those who do, 
        however, cite technological developments and knowledge about 
        the universe.

          Most believe that the U.S. continues to explore space in 
        order to maintain our status as an international leader or 
        because it is human nature to explore.

          The majority of Americans (60 percent) reject the idea that 
        the space program is a waste of taxpayer money. They are not 
        convinced, however, that more funding is needed.

          A plurality feel that a manned mission to Mars should be the 
        next major mission, but there is some sentiment that this 
        should not be pursued during the current economic recession.

          Many Americans would prefer to see the space program's 
        resources used to help solve terrestrial problems rather than 
        extraterrestrial ones for the time being.''

NASA Strategic Communications Framework Implementation Plan
    In 2007, NASA's Office of Strategic Communications developed an 
Implementation Plan with the purpose of putting ``forward specific 
messages and initiatives based on the Strategic Communications 
Framework and recent round of market research and analysis.'' According 
to the Plan, the overall Agency communications goals were:

1.  ``Build greater public support for NASA's mission and activities. 
Authority for effort based in:

        <bullet>  Space Act of 1958

        <bullet>  2005 NASA Authorization Act

2.  Make Agency communications more participatory

        <bullet>  Increase users of MyNASA, Inside NASA, and 
        communications.nasa.gov

3.  Change communications behavior within the Agency

        <bullet>  Reach out to new audiences

        <bullet>  Demonstrate relevancy and benefits to key 
        audiences.''

    The report states that ``Messages and outreach activities are 
informed by relevant policy guidance: Vision for Space Exploration, 
National Space Policy, National Aeronautics Research and Development 
Policy.''
    On the analysis of market research, the report provides a NASA 
Brand Balance Sheet:

``Strengths

1.  Near Universal Awareness

2.  Enormous Public Appreciation

3.  High Support

4.  Wide Appeal

Challenges

1.  Little Specific Knowledge

2.  Lack of Relevance

3.  Low Excitement

4.  Disconnect from Activities

5.  Lack of Current Context''

    The report recommends that NASA communications should:

<bullet>  ``Demonstrate NASA's role using message components:

          Science

          Economic

          Security

          Leadership

<bullet>  Illustrate NASA's relevance by highlighting

          The importance of space to America's economy

          The benefits to people that exist because of technology 
        developed by NASA

<bullet>  Engage and inspire audiences about the future benefits of 
NASA and its leadership in space exploration, aeronautics research, 
science, and education.''

    In developing the 2007 Strategic Communications Framework 
Implementation Plan, NASA commissioned independent entities to conduct 
market research (focus groups and a survey) to:

<bullet>  ``Set benchmarks in areas of knowledge, relevance, and 
        excitement

<bullet>  Testing of key words and messages

                <bullet>  Development of messages around Space 
                Exploration including Moon/Mars missions

<bullet>  Effects of specific benefits in terms of illustrating 
        relevance

<bullet>  Gain insight into demographic differences.''

    The summary of market research results is as follows:

        <bullet>  ``NASA's overall public image remains high and a
        large number of Americans believe continuing space exploration 
        is important

        <bullet>  However, fewer Americans rate NASA as relevant to 
        their daily lives and perceptions of NASA's economic 
        contribution vary

        <bullet>  Telling people about specific NASA-related 
        technologies has a tremendous impact on both relevance and 
        economic measures

        <bullet>  Among messages tested, there were no ``weak'' reasons 
        for continuing space exploration, though some reasons were 
        stronger than others

        <bullet>  When talking about NASA programs and activities, 
        framing NASA communications in terms of relevance and benefits 
        is most effective.''

    The report identifies outreach strategies [as of 2007] including 
the 50th Anniversary of NASA, NASA Future Forums (conferences to 
discuss how innovation helps promote and sustain economic development), 
NASA Lecture Series, the use of Shuttle launches to engage State and 
local leaders, public service announcements, strategic alliances, and 
the use of new media that takes advantage of customized and 
personalized web pages and opportunities for online interaction 
(MyNASA), as well as an upgrade of the NASA web site and an online 
catalog of NASA benefits and stories provided by individuals on how 
space affects their lives.

Social Networking and Other Forms of Communications and Outreach
    As noted in the above sections on public awareness and strategic 
communications, many Americans are unaware of how space affects and 
benefits their lives. Enhancing the public's awareness involves 
communication and information dissemination, including by means of new 
communication modes and tools that are widely used by younger 
generations. As stated in a March 2009 article in Discovery News, ``Ask 
most folks around NASA what lured them into the space business and 
they'll tell you about how shivers ran down their spines watching Neil 
Armstrong step onto the moon in 1969. That's a problem for an agency 
that exists to inspire the young and explore the unknown.''
    One of the ways that NASA is attempting to address this issue is 
through the use of social networking. According to the Webcontent.gov 
information on Social Networks and Government, social networking tools 
are ``web sites that connect people'' and involve ``online 
communities'' that people can join without cost and create a web page 
with their profile. These sites ``allow users to find people they know 
among the members, or look for other members with similar interests or 
affiliations.'' NASA is employing these tools as another means of 
communicating with the interested public, especially with younger 
people who are active users of social networking sites. The Mars 
Phoenix Lander mission has tens of thousands of Twitter followers. NASA 
astronaut Jose Hernandez used Twitter to relay insights in both English 
and Spanish on his Shuttle mission training. NASA is on Facebook and 
also disseminates video using YouTube.
    NASA is also using naming and voting contests as another means to 
engage the public in its programs. A contest on what to name a new node 
of the International Space Station attracted considerable attention 
when participants voted to name it after comedian Stephen Colbert. 
(NASA elected to name the new ISS node, ``Tranquility,'' but named a 
new treadmill, the Combined Operational Load Bearing External 
Resistance Treadmill (COLBERT) after the comedian.) Another contest 
allowed participants to vote, for example, on an observing target for 
the Hubble Space Telescope.
    In addition, NASA has upgraded its web site to incorporate other 
tools that invite public participation in NASA activities. One example 
is a web page entitled ``Collaborate and Connect with NASA'' that 
provides links to Twitter, Facebook, USTREAMTV, myspace, YouTube, and 
flickr and provides multiple links that provide opportunities to 
collaborate with NASA. The Collaborate and Connect with NASA web page 
also provides links that outline how readers can help identify 
landforms in satellite images of Mars, one that has offered contests 
for artwork on the lunar environment, and a site that provides teacher 
lesson plans, access to Earth science data, and opportunities to 
participate in citizen science projects relevant to Earth science, 
among other means to engage with NASA activities.

ATTACHMENT I

                    Executive Summary of the Report

   America's Future In Space: Aligning the Civil Space Program with 
                             National Needs

    From its inception in 1958, much of the U.S. space program was 
driven by opportunities to serve national interests in a geopolitical 
environment heavily colored by Cold War threats and fears. Originally, 
the true potential of space activities was largely speculative. In the 
ensuing decades, however, early expectations for discovery and 
technological accomplishment have been richly exceeded. Without a 
doubt, the first 50 years of the space age have been transformative. 
Astronauts have stood on Earth's Moon while millions watched. 
Commercial communications and remote sensing satellites have become 
part of the basic infrastructure of the world. Satellites support 
worldwide communications, providing a critical backbone for daily 
commerce--carrying billions of global financial transactions daily, for 
example. Direct broadcasting beams television signals into homes 
globally, delivering images that bring unprecedented awareness of 
events occurring throughout the world. Military global positioning 
satellites provide ubiquitous signals that support a stunning variety 
of services, from assisting in the navigation of civilian airplanes, 
shipping, and automobiles to transmitting timing signals that enable 
cell phone and power grid switching. Remote sensing satellites obtain 
high-resolution images of Earth's surface, available now on the 
Internet for people worldwide to view and use, and provide critical 
information to monitor changes in our climate and their effects.
    Our understanding of every aspect of the cosmos has been profoundly 
altered, and in the view of many, we stand once again at the brink of a 
new era. Space observations have mapped the remnant radiation from the 
Big Bang that began our universe. We have discovered that the expansion 
of the universe continues to accelerate, driven by a force that we do 
not yet understand, and that there are large amounts of matter in the 
universe that we cannot yet observe. We have seen galaxies forming at 
the beginning of the universe and stars forming in our own galaxy. We 
have explored the wonders that abound in our solar system and have 
found locations where life might have occurred or might even now be 
present. We have discovered planets around other stars, so many that it 
is ever more likely that there are other Earths comparable to our own.
    What will the next 50 years bring? Today we live in a globalized 
world of societies and nations characterized by intertwined economies, 
trade commitments, and international security agreements. Mutual 
dependencies are much more pervasive and important than ever before. 
Many of the pressing problems that now require our best efforts to 
understand and resolve--from terrorism to climate change to demand for 
energy--are also global in nature and must be addressed through mutual 
worldwide action. In the judgment of the Committee on the Rationale and 
Goals of the U.S. Civil Space Program, the ability to operate from, 
through, and in space will be a key component of potential solutions to 
21st century challenges. As it has before, with the necessary alignment 
to achieve clearly articulated national priorities, the U.S. civil 
space\1\ program can serve the Nation effectively in this new and 
demanding environment.
---------------------------------------------------------------------------
    \1\ The committee considered ``civil space'' to include all 
government, commercial, academic, and private space activities not 
directly intended for military or intelligence use.
---------------------------------------------------------------------------
    In its initial discussions, the committee concluded that debates 
about the direction of the civil space program have too often focused 
on addressing near-term problems and issues without first putting those 
issues in the context of how a disciplined space program can serve 
larger national imperatives. In the committee's view, characterizing 
the top-level goals of the civil space program and the connection 
between those goals and broad national priorities is necessary as a 
foundation on which the Nation (both now and in the future) can devise 
sustainable solutions to nearer-term issues. Therefore, the committee 
focused on the long-term, strategic value of the U.S. civil space 
program, and its report does not address nearer-term issues that affect 
the conduct of U.S. space activities other than to provide a context in 
which more tactical decisions might be made.
    The national priorities that informed the committee's thinking 
include ensuring national security, providing clean and affordable 
energy, protecting the environment now and for future generations, 
educating an engaged citizenry and a capable workforce for the 21st 
century, sustaining global economic competitiveness, and working 
internationally to build a safer, more sustainable world. A common 
element across all these urgent priorities is the significant part that 
research and development can play in solving problems and advancing the 
national enterprise in each area. Instruments in space have documented 
an accelerating decline in arctic sea ice, mapped the circulation of 
the world's oceans, enabled the creation of quantitative three-
dimensional data sets to improve the quality of hurricane forecasting, 
and created new tools to address a host of agricultural, coastal, and 
urban resource management problems, to cite only a few examples. Such 
capabilities demonstrate what can be achieved when technologically 
challenging space problems stimulate innovation that leads to long-term 
advances with applications beyond the space sector. Civil space 
activities are central to the R&D enterprise of the Nation, often in a 
transformational way, and thus present powerful opportunities to help 
address major national objectives.
    Observations from space offering unique capabilities for global 
environmental and land-use monitoring are essential to informed 
decision-making about energy production and climate change policies, 
and they help provide the understanding required for wise management. 
The high visibility of space activities attracts students' attention to 
science, technology, and mathematics, and space activities are an 
exciting focus for teaching those subjects. Commercial space-related 
ventures now figure significantly in global economic competitiveness, 
and, while government investments to stimulate the Nation's fragile 
economy will have short-term impacts, R&D investments can be counted on 
to make longer-term sustainable contributions to the Nation's economic 
strength. As has countless times proved the case, research in and from 
space will continue to lead to important future, and not always 
currently predictable, benefits that hold the promise of progress 
toward realizing U.S. as well as shared international goals.
    The committee's overall conclusion is that a preeminent U.S. civil 
space program with strengths and capabilities aligned for tackling 
widely acknowledged national challenges--environmental, economic, and 
strategic--will continue to make major contributions to the Nation's 
welfare.

GOALS FOR THE CIVIL SPACE PROGRAM

    Structured and supported to match multiple responsibilities in 
serving key national objectives, the U.S. civil space program should be 
preeminent in the sense that it can influence, by example, nations' use 
of space. To be a strategic leader in a globalized world requires that 
the United States have a civil space program whose breadth, competence, 
and level of accomplishment ensures that U.S. leadership is 
demonstrated, accepted, and welcomed.
    The committee identified six strategic goals that it regards as 
basic for guiding program choices and resources planning for U.S. civil 
space activities. The goals all serve the national interest, and steady 
progress in achieving each of them is necessary.

        <bullet>  To re-establish leadership for the protection of 
        Earth and its inhabitants through the use of space research and 
        technology. The key global perspective enabled by space 
        observations is critical to monitoring climate change and 
        testing climate models, managing Earth resources, and 
        mitigating risks associated with natural phenomena such as 
        severe weather and asteroids.

        <bullet>  To sustain U.S. leadership in science by seeking 
        knowledge of the universe and searching for life beyond Earth. 
        Space offers a multitude of critical opportunities, unavailable 
        in Earth-based laboratories, to extend our knowledge of the 
        local and distant universe and to search for life beyond Earth.

        <bullet>  To expand the frontiers of human activities in space. 
        Human space flight continues to challenge technology, utilize 
        unique human capabilities, bring global prestige, and excite 
        the public's imagination. Space provides almost limitless 
        opportunities for extending the human experience to new 
        frontiers.

        <bullet>  To provide technological, economic, and societal 
        benefits that contribute solutions to the Nation's most 
        pressing problems. Space activities provide economic 
        opportunities, stimulate innovation, and support services that 
        improve the quality of life. U.S. economic competitiveness is 
        directly affected by our ability to perform in this sector and 
        the many sectors enabled and supported by space activities.

        <bullet>  To inspire current and future generations. U.S. civil 
        space activities, built on a legacy of spectacular 
        achievements, should continue to inspire the public and also 
        serve to attract future generations of scientists and 
        engineers.

        <bullet>  To enhance U.S. global strategic leadership through 
        leadership in civil space activities. Because of the growing 
        strategic importance of space, all nations that aspire to 
        global political and economic leadership in the 21st century 
        are increasing their space-faring capabilities. Continued U.S. 
        global leadership is tied to continued U.S. leadership in 
        space.

FOUNDATIONAL ELEMENTS

    To contribute to realizing critical national objectives including 
those listed above, the U.S. space program, both the civil and national 
security components, must have a strong foundation and adequate 
resources. While the breadth of the civil space program has grown, 
there is also a sense that the program has been unfocused, with 
corresponding impacts on the organizations and institutions that 
support it. The United States can no longer pursue space activities on 
the assumption of its unchallengeable dominance--as evidenced by the 
view of other nations that the United States is not the only, or in 
some cases even the best, option for space partnerships. U.S. 
leadership in space activities and their capacity to serve urgent 
national needs must be based on preeminent technical capabilities; 
ingenuity, entrepreneurialism, and a willingness to take risk; and 
recognition of mutual interdependencies. The time has come to reassess, 
and in some cases reinvent, the institutions, workforce, 
infrastructure, and technology base for U.S. space activities.
    The committee identified four foundational elements critical to a 
purposeful, effective, strategic U.S. space program, without which U.S. 
space efforts will lack robustness, realism, sustainability, and 
affordability:

    1. Coordinated national strategies--implementing national space 
policy coherently across all civilian agencies in support of national 
needs and priorities and aligning attention to shared interests of 
civil and national security space activities,
    2. A competent technical workforce--sufficient in size, talent, and 
experience to address difficult and pressing challenges,
    3. An effectively sized and structured infrastructure--realizing 
synergy from the public and private sectors and from international 
partnerships, and
    4. A priority investment in technology and innovation--
strengthening and sustaining the U.S. capacity to meet national needs 
through transformational advances.

    Efforts to establish each of these elements to ensure a strong 
foundation for the Nation's civil space program must overcome several 
impediments. The issues include a loss of focus on national 
imperatives, overly constrained resources, inadequate coordination 
across the Federal Government, missed opportunities to transition roles 
from government-led to private sector-provided services, obstacles to 
international cooperation, weakened institutional partnerships, and 
lack of emphasis on advanced technology development programs. Awareness 
of such issues--and not an effort to resolve specific instances--guided 
the committee in its development of recommendations to NASA, NOAA, and 
the Federal Government at the highest levels.

RECOMMENDATIONS

    The committee found that, in spite of their promise and utility, 
components of the civil space program are not always aligned to fully 
capitalize on opportunities to serve the larger national interest. 
Decisions about civil space priorities, strategies, and programs, and 
the resources to achieve them, are not always made with a conscious 
view toward their linkages to broader national interests. Accordingly, 
the committee recommends as follows:

    1. Addressing national imperatives. Emphasis should be placed on 
aligning space program capabilities with current high-priority national 
imperatives, including those where space is not traditionally 
considered. The U.S. civil space program has long demonstrated a 
capacity to effectively serve U.S. national interests.
    Recommendation 1 provides a broad policy basis on which the 
committee's subsequent specific recommendations rest. The 
recommendations that follow address a set of actions, all of which are 
necessary to strengthen the U.S. civil space program and reinforce or 
enhance the contributions of civil space activities to broader national 
objectives.
    2. Climate and environmental monitoring. NASA and NOAA should lead 
the formation of an international satellite-observing architecture 
capable of monitoring global climate change and its consequences and 
support the research needed to interpret and understand the data in 
time for meaningful policy decisions by:

        a.  Reversing the deterioration of the U.S. Earth observation 
        infrastructure;

        b.  Developing and implementing a plan for achieving and 
        sustaining global Earth observations;

        c.  Working with the international community to develop an 
        integrated database for sensor information from all Earth-
        monitoring satellites;

        d.  Aggressively pursuing technology development for future 
        high-priority Earth observation missions; and

        e.  Actively planning for transitions to continue demonstrably 
        useful research observations on a sustained, or operational, 
        basis.

    3. Scientific inquiry. NASA, in cooperation with other agencies and 
international partners, should continue to lead a program of scientific 
exploration and discovery that:

        a.  Seizes opportunities to advance understanding of Earth, the 
        objects of the solar system including the Sun, and the vast 
        universe beyond;

        b.  Includes searches for evidence of life beyond Earth;

        c.  Contributes to understanding how the universe works, who we 
        are, where we came from, and what is the destiny of our star--
        the Sun--our solar system, and the universe, and of the 
        physical laws that govern them; and

        d.  Is guided by peer review, advisory committees, and the 
        priorities articulated by the science communities in their 
        strategic planning reports, such as the NRC's decadal 
        surveys.\2\
---------------------------------------------------------------------------
    \2\ The NRC decadal surveys have been widely used by the scientific 
community and by program decision-makers because they (a) present 
explicit, consensus priorities for the most important, potentially 
revolutionary science that should be undertaken within the span of a 
decade; (b) develop priorities for future investments in research 
facilities, space missions, and/or supporting programs; (c) rank 
competing opportunities and ideas and clearly indicate which ones are 
of higher or lower priority in terms of the timing, risk, and cost of 
their implementation; and (d) make the difficult adverse decisions 
about other meritorious ideas that cannot be accommodated within 
realistically available resources.

    4. Advanced space technology. NASA should revitalize its advanced 
technology development program by establishing a DARPA-like 
organization within NASA as a priority mission area to support 
preeminent civil, national security (if dual-use), and commercial space 
---------------------------------------------------------------------------
programs. The resulting program should:

        a.  Be organizationally independent of major development 
        programs;

        b.  Serve all civil space customers, including the commercial 
        sector;

        c.  Conduct an extensive assessment of the current state and 
        potential of civil space technology; and

        d.  Conduct cutting-edge fundamental research in support of the 
        Nation's space technology base.

    5. International cooperation. The government, under White House 
leadership, should pursue international cooperation in space 
proactively as a means to advance U.S. strategic leadership and meet 
national and mutual international goals by:

        a.  Expanding international partnerships in studies of global 
        change;

        b.  Leading an effort in which the Unites States and other 
        major space-faring nations cooperate to develop rules for a 
        robust space operating regime that ensures that space becomes a 
        more productive global commons for science, commerce, and other 
        activities;

        c.  Rationalizing export controls so as to ensure ongoing 
        prevention of inappropriate transfer of sensitive technologies 
        to adversaries while eliminating barriers to international 
        cooperation and commerce that do not contribute effectively to 
        national security;

        d.  Expanding international partnerships in the use of the 
        International Space Station;

        e.  Continuing international cooperation in scientific research 
        and human space exploration,

        f.  Engaging the nations of the developing world in educating 
        and training their citizens to take advantage of space 
        technology for sustainable development; and

        g.  Supporting the interchange of international scholars and 
        students.

    6. Human space flight. NASA should be on the leading edge of 
actively pursuing human space flight, to extend the human experience 
into new frontiers, challenge technology, bring global prestige, and 
excite the public's imagination. These goals should be accomplished by:

        a.  Setting challenging objectives that advance the frontier, 
        scientific and technological understanding, and the state-of-
        the-art;

        b.  Establishing clear goals for each step in a sequence of 
        human space flight missions beyond low-Earth orbit that will 
        develop techniques and hardware that can be used in a next step 
        further outward;

        c.  Focusing use of the ISS on advancing capabilities for human 
        space exploration; and

        d.  Using human space flight to enhance the U.S. soft power 
        leadership by inviting emerging economic powers to join with us 
        in human space flight adventures.

    National space policy too often has been implemented in a stovepipe 
fashion that makes it difficult to recognize connections between space 
activities and pressing national challenges. Often, senior policy-
makers with broad portfolios have not been able to take the time to 
consider the space program in the broader national context. Rather, 
policies have been translated into programs by setting budget levels 
and then expecting agencies to manage to those budgets. The committee 
believes that the process of aligning roles and responsibilities for 
space activities, making resource commitments, and coordinating across 
departments and agencies needs to be carried out at a sufficiently high 
level that decisions are made from the perspective of addressing the 
larger national issues whose resolution space activities can help 
achieve. How this process is accomplished might change from 
administration to administration, but the need for an approach that 
will elevate attention to the proper level remains essential.

    7. Organizing to meet national needs. The President of the United 
States should task senior executive-branch officials to align agency 
and department strategies; identify gaps or shortfalls in policy 
coverage, policy implementation, and resource allocation; and identify 
new opportunities for space-based endeavors that will help to address 
critical issues now confronting the United States and, to a 
considerable extent, the world as well.
    The effort should include the Assistant to the President for 
National Security Affairs and the Assistant to the President for 
Science and Technology, and should consider the following elements:

        a.  Coordinating budgetary guidance across federal departments 
        and agencies involved in space activities;

        b.  Coordinating responsibility and accountability for resource 
        allocations for common services and/or infrastructure;

        c.  Coordinating responsibility and accountability for 
        stimulating, nurturing, and sustaining a robust space 
        industrial base, including the commercial space industry;

        d.  Coordinating responsibility and accountability for 
        initiatives to recruit and develop a competent aerospace 
        workforce of sufficient size and talent, anticipating future 
        needs;

        e.  Identifying, developing, and coordinating initiatives to 
        address long-range technological needs for future programs;

        f.  Identifying, developing, and coordinating initiatives to 
        establish and strengthen international space relationships;

        g.  Harmonizing the roles and responsibilities of federal 
        agencies to eliminate gaps and unnecessary duplication in the 
        Nation's space portfolio; and

        h.  Regularly reviewing coordinated national space strategies 
        and their success in implementing overall national space 
        policy.
    Chairwoman Giffords. The hearing will come to order.
    Good afternoon, everyone. I am so pleased that we are all 
here, having an opportunity to talk about this very important 
issue, but I am also excited, because this is the 40th 
anniversary of the launch of Apollo 11's mission to the Moon.
    There are a whole series of commemorative events planned 
for this week and for next week, and it is clear that Apollo is 
still considered one of the most significant achievements of 
the U.S. space program, and I would go beyond that, and say of 
all of mankind.
    It is, of course, fitting that we pause to honor those who 
blazed the trail that leads out beyond low-Earth orbit, both 
the brave astronauts who undertook those hazardous expeditions 
to the Moon, and the countless individuals and organizations 
who enabled those expeditions to succeed.
    Yet, by definition, our civil space program is about the 
future, not about the past, and if our space program is to have 
a sustainable and productive future, it also has to be 
relevant. That is, America's space program must be relevant to 
our broad national needs if it is going to continue to be 
supported by Members of Congress and by the American people.
    Yet, as the National Academies review, the Space 
Foundation's annual report, and the NASA Authorization Act of 
2008 all make clear, we can and should do more to enhance the 
relevance of the civil space program, so it can continue to be 
an important contributor to the Nation's strength and wellbeing 
in the years and the decades to come. By that, I don't mean 
that NASA and our space program should just be about spinoffs, 
as important as the past ones have been to our economy, to our 
science, and to our society.
    Instead, what I am saying is that our space program is 
important to Americans scientifically, technologically, 
economically, and geopolitically, and we should recognize and 
nurture that reality, so that we can maximize the benefits we 
accrue from America's space program into the future. I think 
that the National Academies panel put it pretty well. I quote: 
``A preeminent U.S. civil space program with strengths and 
capabilities aligned for tackling widely acknowledged national 
challenges, environmental, economic, and strategic, is a 
national imperative today, and will continue to grow in 
importance in the future.''
    That is an imperative that both Congress and the White 
House will need to come to grips with if we are to have a 
productive future in space exploration, yet that is only half 
of the equation. You have all heard the old conundrum, if a 
tree falls in the forest and no one hears about it. Well, we 
face a similar conundrum with our civil space program. If we 
have an incredibly exciting and relevant space program, but the 
American people don't hear about it, don't understand it, and 
don't know about it, is it really that relevant to the American 
people? Because it is not an academic exercise, our space 
program is incredibly important to this country's future 
wellbeing, but we can't assume the public will just take the 
assertion on faith. We need to be able to demonstrate it.
    So, today's hearing is a part of that process. It is really 
a first step in that process, and I can think of no better way 
to honor the achievements of those who have led America to the 
Moon, and created a space program that has been the envy of the 
world, than to have a hearing like this today.
    In closing, I again want to welcome our witnesses to 
today's hearing.
    I now recognize Mr. Olson for his opening comments.
    [The prepared statement of Chairwoman Giffords follows:]
          Prepared Statement of Chairwoman Gabrielle Giffords
    Good afternoon. I'm pleased to welcome everyone to today's hearing 
on this the 40th anniversary of the launch of the Apollo 11 mission to 
the Moon.
    There are a whole series of commemorative events planned for this 
week and next, and it is clear that Apollo is still considered one of 
the most significant achievements of the U.S. space program--and 
deservedly so.
    It's of course fitting that we pause to honor those who blazed the 
trail that leads out beyond low-Earth orbit--both the brave astronauts 
who undertook those hazardous expeditions to the Moon and the countless 
individuals and organizations who enabled those expeditions to succeed.
    Yet, by definition our civil space program is about the future--not 
the past.
    And if our space program is to have a sustainable and productive 
future, it is also about relevance.
    That is, America's civil space program must be relevant to our 
broad national needs if it is going to continue to be supported.
    Yet as the National Academies review, the Space Foundation's annual 
report, and the NASA Authorization Act of 2008 all make clear, we can 
and should do more to enhance the relevance of the civil space program 
so that it can continue to be an important contributor to the Nation's 
strength and well-being in the years and decades to come.
    By that I don't mean that NASA and our space program should just be 
about ``spinoffs,'' as important as past ones have been to our economy 
and our society.
    Instead what I'm saying is that our space program is important to 
American scientifically, technologically, economically, and 
geopolitically, and we should recognize and nurture that reality so 
that we can maximize the benefits we accrue from America's space 
program in the future.
    I think the National Academies panel put it well:

         ``. . . A preeminent U.S. civil space program with strengths 
        and capabilities aligned for tackling widely acknowledged 
        national challenges--environmental, economic, and strategic--is 
        a national imperative today, and will continue to grow in 
        importance in the future.''

    That is an imperative that both Congress and the White House will 
need to come to grips with if we are to have a productive future in 
space exploration.
    Yet, that is only half of the equation.
    You've all heard the old conundrum: ``If a tree falls in the forest 
and no one is there to hear it . . ..''
    Well, we face a similar conundrum with our civil space program.
    If we have an incredibly exciting and relevant space program, but 
the American people don't really know about it, is it really that 
relevant?
    Because it's not an academic exercise--our space program is 
incredibly important to this country's future well being, but we can't 
assume the public will just take that assertion on faith.
    We need to be able to demonstrate it.
    Today's hearing is a first step in that process, and I can think of 
no better way to honor the achievements of those who led America to the 
Moon and created a space program that has been the envy of the world.
    In closing, I again want to welcome our witnesses to today's 
hearing, and I will now recognize Mr. Olson for any opening statement 
he may care to make.

    Mr. Olson. Well, Madam Chairwoman, thank you so much for 
calling this afternoon's hearing. I would like to thank the 
witnesses for coming today to give us your time and your 
expertise. Thank you.
    I look forward to discussing how Congress and the executive 
branch can collaborate to better enhance public perception of 
the contributions that NASA and the civil space industry 
provide our nation's economy and our quality of life.
    My thanks to our panel of expert witnesses again, for 
taking your time out of your busy schedules to appear before 
the Subcommittee. Your unique perspectives are greatly valued 
by the Members of this committee. Thank you again for coming 
today.
    You know, Madam Chairwoman, I am glad we are holding this 
hearing today, but slightly discouraged that we have to hold it 
at all. I assure you that this hearing would not have been one 
that would have occurred on this day back in 1969. Forty years 
ago today, Apollo 11 launched on a journey that changed 
mankind's perception as to what was possible. We challenged our 
scientists and our engineers to develop never before used 
technologies to send humans on a mission that captivated the 
world's attention and stirred humanity's collective 
imagination. That alone made it relevant.
    I am not sure it is possible to replicate that feeling 
today, that sense of achievement, that sense of unlimited 
possibilities, without an equally challenging goal, but that 
does not mean that other critical discoveries and new 
technologies NASA is developing or currently working on are not 
equally compelling. Our landing on the Moon was the beginning 
of a journey, not the end of one, and sometimes, I feel like we 
have forgotten that.
    Let us look at some of the issues that are critical to our 
nation at this time, securing our economic future, 
strengthening our education system, developing alternative 
energy sources to ease our dependence on foreign oil, improving 
our health care system, and protecting our environment. All of 
these, all of these rate as high concerns among the American 
public polled.
    NASA scores high ratings when it stands alone for public 
support, but suffers when put in a list of priorities with 
other competing goals. This is in part because many Americans 
aren't familiar with the wide breadth of space and Earth-
related research that NASA conducts, and the spinoffs that have 
been developed from those experiments. To improve, we need to 
ensure that we have a worthwhile and challenging human space 
flight goal that is adequately funded, and we also have to 
effectively convey that America's space program provides 
concrete solutions to a wide array of societal problems.
    The members of this panel are uniquely qualified to do 
that. General Lyles recently chaired a study that addressed 
many of these subjects. His report looked closely at the 
overall challenges facing our civil space program. Mrs. Smith 
and the Space Foundation, among other things, have published 
``The Space Report: 2009,'' which includes a host of invaluable 
information, but in my mind, the data provided about the space 
economy is second to none. I am also thankful that Mrs. Myers 
and Mr. O'Brien are here to give us some insight on 
communicating to and hearing from the public. After all, it is 
the public who we are asking to fund many of these endeavors.
    When we are in this hearing room, particularly in this 
subcommittee room, there is no need for convincing. I would 
love to hear how all the enthusiasm that we share in this room 
about space exploration can be conveyed to those people who are 
standing out in the hall.
    With that, Madam Chairman, I conclude my opening remarks, 
and yield back my time.
    [The prepared statement of Mr. Olson follows:]
            Prepared Statement of Representative Pete Olson
    Madam Chairwoman, thank you for calling this afternoon's hearing. I 
look forward to discussing how Congress and the Executive Branch can 
collaborate to better enhance public perception of the contributions 
that NASA and the civil space industry provide our nation's economy, 
and our quality of life. My thanks to our panel of expert witnesses for 
taking time out of your busy schedules to appear before this 
subcommittee. Your unique perspectives are greatly valued by the 
Members of this committee. Thank you for agreeing to participate.
    You know Madam Chairwoman, I am glad that we are holding this 
hearing today, but slightly discouraged that we have to hold it at all. 
I assure you that this hearing would not be one that would have been 
held on this date in 1969. Forty years ago today, Apollo 11 launched on 
a journey that changed mankind's perception as to what is possible. We 
challenged our scientists and engineers to develop never-before-used 
technologies to send humans on a mission that captivated the world's 
attention and stirred humanities collective imagination. That alone 
made it relevant.
    I'm not sure it's possible to replicate that feeling--that sense of 
achievement--that sense of unlimited possibilities--today without an 
equally challenging goal, but that does not mean that other critical 
discoveries and new technologies NASA is developing or is currently 
working on, are not equally compelling. Our landing on the Moon was the 
beginning of a journey, not the end of one. Sometimes I feel like we 
have forgotten that.
    Let us look at some of the issues that are critical to our nation 
at this time: securing our economic future, strengthening our education 
system, developing alternative energy sources to ease our dependence on 
foreign oil, improving our health care system and protecting our 
environment. All of these rate as high concerns when the American 
public is polled. NASA scores high ratings when it stands alone for 
public support, but suffers when put in a list of priorities with these 
other issues. This in part because many Americans aren't familiar with 
the wide breadth of space- and Earth-related research NASA conducts, 
and the spinoffs that have been developed. To improve, we need to 
ensure that we have a worthwhile and challenging human space flight 
goal that is adequately funded, and we also have to effectively convey 
that America's space program provides concrete solutions to solving a 
wide array of societal problems.
    The members of this panel are uniquely qualified to help us do 
that. Gen. Lyles recently chaired a study that addressed many of these 
subjects. His report looked closely at the overall challenges facing 
our civil space program. Ms. Smith and the Space Foundation, among 
other things, have published The Space Report 2009, which includes a 
host of invaluable information, but in my mind the data provided about 
the space economy is second to none. I am also thankful that Ms. Myers 
and Mr. O'Brien are here to give us some insight on communicating to, 
and hearing from, the public. After all, it is the public who we are 
asking to fund many of these endeavors. When we are in this hearing 
room, particularly in this subcommittee, there is no need for 
convincing. I would love to hear how the enthusiasm that we all share 
in this room about space exploration can be conveyed with those out in 
the hall.
    During this week, as we celebrate the 40th anniversary of Apollo 
11, all of us should recognize what we have achieved, but do so with an 
eye on the many discoveries and achievements yet to come.

    Chairwoman Giffords. Thank you, Mr. Olson. I think we all 
agree with your comments.
    I would like to take a moment to introduce our witnesses. 
First up, we have General Lester Lyles, who is testifying as 
Chair of the National Research Council's Committee on the 
Rationale and Goals of the U.S. Civil Space Program.
    Next, we hear from Ms. Patti Grace Smith, who is a member 
of the Board of Directors of the Space Foundation. Then, we 
will hear from Ms. Deborah Adler Myers, who is the General 
Manager of the Science Channel at Discovery Communications.
    And finally, we have Mr. Miles O'Brien, who previously 
acted as CNN's Chief Technology and Environment Correspondent, 
now works as a freelance journalist, and I can personally say 
is probably the most passionate citizen when it comes to space. 
So, we are glad to have you here, Mr. O'Brien, and for all of 
our panelists as well, welcome.
    As our panelists should know, we are going to require that 
we keep to around five minutes of testimony. I know that will 
be hard, but we would like to just get your testimony out. We 
will have the written testimony, of course, but then, we are 
going to open it up to questions, and I am really looking 
forward to having a great discussion.
    And General Lyles, we will start with you.

 STATEMENT OF GENERAL LESTER L. LYLES [U.S. AIR FORCE, RET.], 
 CHAIR OF THE COMMITTEE ON THE RATIONALE AND GOALS OF THE U.S. 
 CIVIL SPACE PROGRAM, AERONAUTICS AND SPACE ENGINEERING BOARD, 
                   NATIONAL RESEARCH COUNCIL

    General Lyles. Thank you, Madam Chairwoman, Members of the 
Subcommittee. I thank you very much for giving us the 
opportunity to testify before this subcommittee today.
    I can't think of a better date to have this particular 
hearing, and to talk about this very, very important topic. As 
you stated, my name is Lester Lyles. I am a retired United 
States Air Force four-star general, and during my 35 years in 
the United States Air Force, I have had the opportunity to be 
involved in numerous space programs: as the Commander of the 
Air Force's Space and Missile System Center; and in Los 
Angeles, as Director of the Ballistic Missile Defense 
Organization, now called the Missile Defense Agency; as the 
Vice Chief of Staff of the United States Air Force; and then, 
finally, as the Commander of the Air Force Materiel Command. 
Today, however, I speak to you as the Chair of the National 
Research Council's Committee on the Rationale and Goals of the 
United States Civil Space Program, which recently, last week, 
released the report ``America's Future in Space: Aligning the 
Civil Space Program with National Needs.''
    My committee, the committee that looked at this particular 
topic, contained 14 members. We had distinguished experts in 
science and engineering, economics, political science, public 
policy, national security, and of course, space systems and 
space exploration. And with your permission, Madam Chairwoman, 
I am going to submit my prepared testimony for the record, and 
would like to just summarize, if you will, what our task was, 
and what the views were of this particular committee.
    First, I will start by saying I thank the National Academy 
Presidents, Ralph J. Cicerone and Dr. Chuck Vest, Academy of 
Science and the Academy of Engineering, for sponsoring this 
very, very important topic. This was not a topic sponsored by 
some other agency, NASA, or any other organization. This was 
the Academies' opportunity and attempt to address a subject 
they thought was very important for the 21st century and for 
our country.
    And what they tasked us to do was to take a broad look at 
identifying the key goals and critical issues for the 21st 
century for the United States civil space policy and civil 
space programs. They asked us to address overarching goals, to 
identify areas of national interest, and to identify, 
hopefully, solutions to some of the issues that we might 
encounter.
    And even though we were asked to take a look, or told to 
take a look at specific programmatic things, we were asked 
specifically to stay at a strategic level. Don't get down into 
weeds, and describe how to build a rocket, or one rocket 
solution versus another, but to look at the big strategic goals 
for the country and for the civil space program in general.
    We started out by taking a very broad definition of civil 
space. Most people, I dare say, even in this room, of learned 
experts in the space arena, when you say civil space, they 
immediately think of NASA. Our definition of civil space was 
much broader. It included NOAA, the National Science 
Foundation, it included commercial space opportunities. It 
included academia. It included everything except national 
security space or intelligence space, though we obviously had 
to touch upon those two entities, because of the common ground 
and common themes, and certainly, common industrial base shared 
by each one of those different entities.
    So, our scope was rather broad, and we think we did as best 
we could to encompass all of the different arenas, and 
everybody we possibly could, to ensure we got a broad breadth 
look at this topic.
    I think, to summarize what the bottom line for our study 
was, it is sort of revealed in the title of our final report. 
You quoted our sort of final context, if you will, of our 
study, Madam Chairwoman. Our overall conclusion is that we have 
a preeminent United States civil space program. It has been 
that way in the past, it is that way today, and it should stay 
that way for the future. And the strengths and capabilities of 
that, those civil space activities, we think, are vastly 
available and vastly able to contribute to broader national 
challenges beyond just space exploration, including dealing 
with issues of climate and climate change, environmental, 
economic challenges, strategic and leadership opportunities, 
the economy, et cetera.
    In our term, you quoted it also, is that there is a 
national imperative to make sure that our civil space programs 
are aligned to do those kind of things that it can contribute 
solutions to so, in such a broad, broad sense.
    Our civil space program should be preeminent, in the sense 
that it can influence, by its example, other nations and their 
use of space, but also give us an opportunity to maintain 
strategic leadership, and use our space programs to help 
international cooperation, wherever we possibly could.
    I was very, very pleased to see an op-ed published the day 
before yesterday by Congressman Ralph Hall, in which he talked 
about this very topic, and we thought was very, very 
appropriate. I agree with everything that Congressman Hall 
stated in his report. The only thing different is that from our 
perspective, we think that the civil space program alignment 
doesn't just focus in a narrow beam. We think we should 
continue doing the things we are doing today, in addition to 
looking at ways we can make that appropriate alignment.
    I will very quickly, because my light just lit up, the red 
light, point out the six goals that we defined and four 
foundational elements we think are critical. The first goal is 
to reestablish leadership for the protection of Earth and its 
inhabitants through the use of space research and technology. 
You could call this stewardship of the Earth. We think it is a 
very, very important goal, and should be one of the major 
things for civil space.
    To sustain and expand our leadership in science, by seeking 
knowledge of the universe, and searching for life beyond. To 
expand the frontiers of human activities in space. To provide 
technological, economic, and societal benefits, where space 
technologies and space capabilities can contribute solutions. 
To inspire current and future generations, and to enhance U.S. 
global strategic leadership.
    Those are our goals, and our recommendations sort of 
revolve around that. I won't, obviously, get into that, in the 
interests of time. Be more than willing to answer any questions 
about them. But I think it is important to very quickly mention 
four foundational elements that our report thought were 
absolutely critical to be addressed by the Administration, by 
the Congress, and by others, if those goals are to be achieved.
    One is greater coordination through whatever means 
possible, a National Space Council, some other leadership forum 
where all of the agencies involved in space can do a better job 
of integrating and coordinating their space activities. The 
need for a competent technical workforce to address that from a 
broader sense than, perhaps, is being done today. To 
effectively size and structure the infrastructure for space 
with the organizations that are involved in space activities. 
And probably, very, very critical to one of the comments you 
mentioned, to look for priority investment or reinvestment in 
technology and innovation. And again, I can elaborate on each 
one of them.
    I would like to just close very quickly, in talking about 
inspiration. I grew up here in Washington, D.C., Madam 
Chairwoman, and I was inspired when President Kennedy made his 
announcement about we are going to the Moon, and we are going 
to bring a human back. I was not about, just about to enter 
high school, actually, a few years from entering high school, 
here in Washington, D.C., and that statement, that goal, that 
far-reaching opportunity expressed by the President for the 
United States, inspired me to seek out a math and technology 
related high school in the District, and not go to the part of 
the District where, high school that I was supposed to go to, 
which was known mostly for basketball players and criminals, 
but--so, I chose another place to, because I was inspired by 
what the President stated.
    I chose engineering at Howard University because of the 
inspiration of the Apollo program. Today, however, when I look 
at my own children, my four children, one doctor, one lawyer, 
one businesswoman, one businessman. They are very, very 
successful. They are inspired by things like the space launch 
yesterday, but on a day to day basis, what inspires them is 
what can be done to solve the economic problems in our country, 
the environmental problems, the energy problems in our country. 
And I am just very, very enthused to think that they can be 
educated amongst as many others, in the hallways and in the 
public, and the Nation can be better educated by understanding 
how the civil space programs can contribute solutions to those 
big challenges that most people worry about on a day to day 
basis.
    Madam Chairwoman, I thank you for being here. I am enthused 
about this subject, and very, very pleased that the Committee 
asked me to testify.
    [The prepared statement of General Lyles follows:]
             Prepared Statement of General Lester L. Lyles
    Madam Chair and Members of the Subcommittee, I appreciate the 
opportunity to appear before you today. My name is Lester Lyles, I am a 
retired USAF four-star general and during my 35 years with the U.S. Air 
Force, I served as Commander of the Space and Missile Systems Center at 
Los Angeles AFB in California, Director of the Ballistic Missile 
Defense Organization, Vice Chief of Staff at USAF/HQ, and Commander of 
the U.S. Air Force Materiel Command.
    Today, I speak to you as the Chair of the National Research 
Council's Committee on the Rationale and Goals of the U.S. Civil Space 
Program, which recently released the report America's Future in Space: 
Aligning the Civil Space Program with National Needs. The committee's 
14 members included distinguished experts in science, engineering, 
economics, political science and public policy, national security, and 
of course, space systems and space exploration.
    With your permission, I would like to submit my prepared testimony 
for the record and summarize my views for you here this morning, 
leaving sufficient time to answer any questions you may have.
    Before addressing the questions posed by the Subcommittee, let me 
summarize our report.

CONTEXT OF THE REPORT

    Without a doubt, the first 50 years of the space age have 
transformed the Nation and the world. Astronauts have stood on Earth's 
Moon while millions watched. Commercial communications and remote 
sensing satellites have become part of the basic infrastructure of the 
world. Satellites support worldwide communications, providing a 
critical backbone for daily commerce--carrying billions of global 
financial transactions daily, for example. Our understanding of every 
aspect of the cosmos has been profoundly altered, and in the view of 
many, we stand once again at the brink of a new era. We have discovered 
that the expansion of the universe continues to accelerate, driven by a 
force that we do not yet understand and that there are large amounts of 
matter in the universe that we cannot yet observe. We have discovered 
planets around other stars, so many that it is ever more likely that 
there are other Earths comparable to our own.
    The next 50 years of civil space will occur in a globalized world 
of societies and nations characterized by intertwined economies, trade 
commitments, and international security agreements. Mutual dependencies 
are much more pervasive and important than ever before. Many of the 
pressing problems that now require our best efforts to understand and 
resolve--from terrorism to climate change to demand for energy--are 
also global in nature and must be addressed through mutual worldwide 
action.
    In the judgment of the Committee on the Rationale and Goals of the 
U.S. Civil Space Program, the ability to operate from, through, and in 
space will be a key component of potential solutions to 21st century 
challenges. As it has before, with the necessary alignment to achieve 
clearly articulated national priorities, the U.S. civil space\1\ 
program can serve the Nation effectively in this new and demanding 
environment.
---------------------------------------------------------------------------
    \1\ The committee considered ``civil space'' to include all 
government, commercial, academic, and private space activities not 
directly intended for military or intelligence use.
---------------------------------------------------------------------------
    In the committee's view, our study needed to address the top-level 
goals of the civil space program and the connection between those goals 
and broad national priorities. These connections form a foundation on 
which the Nation, both now and in the future, can devise sustainable 
solutions to nearer-term issues in the implementation of the civil 
space program. Therefore, the committee focused on the long-term, 
strategic value of a U.S. civil space program, and our report does not 
address nearer-term issues that affect the conduct of U.S. space 
activities other than to provide a context in which more tactical 
decisions might be made.
    The national priorities that informed the committee's thinking 
include ensuring national security, providing clean and affordable 
energy, protecting the environment now and for future generations, 
educating an engaged citizenry and a capable workforce for the 21st 
century, sustaining global economic competitiveness, and working 
internationally to build a safer, more sustainable world. A common 
element across all these urgent priorities is the significant part that 
research and development can play in solving problems and advancing the 
national enterprise in each area. Instruments in space have documented 
an accelerating decline in arctic sea ice, mapped the circulation of 
the world's oceans, enabled the creation of quantitative three-
dimensional data sets to improve the quality of hurricane forecasting, 
and created new tools to address a host of agricultural, coastal, and 
urban resource management problems, to cite only a few examples. Such 
capabilities demonstrate what can be achieved when technologically 
challenging space problems stimulate innovation that leads to long-term 
advances with applications beyond the space sector. Civil space 
activities are central to the R&D enterprise of the Nation, often in a 
transformational way, and thus present powerful opportunities to help 
address major national objectives.
    The committee's overall conclusion is that a preeminent U.S. civil 
space program with strengths and capabilities aligned for tackling 
widely acknowledged national challenges--environmental, economic, and 
strategic--is a national imperative today, and will continue to grow in 
importance in the future.

GOALS FOR THE CIVIL SPACE PROGRAM

    For the United States to be a strategic leader in a globalized 
world, its civil space program must be of a breadth, competence, and 
accomplishment so that U.S. leadership is demonstrated, accepted, and 
welcomed. The committee identified six strategic goals that it regards 
as basic for guiding program choices and resources planning for U.S. 
civil space activities. The goals all serve the national interest, and 
steady progress in achieving each of them is necessary. These goals 
address such issues as U.S. leadership in science and technology, 
understanding climate change and protecting Earth's environment, 
providing economic and societal benefits, inspiration of future 
generations, strategic leadership in space, and human space flight, and 
they are articulated in more detail in the written report.

FOUNDATIONAL ELEMENTS

    While the breadth of the civil space program has grown, there is 
also a sense that the program has been unfocused, sometimes at the 
expense of the effectiveness of the organizations and institutions that 
support it. The United States can no longer pursue space activities on 
the assumption of its unchallengeable dominance--as evidenced by the 
view of other nations that the United States is not the only, or in 
some cases even the best, option for space partnerships. U.S. 
leadership in space activities and their capacity to serve urgent 
national needs must be based on preeminent technical capabilities; 
ingenuity, entrepreneurialism, and a willingness to take risk; and 
recognition of mutual interdependencies. The time has come to reassess, 
and in some cases reinvent, the institutions, workforce, 
infrastructure, and technology base for U.S. space activities.
    The committee identified four foundational elements critical to a 
purposeful, effective, strategic U.S. space program, without which U.S. 
space efforts will lack robustness, realism, sustainability, and 
affordability. Those elements (which are described in greater detail in 
the written report) are coordinated national strategies, a competent 
technical workforce, an effectively sized and structured 
infrastructure, and a priority investment in technology and innovation.

RECOMMENDATIONS

    The committee found that, in spite of their promise and utility, 
components of the civil space program are not always aligned to fully 
capitalize on opportunities to serve the larger national interest. 
Decisions about civil space priorities, strategies, and programs, and 
the resources to achieve them, are not always made with a conscious 
view toward their linkages to broader national interests. The committee 
made recommendations addressing a broad variety of civil space issues, 
from Earth stewardship to human space exploration to scientific and 
technological innovation. For the purposes of today's hearing, I would 
like to highlight two recommendations.
    Recommendation 1 states that emphasis should be placed on aligning 
space program capabilities with current high-priority national 
imperatives, including those where space is not traditionally 
considered. The U.S. civil space program has long demonstrated a 
capacity to effectively serve U.S. national interests. This 
recommendation provides a broad policy basis on which the committee's 
subsequent recommendations rest.
    Recommendation 7 uses a broader perspective on civil space to 
highlight that the success of all of the recommendations in the report 
relies upon the alignment of the various elements of the civil space 
program.
    National space policy too often has been implemented in a stovepipe 
fashion that obscures the connection between space activities and other 
pressing needs of the Nation. Consequently, senior policy-makers with 
broad portfolios have not been able to take the time to consider the 
space program in the broader national context. Rather, policies have 
been translated into programs by setting budget levels and then 
expecting agencies to manage to those budgets. This has resulted in the 
much-repeated assertion, with which the committee agrees, that agencies 
like NASA are being asked to do too much with too little. The committee 
believes that the process of aligning roles and responsibilities for 
space activities, making resource commitments, and coordinating across 
departments and agencies needs to be carried out at a sufficiently high 
level that decisions are made from the perspective of the larger 
national issues regarding which space activities play roles. How this 
process is accomplished might change from administration to 
administration, but the need for an approach that will elevate 
attention to the proper level remains essential.
    Therefore, the committee's recommendation is that the President of 
the United States should task senior executive-branch officials to 
align agency and department strategies; identify gaps or shortfalls in 
policy coverage, policy implementation, and resource allocation; and 
identify new opportunities for space-based endeavors that will help to 
address critical issues now confronting the United States and, to a 
considerable extent, the world as well.
    The effort should include the Assistant to the President for 
National Security Affairs and the Assistant to the President for 
Science and Technology, and should consider such elements as budgetary 
guidance, resource allocation, the space industrial base, the aerospace 
workforce, long-range technological needs, international space 
relationships, elimination of unnecessary duplication of space efforts, 
and regular coordination of national space strategies and their success 
in implementing overall national space policy.
    U.S. space activities--both national security and civil--are not 
isolated elements of the national enterprise. They interact with the 
broader aspects of our nation's commerce, transportation, education, 
and international relations. Civil space activities always have been, 
and will continue to be, excellent vehicles for educating future 
scientists and engineers, promoting positive international relations, 
and supporting the Nation's foreign policy objectives.
    At this time, I would like to address the Subcommittee's questions.

THE RELEVANCE OF SPACE TO NATIONAL NEEDS

    As mentioned above, U.S. space activities are not isolated elements 
of the national enterprise. Civil space activities, within which the 
committee includes academic, commercial and private sector activities, 
are a central part of the Nation's research and development portfolio 
and interact with the broader aspects of our nation's commerce, 
transportation, education, and international relations.
    Our report cites numerous examples of the importance of space in 
addressing important national needs. For example:

        <bullet>  Observations of the Earth from space provide 
        scientists and policy-makers with essential data on a wide 
        variety of subjects, from the path and behavior of major storms 
        to the regional consequences of global climate change.

        <bullet>  Space science missions have, among other discoveries, 
        identified new effects that indicate our understanding of the 
        basic laws of physics is incomplete. The impact of this 
        discovery has stimulated research efforts across the country, 
        supported by the National Science Foundation and the Department 
        of Energy as well as by NASA directly.

        <bullet>  The construction of the International Space Station 
        has provided significant experience in leading a large, 
        international engineering project. Lessons learned in this 
        endeavor have important implications in a future that is sure 
        to include more frequent and complex international cooperative 
        efforts.

        <bullet>  Communications satellites are a vital piece of the 
        Nation's telecommunications infrastructure.

        <bullet>  The GPS system, though built and operated by the U.S. 
        Air Force, has provided significant civilian benefits and has 
        opened entirely new economic markets.

        <bullet>  Civil space efforts are an important part of the 
        national system of innovation, which forms the basis of our 
        economic strength and lays the foundation for our nation's 
        continued prosperity.

MAXIMIZING THE BENEFITS FROM SPACE

    The committee's report provides seven detailed recommendations 
which, if implemented, well maximize the civil space program's ability 
to benefit the Nation. In particular, I would like to take this 
opportunity to highlight those recommendations where Congressional 
leadership could have significant impact.
    The committee recommends that NASA should continue its excellent 
program of scientific exploration and discovery, as a central component 
of the Nation's research and development enterprise. Continued 
Congressional recognition of the civil space program's role in this 
area, alongside agencies such as the Department of Energy, the National 
Science Foundation, and the National Institutes of Health, will help to 
keep these programs aligned with national goals and objectives.
    The committee recommends several areas where NASA and NOAA should 
work collectively to improve our understanding of the Earth and 
communicate this knowledge broadly, both domestically and 
internationally. The Congress could assist in these efforts by 
continuing to recognize that the two agencies each have vital, 
complementary roles to play and by providing the necessary resources, 
guidance and flexibility for the agencies to smoothly transition new 
capabilities from NASA's R&D environment to NOAA's operational 
responsibilities.
    The committee recommends that NASA establish an independent 
technology development program, modeled after the Defense Advanced 
Research Project Agency. This program should be independent of the 
Agency's flight programs and should focus on nascent technologies that 
could be broadly applicable to the space industry at large. It should 
support the best ideas and research, regardless of where the research 
team is found. In the near-term, Congressional leadership in the 
establishment and support of this effort will be crucial for its 
initial success. Over the longer-term, Congressional oversight will 
undoubtedly be necessary to ensure that the program remains true to 
these principles in the face of inevitable programmatic and budgetary 
pressures.
    As part of its recommendation on how to use the civil space program 
to further U.S. strategic leadership, the committee highlights the need 
for reform of the International Traffic in Arms Regulations (ITAR), in 
order to prevent the inappropriate transfer of sensitive technologies 
to our adversaries while eliminating barriers to international 
cooperation and commerce that do not effectively contribute to national 
security. Congressional action is essential to this reform effort.
    Finally, I would like to emphasize the necessity for the Executive 
Branch to align agency and department strategies. The committee 
recommends a broad outline for how this should be accomplished and the 
range of issues that should be covered. Congressional attention to, and 
oversight of, this effort will help to ensure that the goal of a 
maximally and efficiently beneficial civil space program is achieved.

DRAWING INSPIRATION FROM SPACE ACTIVITIES

    As the committee states in the report, a space program that 
achieves its programmatic goals but does stimulate educational 
opportunities or inspirational moments would fail to achieve its full 
potential. The committee did not directly address the most effective 
ways to motivate future generations, but did point out that a 
successful space program demands advances in a wide range of 
activities, from biomedicine to the physical sciences to aerospace 
engineering.

COMMUNICATING THE RELEVANCE OF THE CIVIL SPACE PROGRAM

    The committee believes that the fundamental role that space 
programs play in daily life has often been overlooked. Discussions of 
the space program are generally focused on the accomplishments of the 
1960's and not on the broad, relevant program that exists today. Though 
seldom explicitly stated, there seems to be a national consensus that 
to be successful the space program needs to replicate the Apollo 
Program, either literally or figuratively. Our report argues that the 
Apollo Program is inextricably tied to the Cold War environment. The 
Nation needs to recognize that in our increasingly globalized world a 
broad, vigorous civil space program provides essential solutions to 
many of the challenges we face.
    This completes my prepared remarks. Thank you for your attention to 
this report, and I would be pleased to take questions if you have them.

                 Biography for General Lester L. Lyles
    LESTER L. LYLES, Chair, is a consultant with the Lyles Group. He 
retired from the U.S. Air Force (USAF) in 2003 as commander of the Air 
Force Material Command at Wright-Patterson Air Force Base (AFB) in 
Ohio. Gen. Lyles entered the USAF in 1968 as a distinguished graduate 
of the Air Force ROTC program. He served in various positions, 
including program element monitor of the Short-Range Attack Missile at 
USAF Headquarters (USAF/HQ), special assistant and aide-de-camp to the 
commander of Air Force Systems Command (AFSC), Chief of the Avionics 
Division in the F-16 Systems Program Office, Director of Tactical 
Aircraft Systems at AFSC headquarters, and as Director of the Medium-
Launch Vehicles Program and Space-Launch Systems offices. Gen. Lyles 
became AFSC headquarters' Assistant Deputy Chief of Staff for 
requirements in 1989, and Deputy Chief of Staff for requirements in 
1990. In 1992, he became Vice Commander of Ogden Air Logistics Center 
at Hill AFB in Utah. He served as Commander of the center until 1994, 
when he was assigned to command the Space and Missile Systems Center at 
Los Angeles AFB in California. In 1996, Gen. Lyles became the Director 
of the Ballistic Missile Defense Organization. In May 1999, he was 
assigned as Vice Chief of Staff at USAF/HQ. He is a member of the 
National Research Council (NRC) Air Force Studies Board and served on 
the NASA Advisory Council. His numerous awards include the Defense 
Distinguished Service Medal, the Astronautics Engineer of the Year from 
the National Space Club, the National Black Engineer of the Year Award, 
Honorary Doctor of Laws from New Mexico State University, and NASA's 
Distinguished Public Service Medal for serving on the President's 
Commission on Implementing the U.S. Space Exploration Policy.

    Chairwoman Giffords. Thank you, General Lyles. Ms. Smith, 
please.
    Ms. Smith. Good afternoon, Chairwoman Giffords, Ranking 
Member Olson----
    Chairwoman Giffords. Ms. Smith, we are going to have you 
push your button, so we can--there we go.

  STATEMENT OF MS. PATTI GRACE SMITH, MEMBER OF THE BOARD OF 
                DIRECTORS, THE SPACE FOUNDATION

    Ms. Smith. Good afternoon Chairwoman Giffords, Ranking 
Member Olson, and other distinguished Members of the 
Subcommittee. My name is Patti Grace Smith, and I am a member 
of the Board of Directors of the Space Foundation.
    On behalf of myself and the Space Foundation's CEO, Elliot 
Pulham, I want to thank the subcommittee for providing the 
Space Foundation the honor to sit in front of you, to talk 
about enhancing the relevance of space to address national 
needs. I applaud the subcommittee for picking today to hold 
this hearing, on the 40th anniversary of Apollo 11 lifting off 
the pad on its historic mission to the Moon.
    Before I begin to address the questions the subcommittee 
asked me to discuss, I would like to provide you with a little 
background on the Space Foundation. Our mission is simply to 
advance space related endeavors, to inspire, enable, and propel 
humanity. The Space Foundation was founded March 21, 1983, as 
an IRS 501(c)(3) organization, to foster, develop, and promote 
among the citizens of the United States of America, and among 
other people of the world, a greater understanding and 
awareness of the practical and theoretical utilization of 
space, on behalf of the benefit of civilization and the 
fostering of a peaceful and prosperous world.
    As the global space community has evolved, so has the Space 
Foundation, embracing all facets of space: the commercial, 
including telecommunications and other satellite-based 
services; civil; and national security. Outside of Colorado 
Springs, the Space Foundation's largest presence is in 
Washington, D.C., where our Government Affairs Team and our 
Research and Analysis Team reside.
    The Research and Analysis Team works year-round in 
producing white papers, and most prominently, The Space Report, 
which we submitted for your review. This is our flagship 
publication, and The Space Report is a snapshot, we think, of 
the global space economy.
    Now that I have provided some information for those of you 
who may be new to the Space Foundation and what we do, I will 
begin to address the questions. How relevant is space to 
addressing important national needs? What noteworthy benefits 
have been achieved as a result of past space related 
investments?
    Well, let me just say right off the top, space is very 
relevant. It is so relevant that without it, many of us would 
be at a loss in conducting our daily lives. Space influences so 
many things, and benefits so many parts of our universe of our 
daily lives. Space is the bedrock of America's economic and 
strategic power. According to ``The Space Report 2009,'' the 
global space economy has grown to $257 billion. That is not an 
insignificant number, $257 billion.
    In the macro sense, ``The Space Report 2009'' cites, in 
depth, how space enables a variety of important needs, national 
needs. National security is enabled by space. The U.S. military 
could not fight as effectively and efficiently as it does 
without the aid of space systems. Other nations seek to emulate 
what we do with space, because they recognize the power and the 
benefit that it gives. With each new generation of military 
space systems, troops farther down the chain of command are 
given access to powerful space-enabled tactical capabilities 
that were once only available to senior commandants.
    Governments, in the area of governance, policy-makers need 
accurate data, accurate data that they can rely on a variety of 
issues, ranging from climate to urban planning to resource 
monitoring. Remote sensing from space has provided this data, 
and will continue to do so, as long as the investment is made 
in new space systems for this purpose.
    Take Hurricane Katrina, of the past. Satellite 
communications are often the only way for emergency responders 
to coordinate their efforts, in the absence of terrestrial 
infrastructure. They could not have done the job without the 
space assets.
    Technology developed to detect stresses in the frame of the 
Space Shuttle has been adapted for use on Earth, and is now 
helping to monitor the structural integrity of bridges and 
other structures to ensure public safety. As far as the economy 
goes, financial systems rely on GPS satellites for accurate 
timing of transactions. Satellite-based Internet connectivity 
offers a practical way to bring rural populations into the 
Internet Age, and join the information economy, one of the 
Administration's goals.
    Transportation. I personally know that space is integral to 
the next generation air transportation system being implemented 
by the FAA, which will enable cleaner, safer, and more 
efficient air travel. On the local scale, metropolitan 
authorities in several cities have implemented systems like the 
one now in place for D.C.'s Metro service, which allows 
passengers to check on the Internet or by telephone to see when 
the next bus will arrive. Innovations like this encourage the 
use of public transportation, thereby reducing pollution and 
traffic.
    The Space Report highlights a number of specific areas, it 
is not an exhaustive list, where everyday space products, 
services, and benefits are realized. And we must understand 
that space influences other parts of our economy and businesses 
that it touches, as it embraces the service it provides to our 
citizens. I would posit to the subcommittee that a day without 
space, a day without space-generated benefits for American 
consumers, would be a shocking, if not traumatic experience for 
most Americans.
    And I see the red light, so let me wrap up quickly. Let me 
just say that in terms of how we maximize the benefits to be 
realized from the Nation's space activities, and the relevance 
of those space activities.
    I want to first commend President Obama on his decision to 
review the entire U.S. space policy. We welcome that review. I 
think that the activities are pretty well aligned with our 
national goals and objectives. In fact, many of our goals and 
objectives depend on and are enabled by space assets. Having 
said that, however, I feel I must touch on a larger problem in 
order to address this question.
    In order for the U.S. Government to maximize the benefits 
of this investment, and we all, as citizens, want to maximize 
the benefits of our investments in space, it must improve the 
acquisition of those systems. Currently, we are facing a number 
of gaps across the entire range of the civilian and national 
security space systems. From human space flight to solar 
radiation detection, to next generation GPS, to missile 
warning, to climate and weather monitoring, there are, and soon 
will be gaps in coverage and capability that will hamper our 
ability to derive benefits from space. And the gaps will 
eventually force us, if we don't act, to be more reliant than 
we already are on foreign space systems, and that would be not 
a good thing, I don't think.
    Fourthly, we need to modernize the export control regime. 
That is an area that has been begging attention for some time. 
The Space Report 2009 shows that the commercial sector now 
makes up 68 percent of the global space economy, 68 percent. 
So, regulatory changes, such as export control, have the 
potential of generating considerably more R&D funds than direct 
investment by the government.
    Is it inspirational? Absolutely. It is essential. All you 
had to do was be in the desert of Mojave in 2004, and see the 
thousands of people who assembled there, young and old, from 
all over the country, all over the world, to see their eyes 
light up with the first flight of a private human space flight 
vehicle, to know how exciting it is, and to see how the younger 
generation, the Gen Y generation, are so excited, so passionate 
about engaging in space in a different way. Look at the 
workforce that SpaceX has put together in California, largely 
made up of Gen Ys, and they are there because they feel that we 
are on the brink of something really exciting. They want to be 
a part of it.
    So, finally, how well does the public understand? Not very 
well. And I would suggest that we need to look at the tools 
that the younger generation uses to communicate. They are not 
the traditional tools that we used, or others like us. They are 
Facebook. They are other forms of technology that they are 
very, very adept at. It has become their new telephone. They 
communicate messages, groups like Netroots and others around 
the country are communicating all day in cyberspace, and can 
carry messages that we cannot carry otherwise. So, that is an 
area that I am very, very concerned about, very interested in. 
We need to move away from audiences that have space on the 
agenda, speaking to space choirs. We have got to broaden that 
audience to a broader public.
    So, with that, let me stop here, and just say to paraphrase 
Arianespace's CEO, Jean-Yves Le Gall, when he said recently: 
``Launches speak louder than words.'' We have got to get on 
with it. That will tell the story better than anything will.
    I welcome any of your questions at the end of this. Thank 
you.
    [The prepared statement of Ms. Smith follows:]
                Prepared Statement of Patti Grace Smith
    Good morning Chairwoman Giffords, Ranking Member Olson, and 
distinguished Members of the Subcommittee. My name is Patti Grace Smith 
and I am one of the Board of Directors for the Space Foundation. On 
behalf of myself and Space Foundation CEO, Elliot Pulham, I want to 
thank the Subcommittee for providing the Space Foundation the honor to 
sit before you today to talk about enhancing the relevance of space to 
address national needs.
    I applaud the Subcommittee for picking today to hold this hearing, 
on the 40th anniversary of Apollo 11 lifting off the pad on its 
historic mission to the Moon.

Background

    Before I begin to address the questions the Subcommittee asked me 
to discuss today, I'd like to provide the Subcommittee with a little 
background on the Space Foundation.
    Our mission: To advance space-related endeavors to inspire, enable, 
and propel humanity.
    In 1983, a small group of visionary leaders in Colorado Springs saw 
a need to establish an organization that could, in a non-partisan, 
objective and fair manner, bring together the various sectors of 
America's developing space community and serve as a credible source of 
information for a broad audience--from space professionals to the 
general public. The Space Foundation was founded March 21, 1983, as an 
IRS 501 (c)(3) organization ``to foster, develop and promote, among the 
citizens of the United States of America and among other people of the 
world . . . a greater understanding and awareness . . . of the 
practical and theoretical utilization of space . . . for the benefit of 
civilization and the fostering of peaceful and prosperous world.''
    As the global space community has evolved, so has the Space 
Foundation--embracing all facets of space--commercial (including 
telecommunications and other satellite-based services), civil, and 
national security. In fact, the Foundation is one of a few space-
related organizations that embrace the totality of this community 
rather than focusing on a narrowly defined niche.
    In the 26 years since its founding, the Space Foundation has become 
one of the world's premier non-profit organizations supporting space 
activities, space professionals and education. The Foundation's 
education programs have touched teachers in all 50 U.S. states and 
Germany. It sponsors and conducts the premier events for space 
professionals anywhere in the world today: the National Space 
Symposium, the Strategic Space Symposium in Omaha and the Space 
Business Forum in New York City.
    Outside of Colorado Springs, the Space Foundation's largest 
presence is in Washington DC. This is where our government affairs team 
and our Research and Analysis (R&A) team reside. Our government affairs 
team are not lobbyists, but rather work to promote and educate 
decision-makers about space writ large. They hold informational and 
educational briefings on a variety of civil, commercial and national 
security space issues. The R&A team works year-round in producing white 
papers and most prominently, the annual Space Report. The Space Report 
is the Space Foundation's ``flagship'' publication. The Space Report is 
a snapshot of the global space economy.
    As I mentioned earlier, my role with the Space Foundation is as a 
member of the Board of Directors. Our current chairman is retired 
General Tom Moorman Jr. USAF (Ret.), our Vice Chairman is Dr. Bill 
Ballhaus, our treasurer is Mr. Lon Levin and our secretary is Mr. Marty 
Faga. I'd like to point out to this committee that its one-time 
Chairman, Bob Walker, was also on our board and even served as its 
Chairman.
    Now, that I've provided some information for those of you who may 
be new to the Space Foundation and what we do, I will begin to address 
the questions presented to me.

How relevant is space to addressing important national needs, and what 
noteworthy benefits have been achieved as a result of past space-
related investments?

    I am not saying anything new when I say to you that space is 
absolutely essential to all facets of modern human existence. Space is 
the bedrock of America's economic and strategic power. According to The 
Space Report 2009, the global space economy has grown to $257 billion, 
a number that is not insignificant.
    In the macro-sense, The Space Report 2009 cites in-depth how space 
enables a variety of important national needs:

        <bullet>  National security: The U.S. military could not fight 
        as effectively and efficiently as it does today without the aid 
        of space systems. Other nations seek to emulate this capability 
        because they have seen how powerful it is. With each new 
        generation of military space systems, troops farther down the 
        chain of command are given access to powerful space-enabled 
        tactical capabilities that were once only available to senior 
        commanders.

        <bullet>  Governance: Policy-makers need accurate data on a 
        variety of issues ranging from climate to urban planning to 
        resource monitoring. Remote sensing from space has provided 
        this data and will continue to do so as long as the investment 
        is made in new space systems for this purpose. When natural 
        disasters such as Hurricane Katrina occur, satellite 
        communications are often the only way for emergency responders 
        to coordinate their efforts in the absence of terrestrial 
        infrastructure. Technology developed to detect stresses in the 
        frame of the Space Shuttle has been adapted for use on Earth 
        and is now helping to monitor the structural integrity of 
        bridges and other structures to ensure public safety.

        <bullet>  Economy: Financial systems rely on GPS satellites for 
        accurate timing of transactions. Satellite-based Internet 
        connectivity offers a practical way to bring rural populations 
        into the Internet age and join the information economy--one of 
        the Administration's goals.

        <bullet>  Transportation: I personally know that space is 
        integral to the Next Generation Air Transportation System being 
        implemented by the FAA, which will enable cleaner, safer, more 
        efficient air travel. On a local scale, metropolitan 
        authorities in several cities have implemented systems like the 
        one now in place for D.C.'s Metrobus service, which allows 
        passengers to check on the Internet or by telephone to see when 
        the next bus will arrive. Innovations like this encourage the 
        use of public transportation, thereby reducing pollution and 
        traffic.

    Additionally, The Space Report 2009 enumerated an exhaustive list 
of `everyday' space products, services and benefits. Some of the most 
prominent:

        <bullet>  Weather prediction/disaster mitigation

        <bullet>  Resource exploration/exploitation

        <bullet>  Erosion monitoring and management

        <bullet>  Global communications

        <bullet>  Guidance/navigation/timing

        <bullet>  Population forecasting

        <bullet>  Attaining a better understanding of our place in the 
        universe

        <bullet>  The numerous spin-offs that have directly enriched 
        the lives of people all over the world. Investment in space 
        constantly generates new products and spinoff technologies that 
        U.S. companies can build and market.

    In The Space Report 2009, one new emerging area that more and more 
Americans are using via their iPhones and other hand-held PDAs is that 
of ``geoinformatics.'' This is a very unique convergence of GPS, and 
remote sensing to enable the user to have real-time location-based 
content. The average user of such capabilities will be blissfully 
unaware that space-based systems helped him find a flower shop at the 
last minute on his anniversary, he'll just be glad he has it and soon 
will take it, much like all other space enabled capabilities, for 
granted.
    I would posit to the Subcommittee that a ``day without space''--a 
day without space generated benefits for American consumers, would be a 
shocking, if not, traumatic experience for most Americans.
    The inspirational value of space activities is equally important, 
but I will address that point later in my testimony.

What does the Space Foundation recommend be done to maximize the 
benefits to be realized from the Nation's space activities and the 
relevance of those space activities? How important is it for those 
activities to be aligned to national goals and objectives?

    First off, I want to commend President Obama on his decision to 
review the entire U.S. space policy. Like each of his predecessors 
since President Eisenhower, the President realizes the importance of 
space and is making space a priority.
    Secondly, I feel that most of our space activities are pretty well 
aligned with our national goals and objectives. Whether decision-makers 
realize it or not, many of our goals and objectives depend on and are 
enabled by space assets.
    Thirdly, however, I feel I must touch upon a larger problem in 
order to address this question. In order for the U.S. Government to 
maximize the benefits of its investment in space, it needs to improve 
the acquisition of those systems. They should be developed faster and 
with more management discipline. We all know of space systems that have 
been over budget and behind schedule.
    Currently we are facing a number of gaps across the entire range of 
the civilian and national security space systems. From human space 
flight, to solar radiation detection, to next generation GPS, to 
missile warning, to climate and weather monitoring, there are, or soon 
will be gaps in coverage and capability that will hamper our ability to 
derive benefits from space. These gaps will also force us to be reliant 
on foreign space systems. I also would say that it is beyond a 
coincidence that we are seeing such a systemic gap problem in so many 
areas. Once we get back to better management of space systems, we can 
deploy more systems more often and accrue more benefits from them.
    Fourthly, we need to modernize the export control regime to allow 
U.S. space companies to compete effectively in the global marketplace. 
This is one area in which the U.S. already generates a positive trade 
balance, but it could be significantly larger and would provide more 
funds for U.S. companies to develop new jobs and innovations that help 
both the domestic space industry and the broader U.S. economy. The 
Space Report 2009 shows that the commercial sector now makes up 68 
percent of the global space economy, so regulatory changes have the 
potential to generate considerably more R&D funds than direct 
investment by the government.

How important is the inspirational component of the Nation's space 
activities, and what would be the most effective ways to use space 
activities to motivate emerging generations of Americans to pursue 
studies and careers in science and engineering?

    In one word: essential.
    Let me put this in perspective for the Members of the Subcommittee. 
While most of you have vivid memories of the Apollo moon landings, I am 
willing to bet you that the vast majority, if not all your staffers do 
not. Let alone were they even alive when the landings occurred. The 
post-Baby Boom generations do not have the memory of the Apollo, but 
instead the Challenger or Columbia disasters.
    Furthermore it is not like the 20 and 30 somethings of today do not 
care about space. They do. These people are the most hi-tech infused 
generation in the history of humanity. However, being active or even 
somewhat participatory in the U.S. Government's space enterprises do 
not feel like a viable option. Instead they are going to other places 
where they can feel like they are making a difference. For example the 
amount of young people who are involved with Burt Rutan's spaceship 
developments on behalf of Virgin Galactic and future customers, the 
early Gen Y workforce SpaceX has assembled or elsewhere like the Google 
Lunar XPrize show that space is relevant and is important to young 
adults.
    I am also happy to report to the Subcommittee that The Space 
Foundation employs a variety of programs and initiatives that educate 
and raise awareness about the importance and impact of the space 
industry:

    Space Foundation education programs support teachers and Pre-K-12 
students with standards-based curriculum that integrates science, 
technology, engineering, and mathematics (STEM) into all content areas:

        <bullet>  NEW HORIZONS Space Education Program, a community-
        centered, science enrichment program that infuses STEM 
        education into a community through student enrichment programs, 
        teacher workshops, field trips, town-hall meetings, and 
        astronaut and space professional visits.

        <bullet>  Space Discovery Institute, week-long, intensive, 
        graduate-level, in-residence courses that provide Pre-K-12 
        educators with space-related STEM education knowledge and 
        content that is instantly transferable to the classroom; 
        participants can earn continuing education credits, graduate 
        credits, or work toward a master's degree in multiple related 
        disciplines.

        <bullet>  STARS Program (Science, Technology, and Academic 
        Readiness for Space), a hands-on science enrichment program 
        based on each school's academic needs.

        <bullet>  National Science Standards Lesson Bank, free 
        downloadable Pre-K-12 national science standards-based lessons.

        <bullet>  Teacher Liaisons, advocates for space science 
        education who: receive Space Foundation training and resources 
        to further integrate space into their classrooms; participate 
        in workshops and education programs at the National Space 
        Symposium; and can receive specialized Space Foundation and 
        NASA training with optional graduate-level credit, exclusive 
        professional development experiences with optional continuing 
        education credit, and special space-oriented student programs 
        created just for them.

        <bullet>  Space Career Fair, an annual event in conjunction 
        with the National Space Symposium that provides students and 
        transitioning military personnel opportunities to network with 
        the largest employers in the space industry, to submit resumes, 
        and, occasionally, to interview for jobs.

        <bullet>  Jack Swigert Aerospace Academy, an aerospace-focused 
        public middle school created and managed in conjunction with 
        Colorado Springs School District 11 that drives STEM 
        proficiency through a space-related curriculum, enhanced on-
        site laboratories and learning opportunities, and involvement 
        with Space Foundation programs.

How well does the public understand the relevance of the Nation's space 
activities to meeting national needs and realizing societal benefits? 
Is there a need to ``get the message out'' on the relevance of those 
space activities and the benefits to be derived from our space-related 
investments? If so, how can that message be most effectively 
communicated?

    Not very well. Far too many audiences are made up of the ``space 
choir.''
    One of the ways the Space Foundation communicates this message to 
the larger public is by means efforts such as the Space Foundation's 
Space Certification Program, which enables companies to show that their 
product has a space technology heritage. This provides benefits in both 
directions, enabling the company to show off its high-tech space 
pedigree and by illustrating in a tangible manner the way in which 
space activity improves the lives of the ordinary consumer.
    At the end of this month, your colleagues on the Aviation 
Subcommittee will be holding a hearing on next generation navigation. 
Undoubtedly there will be a major portion of this hearing focused on 
satellite-based capabilities. I think this highlights just how almost 
invisible and ubiquitous space has become.
    I think the public at a very basic, fundamental level ``gets it'', 
but not much beyond that. The public gets understandably frustrated 
when they hear of budget and schedule problems. On the other hand, one 
only has to look at the interest from the general public in the Mars 
rovers, or the recent, and final, Hubble mission or to have witnessed 
the thousands, young and old, that assembled in the Mojave desert in 
2004 to witness the historic first private human space flight as 
evidence that there is a thirst and an interest in what we do in space.
    Honestly, I'm not sure a message campaign is the best way to move 
forward. We live in an age of almost constant message barraging. From 
pop-ads on the Internet, to seemingly constant political campaigning, I 
think a ``command and control'' ad campaign would not do much. If 
anything it could have the opposite reaction.
    These younger generations are so technologically saturated, the 
space industry needs to take advantage of that and utilize these new 
channels to reach out and get kids excited about space. If kids get 
excited about it, the rest of the public will follow. I would also 
mention that you'd be surprised how much things like Facebook can help 
spread enthusiasm about space. The peer-to-peer discussions and sharing 
of information and enthusiasm for space is something that can surpass 
an ad campaign. Witness astronaut Buzz Aldrin's recent use of web 2.0 
technology when he teamed with rapper Snoop Dogg to create ``Rocket 
Experience'' message about space.
    For the larger public, not to sound flippant, but I think simply 
executing missions successfully will do more to help than anything 
else. I must paraphrase Arianespace CEO Jean Yves Le Gall, when he said 
recently, ``launches speak louder than words.'' After all this is a 
generation that is about achieving things that have never been done, 
working as hard as necessary to achieve a breakthrough and talking less 
and doing more.

Conclusion

    I again want to express on behalf of the Space Foundation our deep 
appreciation for allowing us to come before you today. I stand ready to 
answer any your questions.
    Thank you.

                    Biography for Patti Grace Smith
    Patti Grace Smith served as Associate Administrator for Commercial 
Space Transportation for the Federal Aviation Administration, U.S. 
Department of Transportation, where for eleven years (ending February 
2008) she headed the line of business responsible for licensing, 
regulating, and promoting the U.S. commercial space transportation 
industry. Smith joined the Department of Transportation in 1994. Smith 
has over 28 years of experience and knowledge of the Federal 
Communications Commission (FCC), the Federal Aviation Administration 
(FAA) and the U.S. Department of Transportation (DOT).
    In an era of unprecedented private sector progress toward 
commercial human space flight, Smith worked hard to foster an 
environment where safety always comes first and innovation can 
flourish. During her career at the FAA and DOT, Smith was instrumental 
in the growth and change that the U.S. commercial launch industry has 
experienced, facilitating both technological and infrastructure 
developments and initiating and fostering greater cooperation and 
partnerships between aviation and space functions in the Agency. During 
her service at the FAA, key milestones were achieved that include the 
Mojave Air and Spaceport becoming the first inland Commercial Spaceport 
licensed by the Agency, and the launch of the X-Prize winning, historic 
SpaceShip One, a launch licensed by the FAA. Smith also oversaw the 
development of rules for human space flight mandated by congressional 
passage of the Commercial Space Launch Amendments Act of 2004.
    Under Smith's leadership at the FAA Office of Commercial Space 
Transportation, the FAA became the recognized global leader in private 
human space flight. Smith initiated and helped forge partnerships with 
the Air Force on common launch safety standards, and kept safety, 
regulatory matters and insurance issues constantly in the public forum. 
She worked closely with FAA lines of business to draw on aviation 
expertise where appropriate to space issues and to address the impact 
of space flight on the National Airspace System. Smith was named by 
Space News as one of the top ten people in the U.S. space sector.
    Smith also held positions in the private sector at the National 
Association of Broadcasters, Westinghouse Broadcasting Corporation, and 
Sheridan Radio Network; and in government at the Department of Defense 
and the Federal Communications Commission; and the Senate Commerce 
Committee. Smith is currently an aerospace consultant with Patti Grace 
Smith Consulting working with Virgin Galactic (The Virgin Group), CSSI, 
Inc., the Tauri Group and a number of other aerospace companies. She is 
on the board of SpaceDev (now Sierra Nevada), Space Foundation, 
American Astronautical Society, the American Bar Association's Air and 
Space Law Forum Board; the X Prize Advisory Committee Board, and the 
Conrad Foundation.
    She is the recipient of numerous awards for her accomplishments in 
communications, external relations, and commercial space 
transportation. She is a regular speaker at a number of industry 
events.

    Chairwoman Giffords. Thank you, Ms. Smith. Ms. Myers, 
please.

STATEMENT OF MS. DEBORAH ADLER MYERS, GENERAL MANAGER, SCIENCE 
               CHANNEL, DISCOVERY COMMUNICATIONS

    Ms. Myers. Thank you so much for inviting me here today. It 
is a great honor.
    Since we are a media company, today, I am going to be 
sharing some video clips with you, so that we can help bring 
the discussions to life. Our audience loves space programming, 
and I think it is because space captures imaginations and 
allows people to dream, really to think outside themselves, and 
marvel at the unknown.
    Discovery is the brainchild of John Hendricks who, 24 years 
ago, believed that Americans would watch a network devoted 
entirely to programming that captures people's innate sense of 
curiosity of the world. He was personally inspired by a 
lifelong fascination and a love of space. Well, today, 
Discovery Communications, and especially, the team I am proud 
to lead as General Manager of the Science Channel, is rallying 
around President Obama's call to restore science to its 
rightful place. That call to action was absolutely music to our 
ears.
    There is a barrier simply in the word science. Many of us 
struggled with science classes and children, and the cliche 
that we struggle against constantly is that science is dry and 
it is boring. And the key to developing a larger audience is 
igniting people's imagination, and encouraging them to be 
endlessly curious, because science really is creative. It 
improves your life every single day.
    So, here on the Science Channel, we are experimenting with 
brand new ways to immerse and make people excited about 
science, and to create content and programs that immerse 
people, exactly what you were saying, on air, online, in 
Facebook, on Twitter, bringing all this great content to where 
people will consume it, and connect and explore it. We are 
developing alternate reality games, and we are even bringing 
this content into our classrooms. We are calling this Science 
360, and space is a really important part of this.
    We have hosts and we have experts that include stars in 
their field, like Dr. James Garvin, who is the Chief Scientist 
at NASA Goddard, Dr. Michio Kaku, who is the co-creator of the 
string theory. They are our popular hosts, and people love the 
programming, when they bring space sciences and physics to 
life.
    And we also have a campaign that I would like to share with 
you, called the Brains of Science, and it features role models 
like astronaut Buzz Aldrin, who seek to inspire a whole new 
generation, and get them excited about why they choose their 
careers, especially Buzz, as an astronaut. Take a look.
    [Video]
    So, our job is to find great science communicators in space 
and science, and help them bring their message to life. But on 
top of that, we are also seeking out ``A'' list celebrities who 
have a passion for science, and can bring even more people to 
the genre, because they bring in a larger ground. Whoopi 
Goldberg, for example, who is passionate about inspiring a love 
of science and learning in women and young girls. She is 
creating a science game on-air and online.
    And we reach out to science organizations that have 
traditionally worked in their own silos, and we are working to 
bring them together. For example, we came to NASA with a big 
idea. Academy Award-winning actor Morgan Freeman has this 
lifelong passion for space, and he is fascinated by the great 
mysteries of the universe. So, this new alliance between Morgan 
Freeman and NASA is resulting in an eight part series that we 
are very proud to be launching in April, and this is executive 
produced and hosted by Morgan Freeman.
    [Video]
    Space programming is one of our most popular genres that we 
run on the network, and we sprinkle this content into a lot of 
our programming. When we cut back on space coverage, we hear 
about it immediately from our viewers, and boy, are they vocal. 
In fact, so many people crave this information that we devote 
an entire week of it in our annual Space Week, which rates 
highly on-air and online, and people write in and Twitter in, 
and tell us all the time.
    NASA also played a critical role in Discovery Education's 
3M Young Scientist Challenge. They hosted this year's annual 
middle school competition, and this a wonderful challenge that 
is designed to inspire the next generation of great science 
communicators. Will Smith is the producer of our special on the 
Young Scientist Challenge, and he personally produced this spot 
to run across in our schools. Take a look.
    [Video]
    He was wonderful to work with, and not many people know 
that he was accepted to MIT. He wanted to be an engineer, and 
he is passionate about space and engineering, and finding new 
ways to get young people involved in considering that it is 
school to be smart, and ways to go into careers in space and in 
science.
    We also bring original content directly into our schools 
nationwide through our Discovery Education division. Discovery 
Education Streaming offers classrooms thousands of science 
videos and digital content that teachers can easily integrate 
right into their classroom lectures, and they are able to 
customize the way that they are able to teach kids. Are they 
better to learn through hearing or reading, or bringing things 
to life? It is a wonderful tool.
    So science and space, it is alive, it is optimistic, and it 
is the future. So, I want to express my sincere thanks for 
allowing Science Channel and Discovery Communications to show 
you our passion for space and all genres, really, of science.
    We are proud to answer the call and be a champion for this 
critical movement to bring science back to its rightful place 
in the United States.
    Thank you, and I am happy, later on, to answer any 
questions, because there is so much more to tell you about. 
Thank you.
    [The prepared statement of Ms. Myers follows:]
               Prepared Statement of Deborah Adler Myers
    Chairwoman Giffords and other distinguished Members of the 
Subcommittee on Space and Aeronautics, thank you for your invitation to 
testify today on this important topic. I'm proud to represent Discovery 
Communications and discuss our efforts to further the excitement and 
endless possibilities of science in general, and space in particular.
    Discovery is the brainchild of John Hendricks, who, in 1985, 
believed that Americans would watch a network devoted entirely to 
documentary and non-fiction programming that captures people's innate 
sense of curiosity of the world. He was personally inspired by a 
lifelong fascination and love of space--he grew up in Huntsville, 
Alabama, home of NASA's George C. Marshall Space Flight Center, 
watching in awe as man achieved the impossible.
    Today, Discovery Communications, and especially the team I'm proud 
to lead as General Manager of Science Channel, is rallying around the 
call to action issued by President Obama on April 27th. He challenged 
our nation to restore science to its rightful place because science is 
more essential for our prosperity, our security, our health, our 
environment, and our quality of life than it has ever been before.
    That call to action was music to our ears. For the last year, we 
have been working on a four-part strategy to get people of all ages 
excited about the sciences--especially space and its related fields.
    The strategy includes:

        1)  Experimenting with various ways to make science exciting 
        and entertaining;

        2)  Finding and training strong science communicators including 
        the ``rock stars'' of science and pop culture and training a 
        new generation of science communicators;

        3)  Aggregating science by bringing together traditionally 
        siloed organizations to create partnerships and exchange 
        information;

        4)  Delivering all of this content and information in a way 
        that allows adults and kids to access it--on air, online, in 
        gaming, on phones and digital devices not yet created and, in 
        schools.

    The ability to connect our science programming on all these 
platforms is what we call Science 360<SUP>+</SUP>. I'll go into each of 
these in a little more depth.
    The first part of this strategy is to reinvent how we talk about 
the field and make it entertaining. There is a barrier simply in the 
word ``science''--many of us struggled with science classes as 
children, and in fact, studies show scientific engagement among 
students dips in middle school. The cliche we struggle against is that 
science is boring and dry and something I might not understand. The key 
to bringing it to a larger audience is sharing the great stories and 
creativity of science. We want to ignite the public's imagination, 
engage them in the quest for answers, and encourage them to embark on 
journeys to solve scientific puzzles. We bring science to life by 
making it relevant to people's everyday lives, celebrating the 
ingenuity in all of us.
    Science Channel's mission is to be the creative magnet for all 
people--adults and kids who share a passion for innovation and the 
sciences--from space, technology and engineering to physics and the 
Earth and natural sciences. Our job is to keep experimenting to find 
the best, most creative ways to bring these genres, stories and 
challenges to life by entertaining and inspiring. We believe that if 
you capture people's imaginations, they will connect and engage.
    The second part of the strategy is finding and training strong 
science communicators, those who have a gift for making science 
accessible and relatable. They make the hard stuff easy to understand 
and have an enthusiasm for getting people engaged. They are our hosts 
and experts--the rock stars of science, like Jim Garvin, chief 
scientist at NASA Goddard who participates in many of our space 
programs; Dr. Michio Kaku, co-creator of String Theory who explains 
black holes, time and the physics of the universe; and Dr. Basil Singer 
who takes us on space adventures. Sometimes they share their stories in 
short-form segments like our Brains of Science Campaign, which features 
people from all the sciences talking about their work and why they 
entered their chosen field. It's a great way to get people excited 
about different careers in science.
    To bring an even larger audience to the Science Channel, we seek 
out ``A-list'' celebrities who have a passion for science and space and 
want to share that passion with an audience and particularly kids. 
Whoopi Goldberg, who is passionate about inspiring a love of science in 
women and young girls, is doing a trivia-based game show and a 
companion online game that can be played simultaneously at home. We're 
also working with Morgan Freeman, who has a love of space, and Will 
Smith, who was accepted to MIT before he decided to pursue his acting 
career. Celebrities are just one of the ways we bring new audiences to 
our networks. We entice new viewers with credible, enthusiastic 
celebrities and hold their attention with the entertaining information 
we present.
    In addition to the current superstars of science and Hollywood 
celebrities, Science Channel is actively seeking out and training new 
science personalities. We created a science talent school where we take 
rising stars in the major fields of science, including Dr. Jennifer 
Eigenbrode from NASA and Dr. Hakeem Oluseyi from the Florida Institute 
of Technology, and groom them to be science television communicators. 
We will then use them throughout our programming and in some instances 
create series or specials around their area of expertise. Currently we 
are training 10 people a year and we hope to expand the program.
    The third part of our strategy is partnerships, which are 
critically important to our success. Half of our battle is keeping 
track of all the amazing work going on around the world so we can bring 
our audience breakthroughs and innovations in all fields of science. 
Reaching out to science organizations that have been individual silos 
and working to bring them together and share their work with the public 
is a big priority for us. We work with research centers, universities, 
science media, scientists and leading organizations--anyone who wants 
the public to understand and celebrate their work. Our partnership with 
NASA is an example of a success story.
    We came to NASA with a big idea. Academy Award-winning actor Morgan 
Freeman has a lifelong passion for space. He's fascinated by the great 
mysteries of the universe and trying to find answers to questions that 
have been asked for all of civilization, like: Is there other life in 
the universe? How did we get here? Is time travel possible? We wanted 
to bring Mr. Freeman's passion for the topic to our audience and asked 
NASA if they would host us for a day-long brainstorm about their 
current research and planned missions. They discussed with us the 
profound implications of what their upcoming missions could tell us 
about our world and ourselves. The result of that conversation is an 
eight-part series we're launching in April hosted and executive 
produced by Morgan Freeman.
    NASA also played a critical role in our Discovery Education 3M 
Young Scientist Challenge, an annual competition for middle school 
students designed to inspire the next generation of great science 
communicators. The finals of last year's competition were held at NASA 
Goddard Space Flight Center. The inspiration our students felt when 
they worked for several days inside NASA alongside working scientists 
will forever change their lives. The event was also filmed by Science 
Channel for a television special, executive produced by Overbrook 
Entertainment, which aired earlier this year.
    Science Channel also had the privilege of partnering with NASA to 
film their amazing achievements and then bring them to the viewer at 
home. Together we created two live television specials in the past 
year, tied to their Mars and Hubble missions. In addition to 
traditional televised programs, these specials also spoke to audiences 
in media formats that they prefer, with extensive web sites that 
allowed people to explore at their own pace and new media tools, 
including NASA scientists posting Twitter updates and answering 
viewers' questions in real time as the actual missions unfolded. We 
also aired short-form content throughout the day with mission updates.
    Space is one of many genres that we program on Science Channel, and 
our viewers tell us that it is one of their favorite subjects. Beyond 
our anecdotal evidence, our ratings research confirms that our viewers 
love this genre--last quarter, space programming rated 25 percent 
higher than our network average. Our television shows cover a wide 
range of space and exploration topics--from space travel to string 
theory and wormholes to black holes. We start from the Big Bang 
beginning and go right to the edge of what we know is possible in the 
future. We've brought back classics like COSMOS and created our own 
original series like When We Left Earth and Meteorite Men.
    When we decrease our space coverage we hear about it immediately 
from our viewers, so space-related topics and segments are also woven 
into many other series and specials. In fact, so many people crave 
space programming that we devote an entire week of our evening 
television schedule to our annual Space Week, which rates highly on 
air, and online. We launched a new series during Space Week this year 
called Exodus Earth, where we explored what would happen if for 
whatever reason we decided to leave Earth. The series looked at where 
would we go, how would we live and what would be waiting for us. At 
Science Channel we constantly experiment with different kinds of story-
telling devices to bring topics to life.
    We're also bringing our content to teachers and students. Reaching 
tomorrow's scientists today is critical, so Discovery Communications' 
Education Division, which combines scientifically proven, standards-
based digital media and a dynamic user community to empower teachers to 
improve student achievement, has created services to engage students in 
scientific inquiry.
    Utilizing America's broadband network, Discovery Education 
streaming, Discovery's flagship service, offers American classrooms 
thousands of science videos, delivered via the Internet, correlated to 
state standards, and in three- to five-minute clips that teachers can 
easily integrate into their classroom lessons. In addition, Discovery 
Education also produces specific digital content services for both 
elementary and middle school classrooms, called Discovery Education 
Science, which propels school curricula with standards-based digital 
content, virtual labs, simulations, and more. Together, these services 
help educators encourage exploration, stimulate critical thinking, and 
deepen understanding of science.
    While the promise of digital content to positively impact student 
engagement in science is great, any plan to integrate digital content 
or other educational technologies into classroom curriculum is doomed 
to failure without ongoing professional development, supported by 
school districts. Discovery Education works directly with school 
districts to provide professional development strategies that model 
best practices: namely, strategies for providing students with 
consistent feedback, utilizing cooperative learning structures, 
embedding digital content into instruction, and promoting the creation 
of content for the web in an effort to better engage 21st century 
students in science instruction.

Advisory board

    Underpinning all that I've discussed here today is the world-class 
board of advisors led by our Chairman John Hendricks. Members include 
representatives from the Massachusetts Institute of Technology, the 
National Science Teachers Association, the Florida Institute of 
Technology, Hudson Alpha Institute for Biotechnology, The Franklin 
Institute, National Academy of Sciences, Electronic Arts, Popular 
Science, and, of course, NASA. Our advisors play a critical role in 
making sure we know about amazing research and technologies. They help 
us find new science communicators. They assist us with developing 
programming and they help us shape our efforts to do even more in the 
areas of science literacy and education.
    In conclusion, I want to express my sincere thanks for allowing 
Science Channel and Discovery Communications to show you our passion 
for space and all genres of science. I think our audience loves space 
programming because it's a quest to discover the great mysteries of our 
time. It allows people to dream, to think outside themselves, to wonder 
about what else there is in the universe and to marvel at the beauty 
and fragility of the world in which we live.
    Science isn't just something you learn in school--it's alive, it's 
optimistic, it's the future. We're proud to answer President Obama's 
call and to be a champion for this critical movement to bring science 
back to its rightful place in the United States. Thank you.

                   Biography for Deborah Adler Myers
    As General Manager, Science Channel, Debbie Myers leads the 
development, production, scheduling, research, marketing, digital and 
communications efforts, with direct responsibility for driving the 
revenue and ratings for the brand. In her role as Executive Vice 
President of programming for Discovery Emerging Networks, Myers also 
spearheads the development, production and programming units for 
Investigation Discovery, Military Channel and HD Theater, some of the 
fastest-growing networks in cable. Charged with commissioning and 
creating brand-defining series and specials for all four networks, 
Myers also leads the effort to attract top scientists, experts and 
personalities to appear on air and online.
    Since joining the Emerging Networks group in March 2008, Myers has 
launched more than 40 new series, including 20 for Science Channel, and 
secured major programming deals with Morgan Freeman, Whoopi Goldberg 
and Paula Zahn.
    Myers first joined Discovery Communications in June 2005 and has 
been responsible for thousands of hours of content across all of 
Discovery's networks, including the launch of TLC's franchise Little 
People, Big World. As Vice President of production and then Senior Vice 
President of programming, daytime and fringe, for TLC, Myers oversaw 
the launches of LA Ink, Say Yes to the Dress, Big Medicine, Take Home 
Chef and Take Home Handyman and managed continuing series including 
What Not to Wear, Miami Ink and A Baby Story.
    Prior to joining Discovery, Myers ran her own production company, 
Aha! Entertainment, where she created series and pilots for NBC, 
Paramount, VH-1 and 20th Television. Myers was also instrumental in 
launching several cable networks, including E! Entertainment and 
Oxygen. She served for eight years as Vice President of programming and 
development at E!, where she created and ran 17 signature series, 
including the Emmy Award-winning Talk Soup and E! News.
    Myers is the former Governor of the Production Executives group of 
the Academy of Television Arts and Sciences.

    Chairwoman Giffords. Thank you, Ms. Myers. We appreciate 
that. Well, speaking of new media and Twittering, and MySpace, 
and blogging, one of the best space technology folks, that we 
are going to hear from next, is Miles O'Brien.

           STATEMENT OF MR. MILES O'BRIEN, JOURNALIST

    Mr. O'Brien. I have been tempted to tweet this whole time. 
I have been tempted to tweet, but I probably should pay 
attention.
    Madam Chairwoman, it is nice of you to invite an unemployed 
journalist to this event. Of course, it is harder and harder to 
find employed journalists, especially in my beat. I have been 
covering space for more than 17 years now. I am a pilot and an 
airplane owner, and I come to the space beat as an enthusiastic 
supporter of all things that fly, well, maybe not mosquitoes.
    I appreciate the adventure that is inherent in exploring a 
frontier. In fact, I spent several years trying to convince 
NASA to give me a ride in the Shuttle to the Space Station, and 
I did have a deal that we would have announced about a week or 
so after the safe landing of Columbia, in February of 2003. 
Unfortunately, that was a different story.
    In all, I have covered about three dozen Shuttle missions, 
including John Glenn's flight, with no less than Walter 
Cronkite as my co-anchor. And I got to ask him a lot of 
important questions, like would you like a little more cream in 
that, sir? Actually, when I first met him, we were talking 
about how we would cover this mission together, and I made the 
mistake of telling him he didn't need to worry about the 
Shuttle, that I would handle that, and all he had to do was 
regale us with tales about the Mercury 7 days. He was visibly 
upset, and he asked me to get him a report on every Shuttle 
mission, all the who, what, when, where, why, whether the 
mission succeeded or not, and I asked him if he wanted that for 
all 94 missions at that time. And his eyes were wide open. He 
said there have been 94 missions? And to paraphrase Lyndon 
Johnson, if we have lost Walter Cronkite, we have lost the 
Nation.
    Now, some of this has to do with novelty. Lindbergh's 
flight was news. When I flew the Atlantic in a little plane a 
few years ago, no one cared, except for my wife. John Glenn's 
first mission was news, and certainly, the intrepid crew of 
Apollo 11 was the obvious lead story for days 40 years ago 
today.
    But I just came last night from covering the launch of the 
127th Shuttle mission, and this room, of course, is a choir, 
but who outside of this room knows what they are doing, or who 
is aboard the Space Shuttle right now, or that there is a 
mission at all? Now, part of the problem is NASA has served up 
a mission that seems mundane, I emphasize seems, no more 
interesting than watching airliners depart a national airport, 
and in fact, the Shuttle was sold to Congress with the promise 
that it would make space travel cheap and as easy as airline 
travel. And, as if to make it all seem real, even though it 
wasn't, the Agency sort of went out of its way to make it look 
ho-hum. Then, of course, Challenger happened, and the story 
changed.
    But there is also another factor at work here. Apollo is 
NASA's greatest accomplishment, to be sure. It is also its 
biggest curse, in a sense. It was a story that sold itself, and 
in fact, the media frenzy at the time was so great, in those 
heady Moon race days, that the Agency really had to build some 
walls and moats, and hire PR people who were more like the 
palace guard. And unfortunately, a lot of that culture remains 
in place. And that is aided and abetted by the astronauts who 
live in the palace, and only open the doors and let us in for 
brief audiences, usually on their own limited terms.
    Now, the sad irony is, these people are some of the most 
amazing people I have met. There is even twin commanders on the 
Shuttle, I hear, and if they would just get out of the palace, 
and let the public in a little more, I think they would sell 
the program better than any piece of hardware we are latching 
onto the Space Station.
    Which leads me to the guys and gals who make the hardware, 
the engineers. God love them. They make the magic happen, but 
they just don't get the communication thing. The public affairs 
mission is simply not a priority within NASA. Matter of fact, 
it isn't even on the list of requirements for missions. Forty 
years ago, they were fighting to keep the cameras off the 
Apollo spacecraft. After all, they simply just add weight. 
There was nothing in the mission requirement for it.
    Now, imagine if that thinking had prevailed. It might not 
have prevailed, but that some kind of debate rages on, as they 
are designing the Orion capsule. Public affairs should always 
be a mission requirement, and a high priority requirement. And 
I know that this committee has recognized this. NASA 
Authorization Bill of 2008 gets into this issue of 
participatory exploration, and how important that is.
    We have got to take that first step and go further with it. 
You know, the TV cameras are worth their weight in gold, 
because they let the public participate in the exploration. And 
let us not forget who is paying the bills here. You know, you 
leave the public behind, there won't be any missions, much less 
requirements for missions.
    Which brings me to some of the places where NASA is doing a 
good job engaging the public. You know, think of those little 
rovers, Spirit and Opportunity, explore Mars, making the 
Energizer Bunny look like a piker. Now, this is an example 
where the scientists and engineers have natural common ground 
with the PR folks. The images from the other worlds feed the 
scientists as well as the public interest, and it happens 
simultaneously. How brilliant is that?
    You know, this all started, you will recall, with 
Pathfinder years ago, the first big Internet webaganza, if you 
will. Average people could see the images as they came down 
from Mars at the same time as the scientists at the Jet 
Propulsion Lab. They were peeking over the scientists' shoulder 
as they were doing their job exploring. That is heady stuff. 
That is engaging.
    That trend has continued. Phoenix became the first 
spacecraft to tweet. It was the idea of a former colleague of 
mine, Veronica McGregor. She is at JPL now. She got the idea 
from, where else, her kids, as a way to let people know about 
the landing during the Memorial Day weekend. It happened on a 
Sunday, Memorial Day. She just thought it might be one way to 
make sure people knew it happened. Well, she got a tiger by the 
tail. The thing went viral, tens of thousands of followers, 
tons of detailed questions from space geeks the world over, but 
it broadened beyond the choir very quickly, and that is the 
magic of this new media, is that in an exponential fashion, 
friends tell friends, and on it goes, and suddenly, the public 
is engaged in a mission they may not have heard anything about. 
And were interested, with questions that Veronica, frankly, 
said were better than she got from the mainstream media, I must 
confess.
    Now, to their credit, in Houston, they saw this, and they 
saw how potent it is, and astronaut Mike Massimino became the 
first person to tweet from space, in between space walks to fix 
the Hubble Space Telescope. Now, that is a giant leap for 
webkind.
    And speaking of Hubble, the granddaddy of all missions 
where science is also a good PR message, look what happened 
when NASA tried to cancel that mission to repair Hubble. 
Engagement led to anger, and ultimately activism, and it 
changed things.
    So, that brings me to my final point. The agency is 
dispersed geographically by centers of expertise, by geography. 
It doesn't really speak with one voice. It doesn't have a 
cohesive public relations strategy. Public affairs here in 
Washington needs to have more authority to direct these far-
flung PR operations, which kind of answer to their flowcharts 
in a balkanized fashion, and frankly, PR, public affairs here 
in Washington, needs a budget. The current budget is zero right 
now. And you get what you pay for.
    There is no doubt the mission is the message, ultimately, 
and NASA needs to be taking us places where we haven't been 
before, and that will capture the fancy of a jaded public. But 
the message is also part of the mission, and it should never be 
an afterthought.
    Thank you for inviting me.
    [The prepared statement of Mr. O'Brien follows:]
                  Prepared Statement of Miles O'Brien
    Nice of you to invite an unemployed journalist to testify--of 
course it is harder and harder to find employed journalists--especially 
on my beat.
    I have been covering space for more than 17 years now . . . I am a 
pilot and airplane owner--and come to the space beat as an enthusiastic 
supporter of all things that fly--and the adventure that is inherent in 
exploring a frontier. In fact, I spent several years trying to convince 
NASA to give me a ride to the space station--and we had a deal--that we 
would have announced a week or so after Columbia would have landed in 
February 2003.
    In all, I have covered about three dozen Shuttle missions--
including John Glenn's flight--with Walter Cronkite as my co-anchor. I 
got to ask him a lot of important questions--like would you like a 
little more cream in your coffee sir?
    Actually, when I first met him--and we were talking about how we 
would cover the mission together.
    I made the mistake of telling him he didn't need to worry about the 
details of the Shuttle--I would handle that--and all he needed to do 
was regale us with tales of the Mercury 7 days--he got very upset--and 
asked me to get him a report on every Shuttle mission--all the who what 
when where why's a hows--I asked him if he wanted that for all 94 
missions at that time . . . he said greatly surprised ``there've been 
94 missions?''
    Paraphrasing Lyndon Johnson--if we have lost Walter Cronkite--we 
have lost the rest of the Nation.
    Some of this is novelty--Lindbergh's flight was news--but when I 
flew the Atlantic in a little plane a few summers ago--no one cared. 
John Glenn's first mission was news--and certainly the intrepid crew of 
Apollo 11 was the obvious lead story for days--but I just flew in last 
night form covering the 127th shuttle launch--and who knows who is 
aboard and what they are doing up there?
    Part of the problem is NASA has served up a mission that seems 
mundane--no more interesting than watching airliners depart from 
National Airport. And in fact, the Shuttle was sold to Congress with 
the promise it would make space travel as cheap and easy as airline 
travel--and as if to make it all seem real (even though it wasn't)--the 
Agency went out of its way to make it look ho hum--before Challenger.
    But there is another factor at work here. Apollo is NASA's greatest 
accomplishment to be sure--but it is also its biggest curse. It was, 
after all, a story that sold itself--and in fact the media frenzy was 
so great in those heady moon race years that the Agency had to build 
some walls and moats--and hire PR people who were more like the palace 
guard.
    A lot of that remains in place--and that is aided and abetted by 
the astronauts--who live in that palace and only open the doors and let 
us in for brief audiences--usually on their own limited terms. The sad 
irony is these people are some of the most amazing people I have met--
and if they would just get out of the palace--or let the public in a 
little more--they would sell the program better than any piece of 
hardware they might be latching onto the space station.
    Which leads me to the guys and gals who make the hardware--the 
engineers--god love them--they make the magic happen--but they just 
don't get the communication thing. The public affairs mission is simply 
not a priority. Matter of fact it isn't even on the list of 
requirements. Forty years ago, they were fighting to keep cameras off 
the Apollo spacecraft--after they simply add weight--and do nothing for 
their mission requirements. Imagine if that thinking had prevailed . . 
..
    Well it may not have prevailed--but the debate is still alive and 
well as they design the Orion capsule.
    Public affairs should always be a mission requirement--and a high 
priority requirement. The TV cameras are worth their weight in gold 
because they let the public participate in the exploration. And let's 
not forget who pays the bills. Leave the public behind and there won't 
be any missions--much less requirements.
    Which brings me to some of the places where NASA goes a good job 
engaging the public--think of those little Rovers Spirit and 
Opportunity--still on Mars making the energizer bunny look like a 
piker. This is an a example when the scientists and the engineers do 
not have some natural common ground. The images from other worlds--feed 
the scientists--as well as the public interest.
    This all started with Pathfinder years ago--the first big ``web-
aganza''--if you will--average people could see the images at the same 
time as the Martians at the Jet Propulsion Lab. Peeking over the 
scientists shoulders as they explore! What heady stuff! Talk about 
engaging!
    That trend has continued--Phoenix became the first spacecraft to 
tweet--and quickly became one of the first twitter sensations--my 
former colleague Veronica McGregror at JPL got the idea from her kids--
of course--as a way to let people know about the landing on a Memorial 
Day Sunday--she got a tiger by the tail--and went viral--with many tens 
of thousands of followers as fast as a speeding spacecraft--there were 
tons of very detailed questions from the space geeks--but soon it 
broadened--as the choir started telling their friends. The public was 
engaged--exponentially.
    To their credit--in Houston they saw this how potent--and astronaut 
Mike Massimino became the first person to tweet from space in between 
space walks to fix the Hubble Space Telescope. A giant leap for web-
kind.
    And speaking of Hubble--the granddaddy of all missions where the 
science--is the best PR message--and look what happened when NASA tried 
to cancel that final repair mission--engagement led to anger and 
ultimately activism.
    Which brings me to my final point--the Agency, dispersed 
geographically as well by centers of expertise and excellence--does not 
speak with one voice as it should. Public Affairs here in Washington 
needs more authority to direct the far flung PR operations--and frankly 
they need a budget--which currently is 0. You do get what you pay for.
    There is no doubt the mission is the message--and NASA needs to be 
taking us places where we have not been before to capture the fancy of 
a jaded public.
    But the message is also part of the mission--it should never be an 
afterthought.

                               Discussion

             Improving NASA's Communication With the Public

    Chairwoman Giffords. Thank you, Mr. O'Brien.
    At this point, we are going to begin our first round of 
questions, and the chair will recognize herself for five 
minutes. I will keep my question, actually, down to one, 
because we have several representatives of the majority that 
represent NASA centers, so let me be brief.
    It was not by coincidence that we had our first two 
panelists talk about the how and the why, why this is such an 
important aspect of who we are as Americans, and who we are, in 
terms of policy-makers and people that really care about our 
national interests.
    The second part of our panel, we heard about the how do we 
attempt, how do we do a good job, or hopefully do a good job at 
getting that message out to the American people.
    So, my question is, in terms of Members of Congress, 
specifically, what are the things that we can and should be 
doing, besides someone like myself, a single Member, who was 
going into the cloakroom a few hours ago, and saw the Tyra 
Banks show on television, switched it to the NASA station, to 
make sure that my fellow Members could watch the coverage of 
the fortieth anniversary, instead of watching the Tyra Banks 
show while we were in between votes, and also, the White House.
    What are the steps that the White House could be doing? We 
talked a little bit about that, but in terms of really making 
this relevant to the American people? And General Lyles, let us 
start with you.
    General Lyles. Madam Chairwoman, let me, I am glad you 
asked that specific question. I would like to sort of piggyback 
off of Miles' comments and also Debbie's.
    One of the major things I think the Congress could do 
almost immediately is to make sure that the civil space 
agencies, and particularly, NASA, understand that 
communication, that PR, that public affairs, that marketing are 
okay, that to some extent, they are a form of communication. 
They are certainly a form of education, and both of those, to 
me, are seeds for inspiration.
    Let me give you the context of why I say that. I serve on 
the NASA Advisory Council, and for the last two or three years, 
the Advisory Council, at different times, in conversation with 
the NASA Administrator, almost begged the Administrator and the 
Agency to find ways they can better get the word out about 
everything that NASA does. And the immediate response was 
Congress has told me I can't do that.
    There is language, probably appropriation language, that 
precludes NASA from spending any money on anything that looks 
like marketing. I take a broad definition of the word 
marketing, because to me, it does equate to communication and 
education, and all the things that Debbie and Miles were 
talking about. I think one immediate thing is to look to see if 
there are restrictive language, even if it is a perception of 
restrictive language, that precludes NASA from doing the kind 
of things that Miles so expertly pointed out, I think that 
would be very, very helpful.
    Chairwoman Giffords. Thank you. Ms. Smith, please.
    Ms. Smith. I definitely think that the public affairs and 
the messaging is extremely important. I think, having been in a 
government agency myself, I think that one of the things that 
agencies often are conflicted about is, especially those that 
are regulators, such as FAA, the conflict exists about how can 
I carry out that message? Is it possible to carry out that 
message, and at the same time, promote and encourage the 
industry that I am responsible for?
    My old office, the Office of Commercial Space 
Transportation, I would say, did an excellent job in drawing 
the bright line between safety and promotion, but recognizing 
that in order for us to foster the further growth and 
development of our industries, we have to promote them, and 
there is nothing wrong with the government doing that, as long 
as it understands what its principal mission is, and in our 
case, it was to protect the uninvolved public.
    I also think that, in terms of what Congress can do, one of 
the challenges that I faced in that role was talking to Members 
of Congress and their staffs, who very straightforwardly and 
honestly said, you know, this is not necessarily a bread and 
butter issue for me. I don't hear from my constituents on it in 
the same way.
    I think that Congress has an obligation to make that 
message come alive, and to recognize that if it affects the 
economy and the national security of our nation, then yes, it 
is a bread and butter issue.
    So, what are the ways to bring it right down front for the 
constituent? And I think, looking at where we are right now in 
the world of space and the United States, we really are at a 
crossroads, I think. The need for a real clarion call that 
takes us forward into the future, and we all have a role to 
play in that. Congress has a role. The executive branch has a 
role. We, as citizens, have a role, and those who are business 
people in the industry, to carry that message forward.
    So, I think, first and foremost, making it a bread and 
butter issue. It is. It affects you in your daily lives. It is 
a part of our national economy and national security. Carrying 
that message forward in a more prominent way, I think will go a 
long way to engage those constituents who are very, very 
interested in this, but may not know just how to bring it 
forward.
    Chairwoman Giffords. Okay. Ms. Smith, I am going to end 
with you. I would like to hear from the other panelists, but I 
really want to get to the other Members here. So, maybe if you 
have particular points, you can weave them into your answers to 
their questions.
    Congressman Olson.

       How Should NASA Communicate Its Contributions to Society?

    Mr. Olson. Well, thank you, Madam Chairwoman. I will kind 
of follow up. We didn't plan this before, but I also, I would 
like to ask Ms. Myers and Mr. O'Brien for the first question, 
and if we have time, General Lyles and Ms. Smith, but it is 
right along that same line of communication.
    How do we communicate how beneficial NASA has been to our 
society, from a technological, from a national security 
perspective, and from an inspirational perspective? And you all 
talked about what Congress and the government can do, but one 
thing I find when I meet with constituent groups, we just had a 
group up here yesterday, from all the NASA centers, you know, 
some employees. And they all ask what could I do? What can I do 
to help you, or to help make sure that the American public 
understands how important this is for our future?
    Ms. Myers and Mr. O'Brien, I would like to give you the 
first crack at that. What can we tell our constituents? What 
could they do to make a difference?
    Ms. Myers. I think part of it, sorry, part of this is 
really underscoring the importance of matching up national 
agencies with private businesses, private sectors, so that we 
can figure out together how do we tell these great stories? So, 
it is putting those partnerships together, and encouraging 
those partnerships to happen, so that we can help work with 
people to understand what the stories are about, and how best 
to share that with the public.
    Depending on the goals, depending on the type of stories, 
it is hero stories. It is talking about people who go into 
space, and the dangers that are there. That makes them stronger 
and braver as heroes. It is trying to find the way to make it 
relevant into people's lives. It is, when you have all this 
great information, it is that partnership with the people and 
the companies and the agencies and the journalists, and the 
talent that can help bring that to life.
    Another part is to find great science communicators. We 
have started an experiment called Talent School, where we have 
gone out, and we have worked with different agencies in space 
and science, and we have found people that are really smart, 
they have the twinkle in the eye. They have a great stage 
presence about them. But how do we take what they do, and teach 
them how to connect with viewers at home, and teach them how to 
put that language into ways that resonate with everyday people, 
so everyday people care about it? So, I think it is inspiring 
people, inspiring people to work together with companies and 
with broadcasters and with journalists that can help tell their 
story in the best way possible, because they are great stories.
    Mr. Olson. Mr. O'Brien.
    Mr. O'Brien. You know, I think the irony is, at 40 years 
after the launch of Apollo 11, NASA suffers from a bit of 
timidity when it comes to unleashing the message.
    Now, they have a natural legion of foot soldiers, 
evangelizers. Everybody I meet who is involved in space is 
deeply passionate about what they do, love what they do. They 
are committed to their jobs in ways most people are not. And 
unfortunately, if they attempt to blog about it or tweet about 
it, they get shut down. This happens all the time, because the 
concern is that they will be off message.
    It is important to empower the Agency, and thus, its foot 
soldiers, to know that they can be a part of this. If a flight 
controller wants to tweet and let her social network in on what 
is going on inside mission control, assuming we are not, you 
know, in some sort of mission-critical situation that would 
cause danger to somebody, why not empower her to do that? But 
instead, the message is you can't.
    So, I think what Congress can do is, to the extent that 
they can streamline the rules for NASA and make it easier for 
them to do marketing, but also, to the extent that they can 
avoid the tendency to get on the phone every time something 
comes across the bow, that might offend somebody and somebody's 
constituency, because what that does is it cows the Agency. And 
they need to be empowered, too, because if you unleashed the 
power of that workforce, and allowed them to spread the word, 
we could just stand by and watch them win the country over.
    Mr. Olson. Just a little food for thought, based on the 
comments earlier, about how NASA could market itself. I had one 
of the constituents yesterday, it is not legal for the 
government, but a very interesting idea, what if we put a 
little NASA sticker on every product that was influenced, or 
had some benefit coming from space.
    You would look around this room. Every piece of electronic 
gear would have a little NASA sticker on it, and somehow, we 
need to communicate that to the general public.
    And I appreciate your time.
    Chairwoman Giffords. Thank you, Congressman Olson. Next, we 
are going to hear from Parker Griffith, who represents Marshall 
Space Center.
    Mr. Griffith. The comments are interesting. You know, the 
day after the revolution, the revolutionaries become the 
establishment, and I appreciate Mr. O'Brien's comments. And I 
think we are suffering from that right now in our space 
program.
    I am from Huntsville, Alabama. Took care of many of the 
space scientists that came in from Germany, so we have a real 
dedication there. Mr. Hendricks, we are grateful to him, in no 
uncertain terms.
    In the '60s, you could cut the tension in America with a 
knife. I see the young people here. We were not allowed to wear 
Army uniforms on the street. We would get stoned or spit on. 
The society was in turmoil. We were coming loose at the 
fringes. The Yale, Berkeley, Harvard campuses were in revolt. 
Kent State was in turmoil. We had blood in the streets, and 
yet, we stayed committed to a space program through the death 
of John Kennedy. 1968, we lost Robert Kennedy. 1968, we lost 
Martin Luther King. Our society was questioning itself, but we 
stayed with the commitment to space.
    We are seeing a challenge today on our space program. We 
must remain strong. Ares I, Ares V, is not an option. It is 
essential to the United States. We represent six percent of the 
world's population. In order for us to maintain our 
superiority, in order for us to maintain what we know we can 
achieve, space is absolutely essential. It is the high ground 
scientifically, whether we want to know what is in the Van 
Allen fields, or it is essential for us to maintain our 
military superiority.
    I certainly agree and appreciate the panel. You can tell I 
am fascinated and dedicated to space. I am an oncologist by 
training. What has happened in space has allowed our CT scans, 
our MRIs, the miniaturization of our instruments. The 
development of drugs in space is our next frontier. We have to 
do this. It is no longer an option. So when we hear it 
discussed as can we afford it, yes, we have to afford it.
    So, thank you for being here. I really appreciate it. I 
have one question for Mr. O'Brien. You said on a blog that you 
were tired of hearing that we cannot sustain our space program 
during hard times. The truth is that $18 billion, NASA gets a 
fraction of 1 percent of the U.S. budget. Chump change, I used 
to tell people, it is about what we spend collectively on 
coffee each year. I appreciate you, by the way. Stay with it.
    Mr. O'Brien. Yeah. Thanks.
    Mr. Griffith. In your opinion, what should we be doing to 
let taxpayers know that the return on investment from our 
investment in space is absolutely huge? We have to market this.
    Mr. O'Brien. So, maybe we should put the meatball in that 
Starbuck's latte. What do you think?
    Mr. Griffith. Absolutely.
    Mr. O'Brien. What, we get Starbuck's, but no bucks for the 
stars? You know, something like that. I don't know. I think 
that the more we remind people of what we spend, and really, in 
the context of all that has transpired in this country in 
recent months, when you consider the size of these bailouts, 
the NASA budget just seems so tiny. It really does, and 
shouldn't NASA get a bailout, too? And it doesn't need much to 
keep going. It really doesn't.
    And you know, it is, in a sense, it is a testament to the 
success, and the fact that there is a natural interest in this, 
that people assume we spend all this money on space and on 
NASA. It gets tremendous bang for its buck, and it is very 
difficult to quantify its value to our society, in the way it 
inspires our children, in the way it provides high tech jobs, 
in the way it ensures national prestige.
    Look, India would love to have a manned space program. Per 
capita annual income in India, about $800. Now, if Calcutta can 
afford it, can't Cleveland? And what is it that they are 
learning that we have forgotten?
    Mr. Griffith. One last comment, Madam Chair. Thank you for 
allowing me to comment. The great danger here is that we are 
going to be sitting in our living rooms with our feet propped 
up, having our gin and tonic, and the NASA touchdown, or the 
space touchdown on the Moon are going to be two Chinese. And I 
think the line is drawn. The challenge is there. It is another 
1957 Sputnik moment, and we have to meet that challenge.
    Thank you, Madam Chair.
    Chairwoman Giffords. Thank you, Mr. Griffith. Now, we are 
going to hear from Congresswoman Kosmas, who represents KSC.

            Communicating the Value of the ISS to the Public

    Ms. Kosmas. Thank you, Madam Chairman, and I appreciate 
everyone who is here today. Kennedy Space Center is in my 
district, and I have become a very vocal and outspoken 
cheerleader for space.
    As I tell my constituents, I live about thirty miles up the 
river from Kennedy Space Center, and I have seen the Shuttle 
launches from every imaginable place, whether it is a rooftop 
or a boat, or the top of a car. We have seen, the beach, 
anywhere you can imagine seeing one, we have seen them. But 
since being elected to Congress, I have had the pleasure of 
having a little greater view, and I want to say that I have 
been preaching in my district very much the same kinds of 
things that you all are talking about today, that we are 
missing an opportunity to ensure that the next generation is 
inspired by what we do in space, and that they understand the 
significance of it.
    And so, I am, again, I am part of the choir that you are 
preaching to, and now, I am preaching back to you. But at the 
same time, I think it is important that we do put a focus on 
how important this is to our lives and to our national 
security. I liked your comment, General Lyles, that 
communication and education are seeds for inspiration. I think 
that is a really good quote to use.
    I also appreciate what the Space Foundation does, and I 
love the TV. What I had envisioned at some point, was that 
someone would do a commercial like what you were talking about, 
and literally take it from an average person's life today, and 
withdraw, one by one, it is kind of the counter to putting a 
sticker on something, is to say take away, one by one, all of 
those developments that have been created as a result of our 
interest in science and technology that began with our space 
exploration, and see what is left. Because I think the next 
generation would be shocked to know how sparse many things 
would be, many arenas would be.
    So, that is just my one, two cents worth. I have been 
working very hard, as I have said, within my district, to 
ensure that the people there are working in the school systems, 
that we are advancing the STEM programs, and that we are doing 
all of those possible opportunities of bringing astronauts into 
the schools and everything, to do this. We also, the Chairwoman 
and I, have taken a CODEL, of our Congressional delegation, of 
our fellow Congresspeople, to Kennedy Space Center, to see a 
launch. Unfortunately, it was scrubbed, but we had a really 
good opportunity to tour the Space Center, and for others to, 
in this body, who provides the opportunity for NASA to do what 
it needs to do for them to get a firsthand feel for how 
exciting it is, how challenging it is, and how inspirational it 
is.
    So, I have anointed himself as the cheerleader within 
Congress, along with the Chairwoman, to make sure that we bring 
along our colleagues, in order to see the importance of it.
    I had one question. Again, I really appreciate all the 
comments here, but this is for Mr. O'Brien, and it has, it 
references a comment that you made also on a blog. In the time 
period when the Shuttle retires and the Orion, the time between 
those two things, known as the gap, the only symbol of U.S. 
human space flight will be the International Space Station. And 
in May 2009, you did a blog about human space flight and the 
Hubble, and you said: ``Sadly, most Americans do not fully 
appreciate the amazing accomplishment that the International 
Space Station is. They overlook its incremental role in pushing 
out the frontier, and they see it more like a big public works 
project.''
    And I think, you know, we have talked a lot about the 
Shuttles and the launches, but we haven't talked a great deal 
about the International Space Station, the investment that the 
United States has made in that fabulous frontier.
    Could you suggest to me some ways in which you think we 
might be able to advance the recognition of how significant 
that is?
    Mr. O'Brien. Aside from sending me there?
    Ms. Kosmas. I want to go too.
    Mr. O'Brien. Let us go together.
    Ms. Kosmas. Okay.
    Mr. O'Brien. That would be a great story.
    Ms. Kosmas. You are on.
    Mr. O'Brien. I, you know, I think we don't know the story 
of the Space Station yet, because it just finally got a six 
person crew. Imagine that. There are going to be 13 people on 
that Space Station for the next couple of weeks. The toilets 
better keep working, I will tell you that, right.
    It is very exciting, after all these years. You know, I 
remember looking at the sketches for Freedom in the mid-'80s, 
and to finally see it looking like those sketches is very 
exciting to me. Why that hasn't resonated with the public, you 
know, it is, you know, who likes to watch buildings being 
built? You know, six year old kids, right? It is a lot like 
that. It has been very slow, incremental process, an amazing 
engineering challenge, which in many respects, some would argue 
exceeds on an engineering level what was accomplished in 
Apollo. It is an amazing thing, but it is still only 250 miles 
above us, and it is difficult, and it requires a little bit of 
nuance to explain to people why that is important, when you are 
talking about looking at new horizons, new worlds, and 
exploring the solar system. But it is all part of the picture.
    I don't think that message has come through very clearly. 
That could be some of the media's fault. That could be a little 
bit of NASA's fault. It could be that the public is kind of 
jaded. You know, some of this is, they go to see a movie, they 
go to see Star Trek, and they expect NASA to have warp drive, 
you know, or you know, they still think there is an antigravity 
room at the Johnson Space Center. So, in some respects, 
Hollywood has been a terrible foe of the reality, because it 
pales by comparison. The real thing is awfully darn hard. But 
that is what Kennedy challenged us to do in September of '62 at 
Rice University. Do it because it is hard.
    Ms. Kosmas. Well, thank you very much for that answer. Do I 
have any time left?
    Chairwoman Giffords. Yeah, Ms. Myers, would you care to 
comment?

                Modernizing Public Relations on the ISS

    Ms. Kosmas. Ms. Myers, would you like to comment?
    Ms. Myers. Just want to add on top of that, too. Now, if 
you can get us to be able to capture the stories on that Space 
Station, of all these people living together, and hands-on, how 
they are doing their work, and see it and feel it, and it is 
real, and it is real people, real passion, real stories. It is 
like a smart version of Big Brother that is going on. So, 
again, make it relatable to people. Open it up, so that they 
can twitter and talk to us. Make it real. Make it alive. These 
are heroes. These are great stories, willing to be captured. 
Don't make it so sanitized. Bring it to life.
    Ms. Kosmas. Well, that would require overcoming the 
timidity, right?
    Ms. Myers. That is right.
    Ms. Kosmas. Okay. General Lyles.
    General Lyles. If you don't mind, just one comment about 
the Space Station. There is a great story to be told about what 
it is, but also, the story that needs to be told about what it 
could be. One of the major things at the Human Spaceflight 
Commission that Norm Augustine is trying to, is currently 
chairing, and I am a part of, is looking at is what happens 
after 2016? Currently, the budget plans for the Space Station 
run out for the United States at 2016, so the fact that the 
Space Station has been declared a formal National Laboratory, 
as a possible testbed for great science, and there are great 
science experiments that are possible up there with the 
infrastructure currently on the Space Station, if something 
isn't addressed about how to extend it beyond 2016, which 
obviously includes budgetary, then none of the possibilities 
are going to be realized.
    That is one of the things the Human Spaceflight Commission 
is going to be looking at, but it is more than a story of what 
it is. It is a story of what it could be and should be.
    Ms. Kosmas. I completely agree with you there, and I hope 
we are able to assist in extending the time period budgetarily. 
Yes, Ms. Smith.
    Ms. Smith. And I think that that also requires engaging all 
of government in this endeavor. And what I mean by that is, the 
fact that the Space Station allows experimentation, scientific 
experiments to go on, maybe this is something that NIH needs to 
be more aware of, and to identify parts of its budget that 
could be allocated to increase the number of experiments on the 
Space Station. We have got conditions that we are trying 
desperately to solve, and space provides a ready opportunity, a 
laboratory for experimentation that I know, as a public member 
of board at NIH, that work is not being exploited. The Space 
Station is an opportunity to conduct those experiments.
    Ms. Kosmas. Thank you very much. Thank you, Madam Chairman.

                         Reducing Mission Risk

    Chairwoman Giffords. Thank you. Next, we are going to hear 
from Congresswoman Edwards, who represents Goddard.
    Ms. Edwards. Thank you, Madam Chairwoman, and thanks so 
much for holding this hearing. You know that is a passion of 
mine to tell the NASA story. I spent several years at Goddard 
Space Flight Center, working on the Spacelab project, and feel 
really passionately about the story that NASA can tell.
    I think one of the challenges has always been, and I think 
part of the reason that I ended up actually at Goddard was 
because, not because I was an engineer by training initially, 
but because I was an English major, and because they needed 
people who could communicate all of the wonderful technical 
work that was being done to the rest of the world.
    And so, I am glad to have been able to share in that 
experience, and you know, having grown up, also, on the space, 
you know with the space program sort of embedded, I feel that 
passion, but I am not sure that it is a passion that is widely 
felt across the United States. And you hear that from our 
colleagues, and I think this is part of the challenge that the 
Chairwoman expressed, among our colleagues who, you know, with 
a lot of other national priorities and needs of the American 
public, often stack that against the space program, and say, 
what do we get out of it? Well, our job, NASA's job, really, is 
to share with the American public what it is that we, indeed, 
get out of the program.
    And I know, apart from my work experience at Goddard Space 
Flight Center, that what we get is we get lives that are saved 
and changed. When I was in a car accident four years ago, but 
for NASA's airbags in my car, I don't know that I would be 
sitting here today. And I think that we have to tell that story 
in a real way to the American public, and so, I share the 
passion that each of you has expressed in very different kinds 
of ways, want to acknowledge Discovery Communications. I know 
that half of the building is in the Fourth Congressional 
District in Maryland, of Discovery Communications. That is an 
interesting block.
    But I want to say also, and just ask you to respond to it, 
is that we have the challenge at NASA, of exploration and 
science and risk-taking, and I would like you to focus on that 
risk-taking, because that requires a lot of investment, and 
sometimes, it works, and sometimes, it doesn't. It is the 
nature of exploration and science. And we tend to, in the 
public, we can highlight the failures when it doesn't work, and 
not how we build on that in science, because we build toward 
the next success.
    And I would like you to share with us ways in which you 
think that NASA can even communicate some of those failures in 
the most positive way, for the public to understand why the 
investment is needed, and sometimes, why it works and it 
doesn't work. Ms. Smith.
    Ms. Smith. Yes. Share the risk, is what I would say. We 
have an entrepreneurial new space community that is galvanized 
to be a part of the future of space. NASA has an excellent 
example of how it has approached it in its COTS program, where 
the risk is shared, because if the company, if the private 
company, does not meet its goals, it doesn't get paid.
    I don't think that the government needs to take on all of 
the risk when it has such a willing partner. What would happen 
if low-earth orbit were turned over to the entrepreneurial 
community, to the new space community, and NASA could get on 
with its exploration mission? That is a current question, a 
question in need of an answer, but also, in a way that 
galvanizes the entrepreneurial spirit, which has been so much a 
part of our nation, in a real way, in a beneficial way.
    Share the risk.

                 Improving Communication to the Public

    Ms. Edwards. Ms. Myers, I wonder if you could comment on 
that, in terms of the way we communicate with the public?
    Ms. Myers. I think people can relate to, you learn more in 
failure sometimes than you learn in success, and that science 
is a journey, and exploring and growing is a journey. And I 
keep bringing everything back to how do you make it relatable, 
how do you tell these great stories that go on? And I think it 
is the honesty of there are big goals that people are out to 
do, and that NASA is out to accomplish, and it is sharing those 
stories, so that when it fails, you explain it. You see people 
go through okay, we are excited. We think this is all going to 
happen, and when it fails, you tell those stories. What did you 
learn from that failure that can push that out?
    It is getting people invested in their minds, in ways that 
they can relate to, and in their hearts, so that these become 
something that you feel invested in. And I think if you go back 
to the space program in the '60s, we were all rooting along. We 
are all invested in there. These were our heroes. And how do we 
make those stories, how do we make those risks relatable and 
connect to it, and I think that is part of it? A different spin 
journalistically, than to capture people's imagination and take 
them along for the ride. The successes as well as the failures, 
what did you learn from it? Because science is about questions, 
and when you have those questions that are out there, you get 
the answers. That leads to more questions. And if you don't 
keep experimenting, you don't move it forward.
    Ms. Edwards. Well, thank you very much, and Madam 
Chairwoman, my time has expired.
    Chairwoman Giffords. Mr. Rohrabacher, would you like to go 
now, or would you like to wait until after Mr. Wilson?
    Mr. Rohrabacher. I can hold on for a few minutes.
    Chairwoman Giffords. Okay. We will go to Mr. Wilson. Mr. 
Wilson.

                  Examining NASA Promotion Techniques

    Mr. Wilson. Thank you.
    Mine is not so much a question as one that, I live in Ohio. 
Unfortunately, I don't have a NASA center in my district, but 
we certainly do have NASA Glenn in Ohio, and I was just amazed 
when I was elected, and actually started learning more about 
NASA Glenn and what really happens. The amount of jobs that 
have been generated throughout our state, the amount of 
research, and the very things that I just sort of took for 
granted, as a lifelong Ohio resident, that those were not, I 
didn't know they were connected. And I think that was talked 
about earlier.
    And so, mine is a question of, one of the gentlemen said he 
thought it would be a good idea that everything that was 
generated from NASA research would have a little NASA sticker 
on it. That is the best idea I have heard in a long time. And I 
think it is very good.
    I like the idea, because really, so many times, even those 
of us who live in Ohio, and have been around NASA Glenn all of 
our lives, don't realize the intensity in our lives that has 
gone on there. So, how do we do a better identification, or a 
better education, if you will?
    General Lyles. Congressman, I am going to be a little bit 
parochial myself, since I commanded Air Force Materiel Command 
at Wright-Patterson Air Force Base in Dayton, Ohio. I had the 
same problem in the United States Air Force, with all the 
technology programs we were involved in, and particularly, I 
would use Ohio as an example. We never did a good job of 
communicating, communicating to the public and the state that 
you had Glenn Research Center, you had Wright-Patterson Air 
Force Base, the center of all technology for the United States 
Air Force, but nobody ever talked about it.
    And it was sort of self-imposed. We don't, we did not have 
great communicators who could tell the story for us, people 
like Debbie. And where we did have communicators, we didn't do 
a good job of educating them on the facts, so they could get 
the story out, and utilizing their great communicative skills.
    To me, I have always used one three word term for great 
management. It is communicate, communicate, communicate. And 
somehow, if we could take that seriously, and do a better job 
of bringing all of the right people to get the word out, I 
think we can do a far better job in Ohio and the other 49 
states, and even the world, for that matter.
    Mr. Wilson. You know, I attended the fifty year celebration 
last fall, and it was held in Cleveland, and it was amazing the 
amount of people, and certainly, the astronauts that have come, 
the heroes that have come from Ohio, but yet, it doesn't all 
connect. And I think that communicate, communicate, communicate 
is a big part of where we need to be.
    Thank you, Madam Chairwoman.
    Chairwoman Giffords. Thank you, Mr. Wilson. Excuse me, Mr. 
Rohrabacher.

       Will the Private Sector Play a Greater Role in the Future?

    Mr. Rohrabacher. Thank you very much. I apologize for being 
late, and we run from one thing to another here on Capitol 
Hill. And General Lyles, nice to see you again, and we have 
followed each others career for so long now, and I congratulate 
you for all the wonderful things you have done, and the rest of 
the panel as well, in terms of space.
    Let me, however, put a little bit of a different twist on 
communicate, communicate. I think, I see, when I was a young 
reporter, one of the first stories I covered as a younger 
reporter was when Senator, I even forget his name now. He was, 
it will come to me. In California, and he was only one term, so 
I don't need to remember him, but he was endorsing the Space 
Shuttle, and anyway, when I went there, there was only a couple 
reporters who showed up, and it was there in Downey, where they 
had the markup of the Space Shuttle. And when I went in, there 
were five PR men there ready to meet my every need. Would you 
like a cup of coffee? How about some tea? Would you like a 
sandwich? How about this big packet of information? Pictures? 
Would you like to get a picture here? Five of them. I was 
making $100 a week, and I think they were making $500 a week 
each.
    I think NASA has a lot of money that it spends on 
promotion. It does. I mean, even to this day, I will look at 
the NASA Channel. There is a lot of promotion going on. I think 
where we are weak is not communicating. I think where we are 
weak is not focusing on specific things that we can do in 
space, and we can show specifically how they impact on the 
lives of our people. And there is such an array now of things 
that we depend upon from space. Space-based assets, I used to 
only be able to call my grandparents when I was a kid, like 
once a month at most, and it was a $5 call, you could barely 
hear it. You had to go through operators who hated you for 
bothering them, and because of our space-based assets, that 
call, that was $5 in those days, and in this day's money, it 
would be like $25. And we brought down the calls where people 
can call up their loved ones and communicate. Space-based 
assets.
    And we could go through the whole thing now, where space-
based assets have made such a significant change in our lives, 
I don't believe the American people understand that. It is not 
necessarily communicate, communicate, but looking specifically 
at what things that have changed lots, not some guy, where they 
see the guy taking a space walk, and we get all sorts of 
pictures of the guy taking the space walk, and it looks like 
fun, but how are our lives changed? How will our lives change 
in the future?
    I was just, I have this question for General Lyles. Do you 
see, first of all, I see the private sector playing a much 
greater role now than what it did in the past, and do you see 
the commercial space in, efforts will actually play a greater 
role as well in the future of this trend, toward having 
commercial enterprises, rather than just government-run 
enterprises in space?
    General Lyles. Congressman Rohrabacher, it is great to see 
you again, and the answer is absolutely. One of the 
recommendations, key recommendations of our National Research 
Council study was the need to look at the infrastructure and 
strategies on how people are involved in the space activities.
    And it wasn't so much to imply that there shouldn't be 
leadership and expertise at the NASA centers, but the NASA 
centers need to figure out a way they can open up the aperture, 
if you will, to allow commercial entities, academia, and others 
to sit at the table, and to provide solutions to help solve the 
problems.
    Today, the perception is, everything is NASA-centric. That 
may or may not be true, but commercial entities, and certainly 
academia feel they have been left out, in some cases, as our 
report points out, and we think just changing the way you 
approach business and the way you approach allowing people to 
work the solution will go a look way towards achieving that 
goal.

              What Should NASA Do Regarding Space Debris?

    Mr. Rohrabacher. We are not talking about major new 
expenditures. We are talking about making sure we open up the 
way we do business, so that people who, on the outside of the 
circle, can now get involved, and they are already involved in 
some ways, but expanding that.
    One other question about this. To get the, to utilize space 
and the potential of space, we are facing a huge roadblock that 
nobody seems to want to face, and that is space debris. And I 
personally, of course, have focused a lot of my activity in 
this committee on near-Earth objects which are coming down and 
space debris.
    I would just ask to the committee in general. Shouldn't we 
be focusing on that effort, to clear that space debris, so that 
we will open up new opportunities, without having to worry 
about a bolt coming through somebody's new space station, or 
space project?
    General Lyles. Well, my answer is, I think there is 
attention, greater attention now to that particular problem. 
And something I think, again, our report points on, there is a 
need for greater integration and coordination amongst the 
different agencies, particularly the civil space agencies and 
DOD, on how you address common problems.
    And one common problem is what do you do about space 
debris? It is sort of a global commons, if you will. There is 
international interest in this. This is an opportunity to bring 
a lot of different players to the table.
    Mr. Rohrabacher. It certainly is. Yeah.
    General Lyles. Commercial, international partnership, et 
cetera. I think it is sort of a ripe sort of example for people 
to tackle as an enterprise.
    Mr. Rohrabacher. That is exactly right, general. We can 
bring people like the Russians and other people in, and the 
Europeans. We can make this an international effort that would 
clean up the skies, so that we can use those heavens.
    Anyway, thank you very much, Madam Chairman.
    Chairwoman Giffords. Thank you, Mr. Rohrabacher. And 
remember, we had a pretty interesting hearing on space debris 
about two months ago, and hopefully, we will follow up with 
that as well.
    Mr. Grayson, please.

                   Viable Space-based Business Models

    Mr. Grayson. Thank you.
    Interesting movie in the theaters right now called Moon. I 
don't know if any of you have seen it. The premise of the movie 
is that there is a manufacturing operation on the Moon that 
mines helium-3 and sends it back to Earth for use in fusion 
reactors on the Earth.
    I am not going to ask you for a movie review, but it does 
raise an interesting thought, which is what are the 
possibilities for actually using space for economic purposes? 
At this point, historically, we only have one successful model 
in that regard, and that is satellites. Satellites are a viable 
business that provide economic benefit that exceed their costs, 
and therefore, has functioned as a business over the past 
couple of decades.
    We are starting to see the beginnings of a second business 
like that, like tourism, space tourism. And over the course of 
the next decade, we will see how that pans out, but it looks 
like there is the possibility that we will be able to, again, 
provide goods and services that exceed the costs of production, 
and therefore, have a viable business model.
    What I would like to know from all of you, in my three 
minutes and 53 seconds remaining, is what other potential 
models do you see in the future? What models can be viable 
economic uses of space in the next 20 years, or even the next 
50 years?
    Let us start with you, Ms. Smith.
    Ms. Smith. Certainly, there are companies that are looking 
at other uses of space for business purposes. One such company, 
Virgin Galactic, I am consulting with them. And while their 
core business will continue to be space tourism, they are 
looking at non-space tourist markets, solar energy, atmospheric 
testing, using the White Knight captive carrier vehicle, which 
has the capacity and the ability to provide itself as a testbed 
for other kinds of testing, as a business. Bigelow Aerospace, 
with its space habitats, has already offered a number of 
business opportunities to other countries who want to do 
astronaut training on platforms, when our Space Station is not 
available, other parts of the world might look at that as a 
business opportunity.
    So, I think that people who are in this for the long haul, 
and many of the companies that I have worked with in the past 
and continue to are, are looking at playing it full out, all 
the way out, exploiting all of the opportunities that exist in 
space for business purposes, but also, to benefit mankind.
    Mr. Grayson. Well, some of the other opportunities that 
have come up over the years, but haven't reached fruition yet 
are other forms of energy production. We have heard of that.
    Ms. Smith. Yes, solar energy.
    Mr. Grayson. Zero gravity high precision manufacturing. 
That is one that has come up from time to time. Occasionally, 
biotechnology applications. I want to know what you think are 
the cutting edge, the ones that are most likely to come to 
fruition. What about you, Ms. Myers?
    Ms. Myers. Would like to do a little bit more research on 
that, and get back to you on it.
    Mr. Grayson. Okay. General?
    General Lyles. Congressman, I, you are talking mostly about 
commerce and business in space, and utilizing space. I have 
also always wanted to focus on commerce as a result of space 
technologies.
    The best example of that, of course, is GPS. Nobody could 
have envisioned when the GPS program was started by the Air 
Force, where it would lead, in terms of all the services. And I 
think, when you look at the technologies that will come out 
from energy perspective, with the electric propulsion for 
satellites, advanced materials even greater than the ones we 
have today, lighter, more durable, et cetera, those 
technologies generated as a result of space activities, I 
think, will change the way we do things around the world in so 
many different ways.
    It is commerce as a result of space, not in space, but to 
me, that is just as viable and just as valuable.

             Streamlining Viable Aerospace Business Models

    Mr. Grayson. All right. So, it seems like we have a number 
of different alternatives here. They are all possibilities. 
What do you think that we can do to try to see that those are 
more likely to come to fruition? In other words, how do we make 
the future come faster? And Mr. O'Brien, I haven't picked on 
you yet.
    Mr. O'Brien. Well, see, I am a big believer that the area 
we should be looking at is space-based solar power. I think 
that is, when you start looking at the numbers, and you start 
comparing it to say, building another nuclear plant on the 
ground. It is not that far off, and one way that you could get 
that going is, there are certain applications, specifically at 
the Pentagon, for example, where there is a need to get remote 
power to remote installations, and in order to keep an 
encampment in a hostile part of the world going, can be very 
expensive and very risky, as you convoy in fuel and whatever 
you need.
    Wouldn't it be nice if the government, perhaps, started 
looking at some, maybe some seed money to think about small, 
space-based solar power applications that could take care of 
forward bases for the Pentagon? They certainly have a lot of 
money, right?
    Mr. Grayson. Well, it is a very interesting subject, but my 
time is up. Thank you, Madam Chairman.

                     Improving Outreach to Children

    Chairwoman Giffords. Thank you, Mr. Grayson. When I think 
about how we make NASA and space more relevant to Americans. It 
is really making NASA relevant to all Americans, and you know, 
I mean, from my vantage point and Members of the Committee, we 
look out and we see you, but we also see the portraits of 
former Chairs of this committee.
    And if you look around and you see all of the Chairmen, 
they look surprisingly similar in many ways. And I know that, 
obviously Mike Massimino was the first astronaut to twitter 
from space, but now, we have the first astronaut twittering in 
Spanish in space, and that, of course, is Jose Hernandez. And 
you know, it is true, NASA has done a much better job 
recruiting astronauts and training astronauts that don't, 
aren't all the same type of American. But I am not convinced 
that we are doing a good enough job reaching out to a more 
diverse audience of kids.
    And I was just hoping the panelists could talk about ways 
that we could do that, either from an educational standpoint, 
or a marketing standpoint, or what NASA is able to do. Ms. 
Myers.
    Ms. Myers. This is a subject I am very passionate about. It 
is making, reaching out to kids in school, reaching out to make 
it come to life, reaching out to empower kids that it is cool 
to be smart. Because for so many years, the smart kids didn't 
feel empowered to be smart, especially in the inner cities. So, 
that was why we turned to a Will Smith, who is a role model, 
and said you are smart. You did it. You grew up in 
Philadelphia. Be a role model, and inspire kids that, to get 
excited about science, space, innovation, capture their 
imagination, and to make it something proud to be involved in.
    And to empower teachers, to give them the tools that they 
need, because kids learn differently. They learn as individuals 
in different ways, and it is a new generation that grows up 
with video games and twittering, and on the net, and they watch 
TV differently than any generation. So, empowering those 
teachers with the tools to be able to capture kids' 
imagination.
    And I think we all have to do a better job of getting kids 
excited about what careers exist. Because we don't tell the 
stories of the people, and what lights them up, and what gets 
them excited about their jobs. And when you talk to people in 
the space program, and you have a conversation of why did you 
get into this, or tell me what you really get excited about at 
the end of the day, or what are you working on, they become 
childlike, and it is contagious.
    We have to do a better job of getting those messages to 
kids, so that they see a bigger array of jobs to choose from, 
and we get them excited that they can change the world. And it 
is important subject.

                  Marketing Role Models to the Public

    Chairwoman Giffords. Let me just touch in on something. I 
was speaking with a woman astronaut a couple of days ago about 
how many women there are in the United States Congress, and our 
percentages are actually very similar, the women in the 
astronaut corps and the women in Congress. And while I think 
for men going into politics, there is sort of the sense of, 
well, I am the best person for the job. Of course I should get 
elected. I can't say whether or not it is the same for someone 
who goes through the rigorous aspects of what it takes to be an 
astronaut, but I know, as a woman in politics, for me, it was 
meeting another woman and seeing her do it, and realize if she 
can do it, I can do it.
    Ms. Myers. Right.
    Chairwoman Giffords. So, it wasn't so much even having the 
information. And again, I think that is a story that you will 
hear from women that intended to go into this area. So, I am 
just curious whether or not the message also should be 
different for a different audience, whether it is different 
gender or different ethnic background, whether or not those 
messages should be different, and reach out to those large 
populations we have in this country.
    Ms. Myers. It is that relatability factor. It is so 
important that we need those role models, and that we change to 
whoever we are trying to appeal to and speak to, present those 
role models and make it real, make that connection come to 
life. So absolutely.

                     Creating a Role Model: Example

    Chairwoman Giffords. Mr. O'Brien.
    Mr. O'Brien. I think NASA should really go out of its way 
to put those role models forward. I mean, I really do think it 
is important to hear from those members of the astronaut corps, 
and make sure they are front and center. That should be a very 
high priority, when it comes to any public affairs campaign.
    And just when you talk about, you know, engaging kids, you 
know. It is really important that they also have a sense of 
participatory exploration. I am on the Board of Directors of 
the Challenger Learning Centers, which I know you are all 
familiar with. My first experience there was just amazing. I 
walked in with a CNN crew in tow. This is a room full of middle 
schoolers, and usually, a room full of middle schoolers plus 
camera crew leads to havoc. And they are waving, they are 
making, they act like kids. They act like kids, you know.
    And I walked there, and they are in this mission control 
center, and we are getting the camera in their face, and they 
are like get away from me, we are trying to save the Space 
Station right now. I thought wow, this is magical. Imagine 
that. This is something that really has engaged kids, you know. 
You know, that is how kids learn. They didn't know they were 
learning. They were having a ball. And who knows how many of 
those kids, you know, I am convinced one of those kids will be 
on Mars one of these days, you know. Probably went to a 
Challenger Learning Center.
    And I was just at one recently, the Lower East Side of 
Manhattan, and it was in the midst of astronaut Scott 
Parazynski, recently summated Mount Everest, and I was part of 
that project, helping him tell his story in, you know, viral 
Web 2.0 way. I never got to leave my laundry room. He got to go 
to Everest, but in any case, I brought down, we did kind of a 
two way conversation with these kids using Skype with, you 
know, this astronaut at Everest, to a group of kids across all 
ethnic origins and socioeconomic, you name it.
    And kids are kids. They were fascinated by the whole thing, 
and there was nothing about it, I didn't detect a barrier. 
Nobody in that room said I can't do that. As a matter of fact, 
everybody was like wow, this is cool. I want to be a part of 
this. So, it really isn't rocket science, but it does take 
money, and it does take effort.
    And you know, the kind of science teaching I got, 
unfortunately, kind of turned me off, and I ended up a history 
major, and the rest is history. But who knows? Maybe if I had 
gone to a Challenger Learning Center, I would have gotten my 
ride on the Shuttle already. Who knows?

                Telling the Story of Astronaut Diversity

    Chairwoman Giffords. Thank you. General Lyles.
    General Lyles. Congresswoman, let me just echo one of the 
comments made by Miles. As I mentioned, I serve on the 
Augustine Human Spaceflight Commission, with Sally Ride and 
Leroy Chiao, an Asian American astronaut.
    We were down at Marshall Spaceflight Center a week before 
last, and just walking through some of the activities and 
facilities there, and there, on the wall of one of the 
buildings was a poster I have never seen before, and it was a 
poster that had very small pictures of all of the astronauts. 
Now, obviously, you can imagine the number of astronauts, so 
the pictures had to be very small, but it immediately jumped 
out at me how diverse we already have in our astronaut corps, 
but we don't do a good job of spreading the word, of getting 
the word out about that.
    We certainly need to do more. I absolutely believe in that, 
but let us take advantage of what we currently have, and tell 
that story. It just blew my mind away, to look at that poster 
and see the diversity that already exists in that astronaut 
corps, which could be role models to so many different kids, so 
many different inner city places, and around the world, for 
that matter.
    Chairwoman Giffords. That was absolutely correct. Mr. 
Olson.

     A New National Space Council: Advisor or Mission Coordinator?

    Mr. Olson. Thank you, Madam Chairwoman, and one question 
for you, General Lyles.
    In your report, you advocated for the creation of an entity 
like the National Space Council, to coordinate the activities 
of the various Federal Government space organizations. Do you 
envision this entity being a governing body that would 
coordinate the actions of the various space agencies, and 
direct their programs to comply with the consensus of the 
group, or would it be strictly an advisory role?
    General Lyles. Congressman, I think it is probably more on 
the lines of an advisory role. The last thing that NASA or any 
of the other civil space agencies, or even DOD, for that 
matter, DOD space need, is another bureaucratic layer in 
between their activities and what jobs they have to get done.
    What we see the need for, however, is better coordination 
and integration of the various space agencies, to look for 
those common grounds, look for those things that they need to 
work together, to leverage the resources and capabilities of 
the various agencies, and probably more than anything else, a 
common theme this afternoon, to educate each other on what they 
are working on, what they are involved in, what the challenges 
are, so we can take advantage of lessons learned and best 
practices from each of the different agencies.
    Our report specifically said that the President should 
charge two senior executives in the Administration, we 
specifically mentioned the National Security Advisor and the 
head of OSTP, to figure out the right policy and process. We 
stopped short, because the Academy does not like to tell the 
country, tell the government how to do business and organize, 
we stopped short of saying National Space Council, but that is 
sort of the role model, or the model that we thought would be 
appropriate. There needs to be a process, needs to be an 
institutionalized sort of organization to make that happen.

                       Inspiring America's Youth

    Mr. Olson. Thank you for that answer. And I would like to 
just make one closing comment, sort of follow up on everything 
we have all been, talked about, about what we need to do to 
inspire America's youth. And one little story, and some of you 
may have heard this before, but it is just a great story. I 
love it.
    Our youth, the love of space and human space flight is in 
them. And I saw it firsthand. I watched the STS-119 launch back 
in March, with 60 kids at a third grade elementary school in 
Sugarland, Texas. Now, as you can imagine, those kids, they 
came in about 25 minutes before the launch, and as seven and 
eight year olds would do, they just, you know, sat down. I 
talked to them a little bit about what was going to happen, 
what they were, expect to see, and opened up for questions.
    These kids grilled me. I mean, they grilled me for 24 and a 
half minutes, and good questions. And you know, we got down to 
25 seconds left on the countdown, and they cut to a camera 
angle that had the big mission clock, you know, with the front 
of the Shuttle. And of course, didn't see this coming, but you 
know, anybody else in the room could have. Those kids started 
screaming out the countdown at the top of their lungs, you 
know, 25, 24. And they are howling, and having a ball. But 
then, the most, the best part of it, the most inspirational 
thing happened right down as the countdown got down to about 5, 
and the main engine started to come down to life, and then, the 
solid rocket boosters fired, and she left the pad. And when she 
did that, every kid in that room was quiet and just stared at 
that TV, watching that Shuttle climb up into orbit and into 
space.
    NASA has the power to inspire. It is out there, and we just 
need to find a way to tap it. Thank you all for coming today.
    Chairwoman Giffords. Thank you. Thank you, Mr. Olson. You 
know, it wouldn't be a Space Subcommittee hearing, if we didn't 
have a chance to hear from Mr. Ralph Hall. So, Ralph, I just 
wanted you to, I know you didn't have a question, but we would 
love to hear from you.
    Mr. Hall. Thank you, Madam Chairman. What a great chairman 
you are, and thank you for, not even bad to look at. And I have 
tried to get in touch with you when your husband was out of 
this world.
    Thank you. I have been in a very unhealthy atmosphere of a 
health bill, I was giving opening statements, so I am still 
kind of goofy, but this is very important to me, and this is a 
great witness group here. And I am sorry, I did get to read 
some of the opening statements.
    I didn't get to hear the questions, but I really thank you, 
because what you tell us is things that we need to know for the 
future, and I am sure I have an idea of what you said. But what 
we are all saying now is, I don't know about what part of the 
R&D that we are entitled to or we get, but we need just a 
little more of it, because we need to close that four year gap 
in there some way.
    And I tell this story, and I told it to the gentleman who 
is heading up the study, the former CEO of, Norm Augustine, 
that, and my kids hate for me to tell them stories about the 
Depression and World War II, but I make them listen, and 
sometimes, I tell them a story, and then I will wait about ten 
minutes, and I will start over telling it again, and their 
eyelids will click at one another, you know, hit one another. 
And I am just practicing for when I really get in that shape, 
you know. Got to be looking ahead.
    But I told Norm about the last days of the Battle of 
Midway, before the Battle of Midway, which won the Pacific and 
ended the war against Japan. We had one carrier that was really 
fighting shape. We had another carrier that it was to take 
seven months to repair it, to where it could leave the port of 
Honolulu. And Admiral Nimitz went aboard, and that was on a 
Monday, and after his speech to them, he told them that that 
carrier was going to go along with the other carrier, and they 
were going to be a certain spot northwest of Midway, waiting 
for the Japanese to attack. We had broken their code. We knew 
they were coming. We knew where they were coming from. He said 
this ship will be ready no matter what it takes.
    And that is what I want somebody to say to them. It is 
money, and if we can't close it on that four years, either from 
one side, using the bird we have, and I don't know any better 
way to put it than, other than robbing off of the other two, 
but to make it as safe as we can, and get two years down to 
meet the two years that we could encourage the completion of 
our goal.
    It has to be done. We just don't have any choice. We can't 
be subject to Russia's whims, and we can't lose Japan and all 
those other people, as partners as they are now. We have got so 
much to lose, and NASA is great, but I don't think they have 
been great enough to let the word go forth of how great they 
really are, and what they really do for us, and what they have 
done for people my age, and the fallout from health. We simply 
have to have our Space Station, and we need to accept nothing 
less than that. We just got to fight and battle and scratch for 
it. I think everybody here feels about the same way I do about 
it, and I certainly thank you all for your testimony.
    Chairwoman Giffords. Thank you, Mr. Hall. Mr. Rohrabacher.

        Rewarding Scientists and Engineers With Competitive Pay

    Mr. Rohrabacher. Yeah. I just would like to make sure that 
there is one point that needs to be on the record, at least. 
And that is, I think that inspiring young people is more than 
just fluff, and a lot of times, when we take PR approaches, 
that it turns out to be just fluff, and young people can see 
through that.
    And as I say, when I went to that first press conference, 
they had five PR men for NASA, and all focused on the fluff, 
and here is the pictures of the astronauts having fun in the 
space walk. That is less inspiring than having NASA being 
involved in projects that really are going to affect the lives 
of the people on this planet, and that we are fully capable of.
    If we are going to inspire young people, we need that, we 
need substance, and we have got, the potential for substance is 
there. We have now reached a plateau where we have got so much 
in our foundation, intellectually, that it is almost unlimited 
what humankind will be able to do in the future, because of 
what we have, the plateau we have already reached.
    If we are going to have young people, just again, this last 
point, the young people are not going to be inspired if 
engineers and scientists are not paid as much as lawyers. I 
mean, it is as simple as that. Right now, you are not going to 
inspire young people to get involved in engineering and 
scientific endeavors, if they know that engineers and 
scientists drive around in old jalopies, and the lawyers drive 
around in sports cars and live in beautiful homes, and the 
engineers can barely afford to pay their rent.
    We have got to make sure our engineers and scientists are 
paid well, and to do that, I know this is going to go against 
everybody's grain, we should not be bringing in engineers and 
scientists from India and China and elsewhere to lower the 
amount of wages that will be paid to our own people. We need to 
build our own capabilities up, make sure that when someone 
becomes an engineer, and sort of bringing down the pay level, 
by bringing people in from overseas, we should be paying more 
money to our own engineers and scientists.
    That starts right in education. We have to pay our teachers 
who teach science and engineering more money than we do those 
teachers who are teaching history, I am sorry, I am a history 
major, but there is lots of people who want to teach history. 
We need the scientists and engineers teaching our kids, and the 
kids need to know, they are actually, we reward something 
because we need those skills. We need to pay the teachers who 
teach that more money than someone who teaches basket weaving 
or gym or history or whatever.
    So, those things, if we are going to inspire people, let us 
be serious about it. That is where you start, by making sure 
the kids know they are going to, that their own lives are going 
to be able to be better by earning more money, by getting into 
those professions.
    Enough said. Thank you.
    Chairwoman Giffords. Thank you, Mr. Rohrabacher. Yes, Ms. 
Smith.
    Ms. Smith. One of the things that the Space Foundation is 
not timid about at all is going into failed situations, such as 
failed school districts, with space programs to revitalize, to 
inspire and encourage students to get into American science.
    We recently stood up such a project in Colorado in a failed 
school district, and using space as a curriculum there. I think 
that, as we look at K-12, and where does it need to start, and 
whether it is appropriate at K-12 or later in the school 
system, I think it is appropriate for it to start wherever it 
starts, and that we have got to galvanize the interest of 
students, get them more excited than they have ever been about 
math and science, and the potential, and the possibilities that 
space provides.
    Having people know what some of those benefits are is a 
beginning point. I was talking to a group of 13- to 20-year-
olds last week, and talking about the fact that at the gas 
station, that your credit card is cleared by a satellite in 
space. Do you know that? They went no, no I didn't know that. 
How does that happen? There are too many of those examples like 
that, that if highlighted, I think we would be able to bring 
this message closer to the average citizen, and we have got to 
do that.
    Chairwoman Giffords. General Lyles.
    General Lyles. Yes. I agree 100 percent with Congressman 
Rohrabacher. But I might point out that where, perhaps, 
resources are not available to pay people the way they should 
be, the other thing I have found that galvanizes and 
incentivizes and motivates engineers and scientists is having 
great things to work on.
    Last week, I was at, as part of the Augustine Commission, 
we were out at SpaceX, and talking to Elon Musk's team out 
there. Bunch of young engineers and scientists. Every one of 
them said exactly the same thing. They are not there for the 
pay. Right now, the pay is not there. They are still early 
beginning stages of their organization. They are all there for 
the excitement of what they can possibly do to contribute to 
the space program. I have seen the same thing in the Air Force, 
as you know. We don't pay our civil servants a great deal of 
funds, but they are all there, because of the excitement of 
what they can do, and the possibilities of the technologies 
that they can get involved in.
    So, that is another way we need to try to motivate the 
engineers and scientists.

                   Matching NASA's Budget With Goals

    Chairwoman Giffords. Well, I have one final question, and 
it actually stems from the wisdom of Mr. Hall, when he 
mentioned the gap that we are going to have with, only now, 
seven Shuttle launches remaining.
    Mr. Lyles, or excuse me, General Lyles, this is for you, 
and looking at your report and the comments made, there was an 
observation that NASA is inadequately funded to pursue many of 
its responsibilities, and that the Agency is being asked to 
accomplish too much with essentially too little.
    The report language says: ``A coordinated, sustainable set 
of strategies should ensure that responsibilities are 
realistically matched to available resources. Such a match does 
not exist today. For example, NASA has a central role in civil 
space, yet by any reasonable measure, it is inadequately funded 
to pursue many of its responsibilities.'' It goes on to say, 
the report, that: ``Rather than requiring that a broad and 
ambitious program should be fit into an arbitrarily constrained 
budget as has been the case in recent years, a sustainable 
strategy would first define the program that the Nation is 
committee to undertake and then realistically define the 
resources that are required to accomplish that program.''
    Would you please elaborate for the committee how you were 
able to reach that conclusion, and what exactly you meant?
    General Lyles. Well, Madam Chairwoman, I think just looking 
at all the things that are on the plate for NASA, and again, 
our study was of broader civil space activity, but we, in that 
particular case, were looking at NASA. All the things that are 
on the plate for it, for the Agency, all the missions that they 
are being asked to do, all the visions, if you will, for what 
we would like to have out of NASA, whether it is space 
exploration, whether it is the first ``A'' in NASA, 
aeronautics, and they are heavily dependent upon to contribute 
to the aeronautical domain for FAA and others, if you will, 
that the resources do not match all of the things that they are 
tasked to do.
    And our recommendation was that we take sort of another 
look, if you will, not at taking away any of the missions, 
because I don't think any agency is better equipped or better 
stated for doing the things that we have asked NASA to do, but 
figuring out, how can we set the strategy for when some of 
those things get accomplished.
    I was part of President Bush's Implementation Commission 
for the Space Vision, the Aldridge Commission, back in 2004. 
And one of the things we recommended in even taking on the 
broad exploration mission was a statement we called go as you 
can pay. Recognizing that the resources may not be there to do 
everything we want to do in the timeframe, but structure a 
program so you could have successes, and move forward, and get 
closer to your goal, even within the available budget. But 
don't give up the goal.
    So, that was sort of the notion for why our study sort of 
came up with that particular statement. Let us figure out what 
should be the pace, what should be the structure, what should 
be the milestones that we achieve with available resources, if 
we can't get more to add to the mission?
    Chairwoman Giffords. Well, I think I can speak for, on 
behalf of the entire subcommittee and the full committee, that 
we are anxiously awaiting the report from the Augustine 
Commission, and I think the Nation really is waiting, as well.
    I have no further questions. Any other Members?
    Mr. Hall. Madam Chairman.
    Chairwoman Giffords. Mr. Hall.
    Mr. Hall. What would you think of a bailout for NASA?
    Chairwoman Giffords. Well, Mr. Hall, I believe Mr. O'Brien 
had recently, actually, it has been about half an hour, 
suggested a NASA bailout.
    Mr. Hall. I don't know anywhere they could spend it any 
better. And we ought to go demanding those things. You know, 
Jay Leno got right to the point, when he said that those 
automobile makers ought to keep on making automobiles, and 
those folks on Wall Street ought to start making license tags. 
And we need to bear down on them, and back NASA up. And it is 
money, and if we are throwing money away like we are, right, 
left, and sideways, why can't they put it somewhere where it 
really means something, to everybody from K to 12 to graduation 
from college, and some brilliant people like you four, tell 
them we need that.
    We ought to start a write-in right today, urging that this 
$450 billion laying up there somewhere, out of that first $800 
billion, and we just $3 or $4, or maybe $4 or $5 billion. A 
little old billion, a little bitty billion dollar bills.
    Madam, thank you for a good job.
    Chairwoman Giffords. Thank you, Mr. Hall.
    In closing, we, of course, have to congratulate our new 
Administrator at NASA, Charlie Bolden and our new Deputy 
Administrator, Lori Garver, talking about diversity. We are 
going to have an incredible new team, from the Obama 
Administration, that begins today.
    And I think reflected for many of the Members, you know, we 
hear this tremendous concern, our national economy, our energy 
resources. What is happening in health care, what is happening 
in terms of global terrorism? And in terms of, I believe, 
representing the best foot forward that our country can make is 
having a strong space program. And that is something that I 
know that we are going to work collectively on.
    So, I want to thank our panelists for being here today, our 
witnesses, for helping us remind the Nation, this great 
promise, and this great potential that NASA brings to us, and 
the ability to communicate that greatness to America and to the 
world.
    That is the end of our hearing, and I would like the 
Members to know that the record will remain open for two weeks, 
and if there are additional statements being made by the 
Members, they can submit those questions, follow up questions 
on the Subcommittee to our witnesses, and the witnesses are now 
excused, and the Subcommittee is adjourned.
    [Whereupon, at 3:57 p.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


                   Answers to Post-Hearing Questions
Responses by General Lester L. Lyles [U.S. Air Force, Ret.], Chair of 
        the Committee on the Rationale and Goals of the U.S. Civil 
        Space Program, Aeronautics and Space Engineering Board, 
        National Research Council

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  You testified that ``Today, the perception is, everything is NASA-
centric. That may or may not be true, but commercial entities, and 
certainly academia feel they have been left out . . ..'' You went on to 
say, ``as our report points out, . . . we think just changing that way 
you approach business and the way you approach allowing people to work 
the solution will go a long way towards achieving that goal.'' Are 
there any examples from previous years in which the way that NASA 
worked with commercial entities, academia, and other institutions was 
particularly effective? If so, what made those institutional relations 
so effective?

A1. First, the committee was concerned that over recent years NASA has 
strayed from focusing its energies and expertise on advancing the 
frontiers of cutting-edge development of new technological capabilities 
and has diverted too much of its attention and resources to the 
operation of proven elements of space systems. NASA needs to be the 
creative engine that concentrates its energy on pushing the 
technological envelop, and it needs to leave the relatively more 
routine operation of proven systems to the private sector. Second, NASA 
has shifted towards protecting the work of its field centers at the 
expense of drawing more broadly on the expertise of some of the 
nation's premier universities and other private sector institutions to 
pursue civil space program needs.

Q2.  What are the implications of your committee's recommendations on 
aligning space with national priorities for Federal agencies? Was the 
committee suggesting that NASA's mission focus be changed? For example, 
what would you envision NASA's role in addressing national priorities 
such as the provision of clean and affordable energy to be relative to 
the Department of Energy's role? Is there a risk of diffusing the 
objectives for NASA to the point that the agency becomes ineffective?

A2. No, the committee did not mean to suggest that NASA's mission 
should change but, rather, that its mission should be more consciously 
assessed in terms of how it supports broader national needs. For 
example, in the case that you cite regarding national energy issues, 
the committee meant to emphasize that NASA should recognize that (a) 
its climate research program plays a critical role in providing 
information that will help policy makers assess the implications of 
alternative energy policy decisions and (b) its advanced technology 
programs are relevant to searches for new insights to energy technology 
challenges. The capacity of civil space activities to serve foreign 
policy interests is another example of how NASA can align itself with 
broader national priorities. So the committee certainly does not intend 
to diffuse NASA's objectives but, rather, to encourage the government 
to think about NASA's role in the context of how it has the capability, 
within reasonable boundaries of the civil space program, to serve a 
range of broader national interests.

Q3.  Your report's first recommendation--Placing emphasis on aligning 
space program capabilities with current high-priority national 
imperatives, including those where space is not traditionally 
considered--provides a broad policy basis upon which the committee's 
other specific recommendations are made. Are you saying that your other 
recommendations cannot be implemented without successfully establishing 
such an alignment? Do we risk missing unintended breakthroughs from 
broad R&D research if we primarily focus on these national imperatives?

A3. That is not the committee's intention. The committee feels that the 
over-arching need is for the civil space program to be understood and 
supported for its role in supporting broad national priorities. 
Nevertheless, there are important actions to be taken both in support 
of that broad national context and to facilitate a meaningful civil 
space program at any level. However, it is difficult to cite specific 
examples of actions that are needed and that would not also advance 
broader national interests. For example, a strong program of scientific 
research, a strong Earth observation program, rationalization of export 
controls so as to promote a more competitive U.S. aerospace industry, 
and a more robust space technology development program are all 
necessary to sustain U.S. leadership in space and to make the civil 
space program a stronger tool to advance broader national priorities. 
Hence, the recommended actions are needed to meet the broadest national 
needs and to sustain a viable space program.

Q4.  Your report states that ``National space policy too often has been 
implemented in a stovepipe fashion that makes it difficult to recognize 
connections between space activities and pressing national 
challenges.'' The report goes on to recommend that the President ``task 
senior executive-branch officials to align agency and department 
strategies'' and identity opportunities for how space activities can 
address priority issues for the United States and, to an extent, the 
world. Could you elaborate on, what specifically, this recommendations 
means in practice? To what extent can Federal agencies with different 
missions and requirements be aligned? What would you envision as the 
challenges in carrying out this recommendation and what are your 
thoughts on how those challenges should be addressed?

A4. The recommendation was to urge for a process to gather the 
technology needs of various federal agencies, and, to see if these 
needs can be addressed by the technical capabilities of the space 
program. One way to do this is a broad agency call for technical needs 
that can be examined by NASA for applicability to its programs. The 
technical needs could be from any agency. Likewise, this process could 
be applied in the reverse. That is, other organizations (e.g. 000) may 
have technologies that can satisfy NASA's needs. The broad purpose of 
this recommendation is to do a better job of leveraging the technical 
capabilities and resources of agencies rather than have them all do 
their own thing.

Q5.  Your committee's report recommended that ``NASA should revitalize 
its advanced technology development program by establishing a DARPA-
like organization within NASA as a priority mission area to support 
preeminent civil, national security (if dual-use), and commercial space 
programs.'' Could you elaborate on what led the committee to make this 
recommendation? How would the goals and priorities of this organization 
be established? How would it differ from NASA's former Institute for 
Advanced Concepts (NIAC)? Should aeronautics technology development be 
included too?

A5. Our report explained that ``Because of budget pressures and 
institutional priorities, however, NASA has largely abandoned its role 
in supporting the broad portfolio of civil space applications, and the 
[nation's] space technology base has thus been allowed to erode and is 
now deficient. The former NASA advanced technology development program 
no longer exists. Most of what remained was moved to the Constellation 
Program and has become oriented specifically to risk reduction 
supporting the ongoing internal development program.'' We then called 
for a program that would be ``focused not so much on technology that 
today's program managers require, but on what future program managers 
would wish they could have if they knew they needed it, or would want 
if they knew they could have it.'' We also recommended that the program 
``should engage the best science and engineering talent in the country 
wherever it resides--in universities, industry, NASA centers, or other 
government laboratories-independent of pressures to sustain competency 
at the NASA centers'' and that priorities should be driven by an 
extensive, independent, assessment of the current state and potential 
of civil space technology. A rejuvenated NIAC could be one element of 
such a program but not the only one.
    The committee did not address NASA's aeronautics technology 
program, but in my personal opinion, NASA's Aeronautics Mission 
programs are an example of this problem. Previously, there was little 
focus on the fundamental aeronautics needs of NASA or agencies the 
agency supports, e.g. the FAA. In the last couple of years, the 
Aeronautics Mission area has developed a ``Fundamental Aeronautics'' 
program that addresses the basic aeronautical sciences and engineering 
needs of the future. This Fundamental Aeronautics program has been 
especially valuable in nurturing and sustaining critical expertise in 
universities and research companies.

Q6.  Your report's second recommendation is aimed at NASA and NOAA 
taking leadership in forming an international satellite-observing 
architecture capable of monitoring global climate change and its 
consequences and support the research needed to interpret and 
understand the data in time for meaningful policy decisions. In 
particular, you call on NASA and NOAA to plan for transitions to 
continue demonstrably useful research observations on a sustained, or 
operational, basis. As you know, such transitions have been difficult 
in the past. What must NASA and NOAA do to make them successful? How 
should the broader issue of transitioning NASA R&D into applications 
and operational utility to serve national needs be managed?

A6. The 2003 NRC report, Satellite Observations of the Earth's 
Environment: Accelerating the Transition ofResearch to Operations, 
concluded that ``the [current] transition process in general is largely 
ad hoc . . . and no mechanism is available to ensure that the 
transition process in general is efficient and effective.'' To put it 
more starkly, no one either at NASA or NOAA is explicitly accountable 
for planning for and ensuring that transitions are accomplished. 
Therefore the report's principal recommendation called for 
establishment of ``a strong and effective joint NASA-NOAA office to 
plan, coordinate, and support the transitioning ofNASA research to NOAA 
operations.''
    With respect to the broader issue of transitioning NASA R&D to 
serve broad national needs, the committee's recommendation for a DARPA-
like organization to support a preeminent advanced technology program 
should have responsibility for facilitating research-to-applications 
transitions as part of its charter.

Q7.  Your committee's report deals forcibly with the risk of human 
space flight. The report also characterizes the high return to be 
achieved for conducting human space flight. Is there a mechanism 
capable of clarifYing the tradeoff of risk versus benefits for space 
activities? If not, what are the key areas of risk and benefits that 
should be considered in human space flight? What are some examples of 
transformative outcomes?

A7. As you note, the report says that worthwhile human space flight 
activities should have the potential for producing transformative 
cultural, scientific, commercial, or technical outcomes. Such results 
could include achievement of a fundamentally new understanding or 
perspective, a more comprehensive approach, an essential new enabling 
capability, or the opportunity to visit and observe some unique new 
location. The risk-benefit tradeoffs for human space flight are 
probably not quantifiable. But the committee felt that an acceptable 
U.S. human space flight program should be able to serve broad national 
interests in terms of technological development, economic growth, and 
inspiration, and should be of such a caliber that they demonstrably 
contribute to U.S. global strategic leadership. Examples of such 
transformative outcomes in the past would include the Apollo Moon 
landings, successful engineering and construction of the ISS, and the 
repeated repairs and upgrades of the Hubble Space Telescope.

Q8.  Your report recommends that the U.S. government, under the 
leadership of the White House, ``pursue international cooperation in 
space proactively as a means to advance us. strategic leadership''. The 
report recommendation goes on to list several goals that this strategic 
international space cooperation should involve including partnerships 
in global change studies, expanding partnerships in the use of the ISS, 
and engaging developing nations in the use of space technology to 
facilitate sustainable development. How did the committee envision the 
potential implementation of this recommendation? How would you envision 
this strategic leadership be carried out so to align with the US 
government's foreign policy goals and agency roles and 
responsibilities? For example, is this a topic to be included in a G-8 
Summit agenda? Do you see a risk in ``sharing the fruits of our 
ingenuity'', as you put it, with others?

A8. There are many areas where other nations have achieved 
technological capabilities that are competitive with those of the U.S. 
Examples include Europe and Japan in Earth observation and robotic 
scientific spacecraft, Europe and Russia in space launch vehicles, and 
Russia in human spaceflight systems. In cases such as these, the risk 
of collaboration is not about losing our competitive edge by sharing 
with others but about losing an opportunity to play global leadership 
roles and remaining competitive by cooperating and collaborating with 
others. In other cases, the U.S. has an unquestionable technological 
lead, for example compared to third world countries in using space 
observations to benefit agriculture and other terrestrial economic 
sectors. In those cases, the U.S. can also exert leadership to promote 
global well-being without putting its technological advantages at risk. 
A third kind of interaction involves opportunities to cooperate with 
countries where we also compete geopolitically, because civil space 
activities provide a means to promote peaceful nonthreatening 
partnerships even during times of international tensions. This was the 
case with U.S.-USSR cooperation in human spaceflight during the height 
of the cold war. This might be the mode for future U.S.-Chinese 
cooperation in space.
    Decisions about which modes of cooperation to pursue and about 
which elements of the program to utilize need to be made at the highest 
levels of the government. They need to be made in the context of how 
U.S. foreign policy is framed to serve the national interest. Once 
those decisions are made, then there are a variety of platforms, 
including the G-8 and existing international space fora, at which 
proposals can be introduced to foreign partners.

Questions submitted by Ranking Member Pete Olson

Q1.  Your committee recommends the creation of a DARPA-like 
organization within NASA. What budgetary needs would the creation of 
such an office require and if an increase would not accompany it, where 
would such funding come from within the current budget?

A1. In testimony before the committee, former NASA Administrator 
Michael Griffin suggested that a proper budget for a good advanced 
technology program would be about ten percent of the agency's 
development budget or approximately $1 billion, and I think that is the 
right level. Our report was very clear about the fact that there must 
be a realistic match between NASA's assigned responsibilities and its 
resources: ``Rather than requiring that a broad and ambitious program 
be fit into an arbitrarily constrained budget as has been the case in 
recent years, a sustainable strategy would first define the program 
that the nation is committed to undertake and then realistically define 
the resources that are required to accomplish that program.''

Q2.  Please elaborate on the differences as you see them between the 
benefits to having a long-term vision as opposed to a more short term 
one? How, in light ofPresident Bush's Vision announcement in 2004 and 
two subsequent Authorizations by Congress, did the program become 
``unfocused?'' What can be done to prevent such a thing from occurring 
in the future?

A2. In my opinion, the long-term vision presented by President Bush in 
the 'Space Exploration Policy'' of2004 seems to have gotten off-track 
both at NASA and in the budgetary process involving OMB. NASA focused 
many of its resources and efforts on the Constellation program. Some 
basic science programs, and other developments, were not funded if they 
did not seem to support Constellation. This was not helped by OMB, 
which did not support programs that were not linked to Constellation. 
The solution to this is to mandate that any such program be balanced 
between long-term needs and short-term efforts, which may actually be 
enablers for future capabilities.

Q3.  You talk about aligning space program capabilities in areas not 
traditionally considered. What are some of those non-traditional areas?

A3. NASA's core mission has always revolved around space exploration, 
space science, and space technology. The committee did not intend to 
redirect NASA from those roles but to encourage attention to how those 
areas could serve a broader range of national interests. For example, 
space technology programs can benefit from and contribute to the state 
of the art in advanced materials, computational design and modeling, 
batteries and other energy storage devices, fuel-cell and compact 
nuclear power systems, fault-tolerant electronics, optics, and 
robotics. These areas are important in energy and transportation 
management, medicine, and many manufacturing sectors. Another example, 
which extends to both NASA and NOAA, relates to the fact that Earth 
remote sensing measurements from space and studies of the science of 
climate change are critically important for energy policy decision 
making, because alternative choices about approaches to meeting energy 
demands can have profound and profoundly different environmental 
effects.
                   Answers to Post-Hearing Questions
Responses by Patti Grace Smith, Member of the Board of Directors, The 
        Space Foundation

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  Your written testimony refers to the use of new communications 
channels such as Facebook to reach out to kids and get them excited 
about space. Do we know whether or not social networking media sustain 
interest in space? What happens to those Facebook users beyond their 
online interaction? What content do you think will be most successful 
in sustaining kids' interest in space?

Q2.  The trends described in The Space Report 2009 regarding interest 
and achievement in the math, science, and technology subjects vital to 
the space industry give me pause, especially the finding about 18% and 
23% of U.S. high school seniors being proficient in science and math 
respectively. Are there any initiatives that the Space Foundation has 
undertaken that give evidence of increasing student engagement in math 
and science? If so, could you briefly describe them?

A1. We've seen in the past few election cycles that people who connect 
through social networking sites, can and will translate their on-line 
interest with real world activity and support. The Wall Street Journal, 
CNN, Forbes and other established media outlets have all reported that 
companies are investing a lot of time and energy into understanding and 
eventually harnessing the power of these social networking sites for 
their own business interests. Those of us who care about our future as 
a space faring nation need to take this seriously and see what we can 
learn in order to engage and sustain the interest and support of young 
people.
    I also feel I must point out the incredible amount of usage of 
Facebook and Twitter during the recent political unrest in Iran. These 
can be powerful tools.
    One caveat I must provide the subcommittee is that usage of social 
networking is not an across-the-board phenomenon. Now that Web 2.0 has 
been around a few years, researchers are finding that better educated, 
more affluent children are utilizing it more than less affluent 
children. Our community cannot have a one-size-fits-all approach. We 
need to be flexible and adapt communication abilities that fit 
whichever audience we are seeking.
    As for content, I think we need for it to be-honest, compelling and 
present near-term opportunities for young people. We also need to be 
ready to jump onto whatever comes after Web 2.0.

A2. We have an entire education department that works with students and 
teachers K-12 on improved STEM curriculum. In my full testimony I 
touched upon those specific programs. In my oral testimony in response 
to a question about education I briefly mentioned the brand new program 
the Space Foundation has embarked upon with a school district in 
Colorado.
    Colorado Springs School District 11 (D-11) has approved a proposal 
to create an aerospace-focused middle school in the former Emerson 
Middle School in partnership with the Space Foundation.
    The new school, which will be named Jack Swigert Aerospace Academy 
in honor of former astronaut and Colorado native John L. ``Jack'' 
Swigert, will open this fall with a space-related curriculum designed 
to drive proficiency in science, technology, engineering, and 
mathematics (STEM). It is located at 4220 E. Pikes Peak Ave. in 
southeastern Colorado Springs.
    The Space Foundation will:

        <bullet>  Deliver on-site space-related education programs for 
        students and teachers;

        <bullet>  Provide opportunities for students and teachers to 
        participate in Space FOlindation programs that bring space 
        industry leaders and leading-edge technologies to the Colorado 
        Springs area;

        <bullet>  Provide enhanced professional development for Swigert 
        Aerospace Academy teachers;

        <bullet>  Create state-of-the-art teaching facilities and 
        equipment; and

        <bullet>  Develop an on-site National STEM Teacher Training 
        Center that will serve the entire district as well as bring in 
        educators from throughout the country.

Student Programs

    Among the student programs provided at the new space school will be 
a customized version of the Space Foundation's Science, Technology, and 
Academic Readiness for Space (STARS) curriculum. STARS includes 90 
minutes of Space Foundation-provided instruction each week as well as 
follow-up classroom activities on topics such as rocketry principles, 
astronomy, earth systems science, and principles of flight. Students 
may also have opportunities to attend education sessions at the 
National Space Symposium and to interact with government and industry 
space leaders.

Teacher Programs

    The Space Foundation will ensure that teachers have the skills to 
provide space-related instruction in the classroom through a series of 
in-service, professional development, and training programs. The Space 
Foundation will also conduct its Colorado Springs Space Discovery 
Institutes at the Swigert Aerospace Academy beginning in 2010. These 
intensive week-long classes provide ready-to-use space-related STEM 
lesson and activity plans and can be applied toward master's degrees in 
a variety of science and space studies specialty areas.

Teaching Facilities and Equipment

    The Swigert Aerospace Academy will house three learning labs to 
enhance classroom learning opportunities:

        <bullet>  The Mission Control Lab, which will open during the 
        second semester, will simulate launch, flight and landing of a 
        plethora of satellite space missions.

        <bullet>  The Planetary Rover Lab, which will open during the 
        2010-2011 school year, will include construction of a simulated 
        Martian terrain to be used for robotics missions using student-
        designed-and-built robots.

        <bullet>  The Science on a Sphere (SoS) Lab, which will be 
        built if adequate philanthropic support can be secured, will 
        house a room-sized global display system that uses computers 
        and video projectors to display planetary and solar system data 
        and images onto a six-foot-diameter sphere. Developed by the 
        National Oceanographic and Atmospheric Administration (NOAA), 
        SoS can illustrate many compelling images, including 
        atmospheric storms, climate change trends, ocean temperatures, 
        and celestial bodies.

    Although primarily for use within the Swigert Aerospace Academy, 
the labs can also host classes from other schools within the district 
and students from other districts, providing additional financial 
resources for the school.

Question submitted by Ranking Member Pete Olson

Q1.  Compared to other industries, can you give an overview of the 
state of the aerospace' industry, particularly in regard to its growth?

A1. Aerospace is not immune to the larger global economic forces 
currently at work. Major aerospace companies have begun to have layoffs 
due to expected flat budgets at NASA and the Department of Defense on 
major new sophisticated programs. The most recent forecast from the 
Aerospace Industries Association (AlA) has forecasted for the near term 
future reduced federal R&D budgets that will impact American aerospace. 
Recently both Boeing and Airbus have had trouble delivering new 
flagship airliners on time to their customers.
    The most recent Commercial Space Transportation Forecasts from the 
FAA's Office of Space Transportation, which looks ahead through 2018, 
project an average annual demand of26.7 commercial space launches 
worldwide from 2009 to 2018. The forecasts are a decrease of3 percent 
compared to the 2008 forecast of 27.4 launches per year. Twenty-eight 
commercial launches occurred worldwide in 2008. Additionally, Forecast 
International (FI) projects 636 expendable launch vehicles to be 
produced over the coming decade, worth approximately $48 billion.
    As stated in our 2009 Space Report, the recent credit crunch has 
also impacted the ability of commercial space companies to obtain 
capital. This crunch may delay the acquisition of replacement satellite 
systems by commercial satellite fleet operators. Companies with strong 
balance sheets in this period of economic uncertainty may also see to 
build alliances with industry partners or seek outright mergers and 
acquisitions.
                   Answers to Post-Hearing Questions
Responses by Debbie Adler Myers, General Manager Science Channel

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  In Mr. O'Brien's prepared statement, he said that NASA's Public 
Affairs needs to ``speak with one voice.'' At the same time, he 
testified during the hearing that NASA workers ``need to be empowered'' 
and ``spread the word.'' He mentioned being allowed to twitter as one 
example of empowerment. That of course raises the issue of how to 
approach having NASA speak with one voice while also encouraging 
empowered workers to speak as individuals without being concerned about 
being ``off message'' can be reconciled. What is your reaction to Mr. 
O'Brien's statements?

    This notion of ``staying on message'' while also having freedom of 
expression is something we've considered at Science Channel as well. We 
often have new hosts and presenters on our series with personal 
interests in Facebook, Twitter or other forms of social media. Some are 
also working journalists, either professional bloggers or print 
reporters. We've developed guidelines to help our social media-inclined 
talent understand how we talk about Science Channel and when it's 
appropriate to share information.
    What could be very exciting for NASA is developing a program that 
would allow chosen employees to begin using social media. NASA could 
identify the best people, at all levels of the organization, not just 
at the top, who would be ambassadors to spread the word about their 
agency and specific missions. Once selected, they would be trained and 
given ground rules, then encouraged to reach out to their social 
networks or create new ones. Allowing a large, but selected group of 
people to authentically spread the word about their work would give 
NASA a greater voice and allow the personalities and passion of the 
employee base at the agency shine.

Q2.  What do you view as the most significant barriers for NASA in 
communicating the relevance and inspiration of space to the public at 
large? What would you recommend be done to overcome those barriers?

A2. The biggest challenge is how to make what NASA is doing 
understandable and exciting to a general audience. Public-private 
partnerships could help overcome this barrier. Science Channel and 
other private companies play an important role in getting the word out. 
IfNASA could create a forum for regularly sharing information about 
their upcoming missions and research, it would allow the private sector 
to help them get the general public invested in their success. 
Quarterly briefings to media organizations would allow NASA the 
opportunity to not just tell us what the data says, but also what it 
really means, or could mean to the future. At Science Channel, it's our 
responsibility to take the work of NASA and make it relevant to 
people's lives--our job is to take the information provided and craft 
it into amazing content that lives on television, online, mobile and 
devices yet to be invented.

Q3.  Your prepared statement speaks to the interest that your viewers 
have in space and notes that ``it is one of their favorite subjects'' 
and ``space programming rated 25% higher' than your network average 
during the last quarter. How do you reconcile the interest that your 
viewers express with the oft-expressed notion that there is waning 
public interest in space?

A3. We look for great space stories and present them in a way that 
engages our audience and inspires them to think and feel. It's 
important to note that we aren't presenting research papers or showing 
missions in real time (unless we are live)--instead we have the 
tremendous luxury of following a project for months and editing it into 
a riveting hour of television. That's very different than watching a 
silent space walk in real time--we can explain what's happening, 
provide background about the dangers the astronauts face and put the 
mission in the context of human achievement. It takes a team of 
incredibly talented producers and editors, as well as willing 
astronauts and scientists, to make this hour of television.
    Customizing content for different audiences is not a ``one size 
fits all'' format, it's an art form. We seek to make people feel a 
connection to space. We've found that viewers want information for 
their brains, but they need us to capture their emotions at the same 
time. In short, we do not believe that interest in space is waning, but 
that the citizenry is simply demanding that space information be 
presented in engaging and accessible formats that make space relevant 
to their lives.

Q4.  In your written statement, you note that ''we bring science to 
life by making it relevant to people's everyday lives, celebrating the 
ingenuity in all of us.'' That gets to the heart of this bearing. How 
do Science Channel and Discovery go about making space relevant to 
people's everyday lives? In that regard, you note in your prepared 
statement that ``the cliche we struggle against is that science is 
boring and dry and something that I might not understand.'' How does 
Discovery work to entertain without compromising depth and scientific 
accuracy?

A4. Scientific accuracy is absolutely essential to all that we do 
without it, we're a pure entertainment channel. What we've found is 
that a mix of approaches to science is critical to success. We have 
nights of very deep science, including physics and mathematics. But 
we're also programming lighter nights, with a science trivia show or an 
engineering competition series. It's important to appeal to people with 
widely different interests in (and understanding of) science. We give 
them a base of knowledge and encourage them to sample our more 
challenging fare. If presented in the right way--with engaging experts 
and great visuals, with a storyline that makes it clear that this 
science matters, that it's part of their lives--then we've succeeded. 
We also provide a depth of resources online for people who might want 
to learn more--this is hosted on a combination of ScienceChannel.com 
and HowStuftWorks.com. And, finally, we're experimenting with new ways 
for audiences to connect with our mission and content, through Twitter, 
Facebook, gaming and mobile devices.

Q5.  For what purposes and with what type of content does it make sense 
to use social media, such as Facebook and Twitter, for outreach on 
space activities and when does it not make sense?

A5. Social and new media is absolutely critical to the future success 
of our business. This is an entirely new language for the current 
generation. What we've found is that when people feel like they can see 
behind the scenes, they get a sense of ownership and connection. When 
we open up our content and mission via social media, we give a voice 
and personality to Science Channel and we provide a more intimate 
relationship to our audience.
    A majority of our time has been spent on Twitter outreach--it's an 
instantaneous assessment of what our viewers like, what kinds of 
information they seek out and how they're reacting to our website or 
programming. We have a very active Twitter channel where we host 
scientists, talent and our own staff members for live sessions and we 
also re-post information that we think is pertinent to our audience--
like interesting articles from Popular Science or a science magic show 
in New York City. In the space genre, we actually hosted a NASA 
scientist on our Twitter live during the Hubble repair mission. Our 
audience loved it--their questions were answered in real time as they 
watched the launch.
    It makes sense to use Twitter if you have the time to create a 
``personality'' for your feed. It helps to have just a few people 
creating a voice for the organization and then host people who can 
provide a greater depth of information. Imagine how exciting it would 
be for people to tweet with a former astronaut during an important 
mission. Or with a NASA Mars expert during the next Hollywood feature 
film that has a storyline about a colony on the red planet? Using 
Twitter would make NASA exciting and more three dimensional.

Q6.  In your prepared statement, you refer to Discovery's partnership 
with NASA, and other entities, ``to film their amazing achievements and 
then bring them to the viewer at home.'' You also noted how a dialogue 
with NASA about its research and future missions led to an eight-part 
series you'll air on the big questions in space. How well are these 
types of partnerships working? What are the best ways to leverage the 
strengths of both NASA and outside communications entities to inspire, 
engage and educate about space and the benefits of space to society?

A6. The partnership with NASA Goddard that lead to the series with 
Morgan Freeman has been a tremendous success. Our first meeting set the 
stage for a deeper partnership and we are now creating an ``advisory 
committee'' to help us shape the program further. NASA has provided us 
with access to scientists, footage and technology and will serve as our 
technical advisor on the series to ensure accuracy. Our goal is to take 
what NASA is doing now and project it three more steps into the future, 
so the accuracy of our projections is critical.

Q7.  1A provision in the NASA Authorization Act of 2008, which became 
Public Law 110-422, focuses on ways to enable public participation in 
space exploration missions to the Moon, Mars or other bodies by using 
technologies that can deliver a rich, multimedia experience of the 
actual exploration mission to the public through broadcasts and the 
Internet. What are your thoughts on how digital communications and 
communications technologies might help bring the public closer to 
experiencing space exploration?

A7. As discussed above, there are a multitude of options. NASA could 
have a former astronaut or other expert available to twitter during a 
key mission, or have interactive quizzes or fast facts available on a 
dedicated website page so that viewers could follow up on or dive 
deeper into topics they find to be of particular interest, or partner 
with media companies who can provide access to supplemental 
entertainment and educational resources such as space-related movies, 
documentaries, or books, or reach out to schools by showing missions in 
the classroom over broadband connections so that teachers can guide 
students' experiences as part of their curricula.

Questions submitted by Ranking Member Pete Olson

Q1.  What might Congress do to enable better and more effective 
partnerships between private broadcasters and government agencies?

A1. Congress' information-gathering and lawmaking authority well 
positions it to ensure that public-private partnerships exist. Simply 
knowing that Congress feels this is critically important is very 
motivating. Pose the questions to us and challenge the public and 
private sectors to come up with solutions together. I recommend 
starting a media advisory committee to work with NASA and NOAA to help 
them better communicate their messages to the media. We need better 
access to scientists and people who want to tell their stories and we 
also need to help those people learn how to make their stories 
compelling. I would welcome the opportunity to help the agencies with 
this process and with setting up engaging quarterly briefings for 
media.

Q2.  What obstacles have you seen within NASA that, as a government 
agency, prohibit it from publicizing its achievements?

A2. Because NASA's core mission is not one of story-telling or self-
promotion, but rather one of scientific exploration, it can benefit 
from public-private partnerships with entities whose primary mission is 
to educate and inspire the pUblic. We were incredibly lucky to find a 
champion at NASA Goddard to help us navigate the agency and this has 
been critical to the success of our partnership and our ability inform 
the citizenry about the exciting things NASA has done and plans to do. 
Congressional encouragement of such partnerships and NASA's ongoing 
education of its partners about what it is doing are essential to the 
creation of vital and productive partnerships-partnerships that tell 
engaging stories and make space relevant to people's lives in ways that 
would be difficult for NASA to do alone.

Q3.  Regarding NASA's communications and messaging strategies; what is 
NASA particularly good at? In what forum and on what subjects is NASA 
the most effective?

A3. NASA is at its very best when something BIG is happening, such as 
potentially finding water on Mars. No one is better at the big finds, 
providing free footage, access to experts and amazing resources to 
media.
                   Answers to Post-Hearing Questions
Responses by Miles O'Brien, Journalist

Questions submitted by Chairwoman Giffords

Q1.  In your prepared statement, you stated that ``the agency, 
dispersed geographically as well by centers of expertise and excellence 
-does not speak with one voice as it should. Public Affairs here in 
Washington needs more authority to direct the far flung PR operations . 
. ..'' In addition, you testified during the hearing that the NASA 
workforce needs ``to be empowered . . . because if you unleashed the 
power of that workforce, and allowed them to spread the word, we could 
just stand by and watch them win the country over.'' You mentioned 
allowing workers to twitter as one way to help empower them. How do you 
reconcile the need for the agency to ``speak with one voice'' while at 
the same time allowing each individual worker to speak as an individual 
and not be concerned about being ``off message''?

A1. The remarks may seem inconsistent, but I am talking about the 
difference between strategy and tactics. The Public Affairs Office in 
Washington needs to have more direct authority over the PAO offices in 
the field centers and the EPO personnel assigned to specific mission 
directorates. All of these entities have tremendous autonomy to conduct 
public relations as they see fit. This leads to inconsistencies, 
inefficiencies and parochial interests trumping the greater good for 
NASA on a national level. NASA must have a single entity that is seeing 
the big picture when it comes to messaging. All that said, there is 
tremendous untapped potential to harness the enthusiasm, passion and 
knowledge that NASA foot soldiers possess. Social networking is an 
amazingly powerful tool to engage people in the adventure of space in a 
very personal way. NASA's workforce should be empowered to engage 
people in this manner--but just like the PAO and EPO offices in the 
Centers and Directorates--the people who engage in social networking 
must be aware of the boundaries and the overall priorities of the 
agency. NASA is filled with smart people who want to do the right thing 
for the agency (and for the great goal of keeping the public engaged in 
space) so I suspect the agency might be pleasantly surprised at how 
effective this approach might be. Loosening the reins is not without 
risk, but the upside far outweighs the possible occasional 
embarrassment that might arise.

Q2.  What do you view as the most significant barriers for NASA in 
communicating the relevance and inspiration of space to the American 
people and to the public at large? What do you recommend be done to 
overcome those barriers?

A2. The biggest barrier is timidity and fear. Frankly, NASA has become 
so worried about making a misstep that will offend a member of 
congress, an OSTP staffer or the general public that it often delivers 
a message that is bland to the point of banality. The irony is NASA, an 
agency that knows as much about risk (and managing it)--is risk averse 
when it comes to talking about that very risk. This is a problem that 
primarily infects the piloted space side of the house--and has deep 
roots in the way the space shuttle program was sold to Congress. NASA 
sold the STS as a routine ``airliner-like'' avenue to space--and thus 
downplayed the tremendous risk of flying a space shuttle. This gave the 
public good reason to tune out when the missions flew--and then 
alienated and angered people when it became tragically apparent that it 
was not the case. NASA should embrace the risk--and speak candidly 
about it. The public will be all the more fascinated if they know the 
real stakes when people push the high frontier.

Q3.  For what purposes and with what type of content does it make sense 
to use social media, such as Facebook and Twitter, for outreach on 
space activities and when does it not make sense?

A3. It makes good sense for NASA workers to share the day to day 
excitement and challenge associated with their jobs. What is it like to 
be faced with a huge problem that no one has solved--and have to think 
up a solution--and by the way--human lives are at stake . . .. Or how 
do smart people decide where to land on a distant planet. And what are 
the trade-offs between weight, capability, budget and time as you build 
a spacecraft. What amazing findings have NASA's armada of spacecraft 
yielded--and what do they tell us about the universe? Are we alone? 
What do NASA people think? Why are they so excited to go to work every 
day? Why is learning something really hard, like engineering or 
physics, so worth it? Why does an astronaut with a family believe it is 
worth risking his/her life to go to space? It goes on and on . . . NASA 
is a narrative rich environment. There are so many good stories to tell 
that would engage people. The areas where NASA folks on the social nets 
should steer clear should be obvious: talking about operational 
decisions in real time, commenting on agency policy or making political 
statements. But if NASA can trust its people with the lives of its 
astronauts, surely they can be trusted to speak freely (within 
boundaries) about their work with the public.

Q4.  There's an ongoing national conversation about the news industry 
being in jeopardy, and the role of journalism in society. With regard 
to science, we depend on skilled journalists who can sort through the 
complex issues, who can report in a balanced way, and who can help 
people understand what they need to know about current science and 
research, and how it impacts their families and communities. This 
matter is particularly relevant to today's hearing on the relevance of 
space to people's lives. To what extent does the quality of journalism 
about space affect the public attitudes, understanding, and awareness 
of space?

A4. The skilled journalists who have expertise in this realm are still 
out there--but they are no longer at the mainstream outlets--which have 
gone out of their way to ignore science and technology coverage--Even 
in the face of evidence there is a large audience with an appetite for 
the content. That said, the mainstream outlets, with few exceptions, 
are in their own race to the bottom and no one in Congress or at NASA 
should spend much time pondering cures to what amounts to a terminally 
ill patient. The good journalists are finding homes in new places. They 
are on the web, blogging. tweeting and meeting their audience on 
Facebook. They are producing video content for virtually no cost at 
all-and they are informing an audience that finds them wherever they 
are in the world. The good journalists are still out there but they are 
in a different neighborhood. They are no longer constrained by the 
confines of Michael Jackson, Balloon Boy and Tiger Woods and thus they 
are providing much more in depth coverage than ever. This only further 
buttresses the case that NASA needs to be a player in this league.

Q5.  You are now covering Shuttle launches for web viewers through a 
website. Does the difference between a general audience, as is the case 
for national news outlets, and a space-specific audience, as is likely 
the case for most space websites, alter the way you report? Are there 
any conclusions you would offer as to how space activities might be 
reported more effectively to the general public in order to generate 
and maintain viewer interest?

A5. Clearly when I am on for six straight hours, I have time to indulge 
viewers in minutiae and details that would never see the light of day 
on CNN. But as a history major. I come to the technical field always 
cognizant of the Humanities Nation. You need to be unafraid to delve 
into the world of the left brain--while always operating from the right 
brain. It is possible to introduce an audience to complex ideas--so 
long as you are learning with them. This is how you keep viewers 
engaged and that is where NASA, an organization of scientists and 
engineers, often misses the mark with the general public. Not everyone 
speaks the language
    of space--indeed most people are positively phobic about it. 
Finding people who have a foot in the world of the arts and language--
and no fear of the technical is the key to pushing NASA outside its 
bubble.

Question submitted by Ranking Member Pete Olson

Q1.  What obstacles have you seen within NASA that, as a government 
agency, prohibit it from publicizing its achievements?

A1. See response to number 2.

Q2.  Regarding NASA's communications and messaging strategies; what is 
NASA particularly good at? In what forum and on what subjects is NASA 
the most effective?

A4. I would give a gold star to JPL--for allowing the public to engage 
in a special kind of participatory exploration. They were the first to 
allow people to see science at the same time the scientists got the raw 
data--and they have never blinked since then. Their efforts to pioneer 
the use of Twitter and other social networks remain in the vanguard for 
NASA. In Houston, there are pockets that have understood this and have 
pushed the social networking envelope--but it is in spite of Public 
Affairs--not because of it. The lesson here is there are passionate 
people champing at the bit to share their love of space with a larger 
audience. NASA must find a way to give them some freedom--or ultimately 
the agency will become irrelevant.

                                  

</pre></body></html>
